No. 20-157
IN THE

Supreme Court of the United States
————
EDWARD A. CANIGLIA,
Petitioner,
v.
ROBERT F. STROM, et al.,
Respondents.
————
On Writ of Certiorari to the
United States Court of Appeals
for the First Circuit
————
JOINT APPENDIX
————
Shay Dvoretzky
Counsel of Record
Jonathan L. Marcus
Emily J. Kennedy
Sylvia O. Tsakos
SKADDEN, ARPS, SLATE,
MEAGHER & FLOM LLP
1440 New York Ave., NW
Washington, DC 20005
(202) 371-7000
shay.dvoretzky@skadden.com

Marc DeSisto
Counsel of Record
Michael A. DeSisto
Rebecca Tedford Partington
DESISTO LAW LLC
60 Ship Street
Providence, RI 02903
(401) 272-4442
marc@desistolaw.com
michael@desistolaw.com
rebecca@desistolaw.com

Emma S. Gardner
SKADDEN, ARPS, SLATE,
MEAGHER & FLOM LLP
One Manhattan West
New York, NY 10001

Counsel for Respondents

Thomas W. Lyons
Rhiannon S. Huffman
STRAUSS, FACTOR,
LAING & LYONS
One Davol Square, Suite 305
Providence, RI 02903
Counsel for Petitioner
PETITION FOR CERTIORARI FILED AUGUST 10, 2020
CERTIORARI GRANTED NOVEMBER 20, 2020

TABLE OF CONTENTS
Page
Docket Entries, Caniglia v. Strom, et al.,
No. 19-1764 (1st Cir.)................................

1

Docket Entries, Edward A. Caniglia v.
Robert F. Strom, as the Finance Director
of the City of Cranston, No. 1:15-cv00525-JJM-LDA (D.R.I.)...........................

9

Materials from District Court Proceedings
No. 1:15-cv-00525-JJM-LDA (D.R.I.)
Plaintiff’s Statement of Undisputed Facts
(Dkt. # 44) (12/17/2018) ............................

39

Exhibit C to Plaintiff’s Statement of
Undisputed Facts: Deposition Transcript
of Cpt. Russell C. Henry, Jr. (dated
June 13, 2018) (excerpts) (Dkt. # 44-3)
(12/17/2018) ...............................................

64

Exhibit D to Plaintiff’s Statement of
Undisputed Facts: CPD General Order
000.01 (Dkt. # 44-4) (12/17/2018) .............

68

Exhibit E to Plaintiff’s Statement of
Undisputed Facts: CPD General Order
100.10 (Dkt. # 44-5) (12/17/2018) .............

69

Exhibit F to Plaintiff’s Statement of
Undisputed Facts: CPD General Order
320.80 (Dkt. # 44-6) (12/17/2018) .............

84

Exhibit G to Plaintiff’s Statement of
Undisputed Facts: CPD General Order
350.20 (Dkt. # 44-7) (12/17/2018) .............

86

(i)

ii
TABLE OF CONTENTS—Continued
Page
Exhibit H to Plaintiff’s Statement of
Undisputed Facts: CPD General Order
320.70 (Dkt. # 44-8) (12/17/2018) .............

127

Exhibit M to Plaintiff’s Statement of Undisputed Facts: Deposition Transcript of
Officer John Mastrati (dated May 13, 2018)
(excerpts) (Dkt. # 44-13) (12/17/2018) ......

136

Exhibit O to Plaintiff’s Statement of Undisputed Facts: Deposition Transcript of
Officer Wayne Russell (dated July 20, 2018)
(excerpts) (Dkt. # 44-15) (12/17/2018) ......

140

Exhibit R to Plaintiff’s Statement of
Undisputed Facts: Deposition Transcript
of Kim Caniglia (dated June 27, 2018)
(excerpts) (Dkt. # 44-18) (12/17/2018) ......

142

Exhibit U to Plaintiff’s Statement of
Undisputed Facts: Deposition Transcript
of Richard Greene (dated July 26, 2018)
(excerpts) (Dkt. # 44-22) (12/17/2018) ......

147

Defendants Statement of Undisputed Facts
(Dkt. # 46) (12/17/2018) ............................

152

Exhibit 1 to Defendants Statement of
Undisputed Facts: .....................................

161

Exhibit “A”: Deposition Transcript of
Kim Caniglia (dated June 27, 2018)
(excerpts) ...................................................

161

Exhibit “B”: Affidavit of Kim Caniglia
(dated December 17, 2015) .......................

172

iii
TABLE OF CONTENTS—Continued
Page
Exhibit “C”: Deposition Transcript of
Officer John Mastrati (dated May 31,
2018) (excerpts) .........................................

176

Exhibit “E”: Notification re: Audio
Recording dated August 21, 2015 ............

187

Exhibit “F”: Deposition Transcript of Sgt.
Brandon Barth (dated July 19, 2018)
(excerpts) ...................................................

188

Exhibit “G”: Deposition Transcript of
Edward A. Caniglia (dated June 29,
2018) (excerpts) .........................................

196

Exhibit “H”: Deposition Transcript of
Capt. Russell C. Henry, Jr. (dated June
13, 2018) (excerpts) (Dkt. # 46-1)
(12/17/2018) ...............................................

201

Plaintiff’s Statement of Disputed and Undisputed Facts (Dkt. # 55) (01/30/2019) ........

204

Exhibit 1 to Plaintiff’s Statement of Disputed and Undisputed Facts: Deposition
Transcript of Kim Caniglia (dated June
27, 2018) (excerpts) (Dkt. # 55-1)
(01/30/2019) ...............................................

217

Exhibit 3 to Plaintiff’s Statement of Disputed and Undisputed Facts: Deposition
Transcript of Edward A. Caniglia (dated
June 29, 2018) (excerpts) (Dkt. # 55-3)
(01/30/2019) ...............................................

219

Plaintiff’s Statement of Additional Undisputed Facts (Dkt. # 56) (01/30/2019) ........

224

iv
TABLE OF CONTENTS—Continued
Page
Exhibit FF to Plaintiff’s Statement of
Additional Undisputed Facts: Deposition
Transcript of Sgt. Brandon Barth (dated
July 19, 2018) (excerpts) (Dkt. # 56-1)
(01/30/2019) ...............................................

228

Defendants Statement of (Additional) Undisputed Facts (Dkt. # 58) (01/30/2019) ........

230

Exhibit 1 to Defendants Statement of
(Additional) Undisputed Facts: ................

235

Exhibit “K”: Deposition Transcript of
Kim Caniglia (dated June 27, 2018)
(excerpts) ...................................................

235

Exhibit “N”: Deposition Transcript of Sgt.
Brandon Barth (dated July 19, 2018)
(excerpts) (Dkt. # 58-1) (01/30/2019) ........

239

Defendants’ Statement of Disputed Facts
(Dkt. # 59) (01/30/2019) ............................

245

Exhibit 1 to Defendants’ Statement of
Disputed Facts: Exhibit “3”: Deposition
Transcript of Officer John Mastrati
(dated May 31, 2018) (excerpts) (Dkt. #
59-1) (01/30/2019)......................................

283

Defendants’ Statement of Additional
Disputed Facts (Dkt. # 62) (02/06/2019) ..

287

Exhibit 1 to Defendants’ Statement of
Additional Disputed Facts: Exhibit “11”:
Deposition Transcript of Sgt. Brandon
Barth (dated July 19, 2018) (excerpts)
(Dkt. # 62-1) (02/06/2019) .........................

293

v
TABLE OF CONTENTS—Continued
Page
Plaintiff’s Additional Statement of Disputed and Undisputed Facts (Dkt. # 65)
(02/06/2019) ...............................................

295

Exhibit 1 to Plaintiff’s Additional Statement of Disputed and Undisputed Facts:
Deposition Transcript of Kim Caniglia
(dated June 27, 2018) (excerpts) (Dkt.
# 65-1) (02/06/2019)...................................

305

Exhibit 2 to Plaintiff’s Additional Statement of Disputed and Undisputed Facts:
Deposition Transcript of Officer John
Mastrati (dated May 31, 2018) (excerpts)
(Dkt. # 65-2) (02/06/2019) .........................

307

1
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
————
Court of Appeals Docket #: 19-1764
————
CANIGLIA,
v.
STROM, et al.
————
DOCKET ENTRIES
DATE

DOCKET TEXT

08/02/2019 CIVIL CASE docketed. Notice of appeal
(doc. #72) filed by Appellant Edward A.
Caniglia. Docketing Statement due
08/16/2019. Transcript Report/Order form
due 08/16/2019. Appearance form due
08/16/2019. [19-1764] (CMP) [Entered:
08/02/2019 11:40 AM]
08/02/2019 NOTICE of appearance on behalf of
Appellant Edward A. Caniglia filed by
Attorney Thomas W. Lyons. Certificate of
service dated 08/02/2019. [191764] (TWL)
[Entered: 08/02/2019 03:43 PM]
08/02/2019 TRANSCRIPT report/order form filed by
Appellant Edward A. Caniglia indicating
transcripts are being ordered. Certificate
of service dated 08/02/2019. [19-1764]
(TWL) [Entered: 08/02/2019 03:44 PM]

2
DATE

DOCKET TEXT

08/02/2019 DOCKETING statement filed by Appellant Edward A. Caniglia. Certificate of
service dated 08/02/2019. [19-1764]
(TWL) [Entered: 08/02/2019 03:45 PM]
08/06/2019 NOTICE of appearance on behalf of
Appellees Brandon Barth, Cranston, RI,
Russell C. Henry, Jr., John Mastrati,
Robert Quirk, Wayne Russell, Austin
Smith, Robert F. Strom and Michael J.
Winquist filed by Attorney Marc DeSisto.
Certificate of service dated 08/06/2019.
[19-1764] (MD) [Entered: 08/06/2019
02:07 PM]
08/06/2019 NOTICE of appearance on behalf of
Appellees Brandon Barth, Cranston, RI,
Russell C. Henry, Jr., John Mastrati,
Robert Quirk, Wayne Russell, Austin
Smith, Robert F. Strom and Michael J.
Winquist filed by Attorney Patrick K.
Cunningham. Certificate of service dated
08/06/2019. [19-1764] (PKC) [Entered:
08/06/2019 02:17 PM]
08/16/2019 NOTICE of appearance on behalf of
Appellees Robert F. Strom, Cranston, RI
and Michael J. Winquist filed by
Attorney Caroline V. Murphy. Certificate
of service dated 08/16/2019. [19-1764]
(CVM) [Entered: 08/16/2019 09:59 AM]
08/21/2019 BRIEFING schedule set. Brief due
09/30/2019 for appellant Edward A.
Caniglia. Appendix due 09/30/2019 for
appellant Edward A. Caniglia. Pursuant

3
DATE

DOCKET TEXT
to F.R.A.P. 31(a), appellee’s brief will be
due 30 days following service of appellant’s brief and appellant’s reply brief
will be due 21 days following service of
appellee’s brief. [19-1764] (CMP) [Entered:
08/21/2019 04:08 PM]

09/25/2019 BRIEF tendered by Appellant Edward A.
Caniglia. [19-1764] (TWL) [Entered:
09/25/2019 03:13 PM]
09/27/2019 ORDER directing Appellant Edward A.
Caniglia to file a conforming brief. Brief
due 10/04/2019. Appendix due 10/04/2019.
[19-1764] (CMP) [Entered: 09/27/2019
08:31 AM]
09/27/2019 BRIEF tendered by Appellant Edward A.
Caniglia. [19-1764] (TWL) [Entered:
09/27/2019 10:40 AM]
09/27/2019 PLEADING tendered: APPENDIX filed
by Appellant Edward A. Caniglia. Number
of Volumes: 2. Number of Copies: 5.
Certificate of service was not included.
[19-1764] (AMM) [Entered: 09/27/2019
12:08 PM]
09/30/2019 CERTIFICATE of service for pleading
tendered [6285490-2] filed by Appellant
Edward A. Caniglia. Certificate of service
dated 09/26/2019. [19-1764] (RSH)
[Entered: 09/30/2019 04:08 PM]
10/01/2019 APPELLANT’S BRIEF filed by Appellant Edward A. Caniglia. Certificate of
service dated 09/27/2019. Nine paper copies
identical to that of the electronically filed

4
DATE

DOCKET TEXT
brief must be submitted so that they are
received by the court on or before
10/08/2019. Brief due 10/28/2019 for
APPELLEE Brandon Barth, Cranston,
RI, Russell C. Henry Jr., John Mastrati,
Robert Quirk, Wayne Russell, Austin
Smith, Robert F. Strom and Michael J.
Winquist. [19-1764] (AMM) [Entered:
10/01/2019 04:28 PM]

10/01/2019 APPENDIX filed by Appellant Edward A.
Caniglia. Number of volumes: 2. Number
of copies: 5. Certificate of service dated
09/26/2019. [19-1764] (AMM) [Entered:
10/01/2019 04:58 PM]
10/03/2019 NINE (9) paper copies of appellant/
petitioner brief [6286419-2] submitted by
Appellant Edward A. Caniglia. [19-1764]
(JMK) [Entered: 10/03/2019 11:49 AM]
10/23/2019 BRIEF tendered by Appellees Brandon
Barth, Cranston, RI, Russell C. Henry,
Jr., John Mastrati, Robert Quirk, Wayne
Russell, Austin Smith, Robert F. Strom
and Michael J. Winquist. [19-1764] (MD)
[Entered: 10/23/2019 09:25 AM]
10/28/2019 APPELLEES’ BRIEF filed by Appellees
Brandon Barth, Cranston, RI, Russell C.
Henry, Jr., John Mastrati, Robert Quirk,
Wayne Russell, Austin Smith, Robert F.
Strom and Michael J. Winquist.
Certificate of service dated 10/23/2019.
Nine paper copies identical to that of
the electronically filed brief must be

5
DATE

DOCKET TEXT
submitted so that they are received by
the court on or before 11/04/2019. Reply
brief due 11/13/2019 for APPELLANT
Edward A. Caniglia. [19-1764] (AMM)
[Entered: 10/28/2019 01:14 PM]

10/29/2019 NINE (9) paper copies of appellee/
respondent brief [6292762-2] submitted
by Appellees Brandon Barth, Cranston,
RI, Russell C. Henry, Jr., John Mastrati,
Robert Quirk, Wayne Russell, Austin
Smith, Robert F. Strom and Michael J.
Winquist. [19-1764] (LIM) [Entered:
10/29/2019 11:57 AM]
11/08/2019 BRIEF tendered by Appellant Edward A.
Caniglia. [19-1764] (TWL) [Entered:
11/08/2019 03:53 PM]
11/22/2019 REPLY BRIEF filed by Appellant
Edward A. Caniglia. Certificate of service
dated 11/08/2019. Nine paper copies
identical to that of the electronically filed
brief must be submitted so that they are
received by the court on or before
11/27/2019. [19-1764] (DK) [Entered:
11/22/2019 11:58 AM]
11/25/2019 NINE (9) paper copies of reply brief
[6299459-2] submitted by Appellant
Edward A. Caniglia. [19-1764] (JMK)
[Entered: 11/26/2019 09:19 AM]
11/27/2019 CASE calendared: Wednesday, 01/08/2020
AM Boston, MA Panel Courtroom. Designation form due 12/11/2019. [19-1764]
(DJT) [Entered: 11/27/2019 01:35 PM]

6
DATE

DOCKET TEXT

11/27/2019 DESIGNATION of attorney presenting
oral argument filed by Attorney Thomas
W. Lyons, Ill for Appellant Edward A.
Caniglia. Certificate of service dated
11/27/2019. [19-1764] (TWL) [Entered:
11/27/2019 02:13 PM]
12/04/2019 DESIGNATION of attorney presenting
oral argument filed by Attorney Marc
DeSisto for Appellees Brandon Barth,
Cranston, RI, Russell C. Henry, Jr., John
Mastrati, Robert Quirk, Wayne Russell,
Austin Smith, Robert F. Strom and
Michael J. Winquist. Certificate of
service dated 12/04/2019. [19-1764] (MD)
[Entered: 12/04/2019 01:57 PM]
12/20/2019 LETTER regarding Rule 28j filed by
Attorney Marc DeSisto for Appellees
Brandon Barth, Cranston, RI, Russell C.
Henry, Jr., John Mastrati, Robert Quirk,
Wayne Russell, Austin Smith, Robert F.
Strom and Michael J. Winquist. Certificate of service dated 12/20/2019. [191764] (MD) [Entered: 12/20/2019 03:18 PM]
12/23/2019 LETTER regarding Response to 12-202019 M. DeSisto Letter filed by Attorney
Thomas W. Lyons, Ill for Appellant
Edward A. Caniglia. Certificate of service
dated 12/23/2019. [19-1764] CLERK’S
NOTE: It appears the document was
scanned rather than created by converting the original word processing document
into a PDF file. THE FILER IS DIRECTED
TO RE-FILE THE DOCUMENT BY

7
DATE

DOCKET TEXT
12/26/19. (TWL) [Entered: 12/23/2019
10:14 AM]

12/26/2019 LETTER regarding Response to 12-202019 Letter from M. DeSisto filed by
Attorney Thomas W. Lyons, Ill for Appellant Edward A. Caniglia. Certificate of
service dated 12/26/2019. [19-1764] (TWL)
[Entered: 12/26/2019 10:36 AM]
12/30/2019 COURTESY COPY OF Letter regarding
Rule 28j [6305574-2] filed by Attorney
Marc DeSisto for Appellees Brandon
Barth, Cranston, RI, Russell C. Henry,
Jr., John Mastrati, Robert Quirk, Wayne
Russell, Austin Smith, Robert F. Strom
and Michael J. Winquist. Certificate of
service was not included. [19-1764] (GB)
[Entered: 12/30/2019 03:37 PM]
01/08/2020 CASE argued. Panel: David J. Barron,
Appellate Judge; David H. Souter, Associate Supreme Court Justice and Bruce
M. Selya, Appellate Judge. Arguing
attorneys: Thomas W. Lyons, Ill for
Edward A. Caniglia and Marc DeSisto for
Cranston, RI, Robert F. Strom, Michael
J. Winquist, Russell C. Henry, Jr., Robert
Quirk, Brandon Barth, John Mastrati,
Wayne Russell and Austin Smith. [191764] (DJT) [Entered: 01/08/2020 12:52
PM]
03/13/2020 OPINION issued by David J. Barron,
Appellate Judge; David H. Souter,* Associate Supreme Court Justice and Bruce

8
DATE

DOCKET TEXT
M. Selya, Appellate Judge. Published.
*Hon. David H. Souter, Associate Justice
(Ret.) of the Supreme Court of the United
States, sitting by designation. [19-1764]
(CMP) [Entered: 03/13/2020 03:31 PM]

03/13/2020 JUDGMENT. Affirmed [19-1764] (CMP)
[Entered: 03/13/2020 03:37 PM]
04/03/2020 MANDATE issued. [19-1764] (CMP)
[Entered: 04/03/2020 02:20 PM]
08/13/2020 U.S. SUPREME COURT NOTICE advising a petition for a writ of certiorari was
filed on 08/10/2020 and assigned case
number 20-157. [19-1764] (CMP) [Entered:
08/20/2020 05:20 PM]
11/20/2020 U.S. SUPREME COURT ORDER entered
on 11/20/2020. The petition for a writ of
certiorari was granted. [19-1764] (CMP)
[Entered: 11/23/2020 05:01 PM]

9
U.S. DISTRICT COURT
DISTRICT OF RHODE ISLAND (PROVIDENCE)
————
Civil Docket #: 1:15-cv-00525-JJM-LDA
————
EDWARD A. CANIGLIA,
v.
ROBERT F. STROM, AS THE
FINANCE DIRECTOR OF THE CITY OF CRANSTON.
————
DOCKET ENTRIES
DATE

#

DOCKET TEXT

12/11/2015 1

COMPLAINT (filing fee paid $400.00,
receipt number 0103-922105), filed
by Edward A. Caniglia. (Attachments:
# 1 Exhibit Exhibit A, # 2 Exhibit
Exhibit B, # 3 Exhibit Exhibit C, # 4
Civil Cover Sheet Civil Cover Sheet,
# 5 Summons to City of Cranston,
# 6 Summons to Col Winquist, # 7
Summons to Strom) (Lyons, Thomas)
(Entered: 12/11/2015)

12/11/2015 2

NOTICE of Appearance by Thomas
W. Lyons, III on behalf of Edward A.
Caniglia (Lyons, Thomas) (Entered:
12/11/2015)

12/11/2015 3

NOTICE of Appearance by Rhiannon
S. Huffman on behalf of Edward
A. Caniglia (Huffman, Rhiannon)
(Entered: 12/11/2015)

10
DATE

#

DOCKET TEXT

12/11/2015

Case assigned to Judge John J.
McConnell, Jr. and Magistrate Judge
Lincoln D. Almond. (Melendez, Filipa)
(Entered: 12/11/2015)

12/11/2015 4

Summons Issued as to Robert F.
Strom, The City of Cranston, Michael
J. Winquist. (Attachments: # 1
Summons–Strom, # 2 Summons–
Winquist) (Melendez, Filipa) (Entered:
12/11/2015)

12/16/2015 5

SUMMONS Returned Executed by
Edward A. Caniglia. The City of
Cranston served on 12/15/2015,
answer due 1/5/2016. (Huffman,
Rhiannon) (Entered: 12/16/2015)

12/16/2015 6

SUMMONS Returned Executed by
Edward A. Caniglia. Robert F. Strom
served on 12/15/2015, answer due
1/5/2016.
(Huffman,
Rhiannon)
(Entered: 12/16/2015)

12/16/2015 7

SUMMONS Returned Executed by
Edward A. Caniglia. Michael J.
Winquist served on 12/15/2015,
answer due 1/5/2016. (Huffman,
Rhiannon) (Entered: 12/16/2015)

12/29/2015 8

ANSWER to Complaint by Robert
F. Strom, The City of Cranston,
Michael J. Winquist. (DeSisto, Marc)
(Entered: 12/29/2015)

01/07/2016 9

NOTICE of Hearing: TELEPHONIC
Rule 16 Conference set for Friday,
2/5/2016 at 09:00 AM before Judge

11
DATE

#

DOCKET TEXT
John J. McConnell, Jr.; Court to
initiate call. Kindly contact clerk at
401-752-7202 if contact information
differs from the information on the
docket sheet (Barletta, Barbara)
(Entered: 01/07/2016)

01/07/2016

HEARING CANCELLED: The Telephonic Rule 16 Conference scheduled
for Wednesday, 2/5/16 at 9:00 a.m.
before Judge John J. McConnell, Jr.
is cancelled (Barletta, Barbara)
(Entered: 01/07/2016)

01/07/2016 10 PRETRIAL SCHEDULING ORDER:
Factual Discovery to close on
6/30/2016; Plaintiffs expert disclosures shall be made by 7/29/16;
Defendants’ expert disclosures shall
be made by 8/31/16; Expert Discovery
to close on 9/30/2016; Dispositive
Motions due by 10/28/2016 and if no
diapositive motions are filed, Pretrial
Memorandum due by 10/28/2016. –
So Ordered by Judge John J.
McConnell, Jr. on 1/7/2016. (Barletta,
Barbara) (Entered: 01/07/2016)
01/19/2016

NOTICE of Hearing: Telephone
Conference set for Monday, 1/25/2016
at 02:00 PM before Judge John J.
McConnell, Jr.; Court to initiate
call (Barletta, Barbara) (Entered:
01/19/2016)

12
DATE

#

DOCKET TEXT

01/25/2016

Minute Entry for proceedings held
before Judge John J. McConnell, Jr.:
Telephone Conference held on
1/25/2016; Thomas W. Lyon, III,
Rhiannon S. Huffman, Marc DeSisto
and Patrick C. Cunningham participated (Barletta, Barbara) (Entered:
01/25/2016)

01/26/2016

NOTICE of Hearing: Telephone
Conference set for Wednesday,
1/27/2016 at 10:00 AM before Judge
John J. McConnell, Jr.; Court to
initiate call (Barletta, Barbara)
(Entered: 01/26/2016)

01/26/2016

HEARING CANCELLED: The telephone conference scheduled for
Wednesday, 1/27/16 at 10:00 a.m. in
Courtroom 3 before Judge John J.
McConnell, Jr. is cancelled (Barletta,
Barbara) (Entered: 01/26/2016)

01/29/2016

TEXT ORDER: Discovery is stayed
in this matter until the Court issues
a decision on Plaintiffs Motion for
Partial Summary Judgment in Richer
v. Parmelee 15-162 – So Ordered
by Judge John J. McConnell, Jr.
on 1/29/2016. (Barletta, Barbara)
(Entered: 01/29/2016)

01/29/2016 11 NOTICE of Appearance by Patrick
K. Cunningham on behalf of All
Defendants (Cunningham, Patrick)
(Entered: 01/29/2016)

13
DATE

#

DOCKET TEXT

01/29/2016 12 NOTICE of Appearance by Marc
DeSisto on behalf of All Defendants
(DeSisto, Marc) (Entered: 01/29/2016)
08/02/2016 13 MOTION for an Extension of Time to
Extend the Discovery Deadlines filed
by Edward A. Caniglia. Responses
due by 8/19/2016 (Lyons, Thomas)
(Entered: 08/02/2016)
08/05/2016

NOTICE of Hearing: In Chambers
Conference set for Wednesday,
8/10/2016 at 02:30 PM in Judge
McConnell Chambers – Room 211
(Barletta,
Barbara)
(Entered:
08/05/2016)

08/05/2016

REVISED NOTICE of Hearing: In
Chambers Conference is RESET to
Wednesday, 8/17/2016 at 09:00 AM
in Judge McConnell Chambers –
Room
211(Barletta,
Barbara)
(Entered: 08/05/2016)

08/11/2016 14 MOTION to Compel Answers to
Interrogatories filed by Edward A.
Caniglia. Responses due by 8/29/2016
(Lyons, Thomas) (Entered: 08/11/2016)
08/11/2016 15 MOTION to Compel Production of
Documents filed by Edward A.
Caniglia. Responses due by 8/29/2016
(Lyons, Thomas) (Entered: 08/11/2016)
08/16/2016

HEARING
CANCELLED:
The
chambers conference scheduled for
Wednesday, 8/17/16 at 9:00 a.m.
before Judge John J. McConnell, Jr.

14
DATE

#

DOCKET TEXT
is cancelled and will be rescheduled
(Barletta,
Barbara)
(Entered:
08/16/2016)

08/16/2016

REVISED NOTICE of Hearing: In
Chambers Conference is RESET to
Thursday, 8/18/2016 at 09:00 AM in
Judge McConnell Chambers – Room
211 (Barletta, Barbara) (Entered:
08/16/2016)

08/18/2016

Minute Entry for proceedings held
before Judge John J. McConnell,
Jr.: In Chambers Conference held
on 8/18/2016; Thomas W. Lyons,
Rhiannon S. Huffman, Marc DeSisto
and Patrick K. Cunningham present
(Barletta,
Barbara)
(Entered:
08/18/2016)

08/18/2016

TEXT ORDER vacating 10 Pretrial
Scheduling Order – So Ordered by
Judge John J. McConnell, Jr. on
8/18/2016.
(Barletta,
Barbara)
(Entered: 08/18/2016)

08/18/2016

TEXT ORDER denying as moot 13
Motion for Extension of Time for
discovery in light of the Text Order
vacating 10 Pretrial Scheduling
Order – So Ordered by Judge John
J. McConnell, Jr. on 8/18/2016.
(Barletta,
Barbara)
(Entered:
08/18/2016)

08/18/2016

TEXT ORDER denying without
prejudice 14 Motion to Compel;

15
DATE

#

DOCKET TEXT
denying without prejudice 15
Motion to Compel – So Ordered
by Judge John J. McConnell, Jr.
on 8/18/2016. (Barletta, Barbara)
(Entered: 08/18/2016)

08/29/2016

NOTICE of Hearing: Settlement
Conference scheduled for Wednesday
10/12/2016 at 10:00 AM in Chambers
before Chief Judge William E. Smith;
Principle clients with settlement
authority must be present at the
conference; counsel are to submit ex
parte, confidential settlement statements on or before 10/5/16 via email
to Case Manager Ryan Jackson
(Jackson, Ryan) (Entered: 08/29/2016)

09/26/2016

NOTICE of Hearing: Joint–Case
Settlement Conference RE–SCHEDULED for Tuesday 11/15/2016 at
10:00 AM in Chambers before Chief
Judge William E. Smith; the
conference previously scheduled for
10/12/16 is hereby CANCELLED;
Principle clients with settlement
authority must be present at the
conference; counsel are to submit
ex parte confidential settlement
statements on or before 11/4/16 via
email to Case Manager Ryan
Jackson. (Jackson, Ryan) (Entered:
09/26/2016)

11/04/2016

Reset Hearings re: Notice of Joint–
Case Settlement Conference RE–

16
DATE

#

DOCKET TEXT
SCHEDULED for Monday 12/12/16
at 10:00 AM in Chambers before
Chief Judge William E. Smith; the
conference previously scheduled for
11/15/16 is hereby CANCELLED;
Principle clients with settlement
authority must be present at the
conference; counsel are to submit ex
parte confidential settlement statements on or before 12/5/16 via email
to Case Manager Ryan Jackson (if
they have not already been submitted) (Jackson, Ryan) (Entered:
11/04/2016)

12/12/2016

Minute Entry for proceedings held
before Chief Judge William E.
Smith: Settlement Conference held
on 12/12/2016. (Urizandi, Nisshy)
(Entered: 01/10/2017)

12/21/2016

NOTICE of Hearing: Telephone
Conference scheduled for Thursday
12/22/2016 at 11:45 AM before Chief
Judge William E. Smith; this office
will initiate the call and counsel are
to provide Case Manager Ryan
Jackson with direct–dial contact telephone numbers as soon as possible,
via email. (Jackson, Ryan) (Entered:
12/21/2016)

12/22/2016

Minute Entry for proceedings held
before Chief Judge William E.
Smith: Telephone Conference held
on 12/22/2016; counsel on call: T.

17
DATE

#

DOCKET TEXT
Lyons; M. DeSisto, P. Cunningham
(Jackson, Ryan) (Entered: 12/22/2016)

01/20/2017

NOTICE of Hearing: Continued
Settlement Conference scheduled
for Thursday 2/2/2017 at 2:00 PM
in Chambers before Chief Judge
William E. Smith. (Jackson, Ryan)
(Entered: 01/20/2017)

01/25/2017

Reset Hearings re: Notice of
Continued Settlement Conference
RE–SCHEDULED
for
Tuesday
2/21/2017 at 10:00 AM in Chambers
before Chief Judge William E. Smith;
conference previously scheduled
for 2/2/17 is hereby CANCELLED.
(Jackson, Ryan) (Entered: 01/25/2017)

02/21/2017

Minute Entry for proceedings held
before Chief Judge William E.
Smith: Settlement Conference held
on 2/21/2017. (Jackson, Ryan)
(Entered: 03/02/2017)

03/29/2017

NOTICE of Hearing: Telephone
Conference set for Thursday,
4/6/2017 at 11:30 AM before District
Judge John J. McConnell, Jr.; Court
to initiate call (Barletta, Barbara)
(Entered: 03/29/2017)

04/06/2017

Minute Entry for proceedings held
before District Judge John J.
McConnell, Jr.: Telephone Conference held on 4/6/2017; Thomas Lyons
and Marc DeSisto participated

18
DATE

#

DOCKET TEXT
(Barletta,
04/06/2017)

Barbara)

(Entered:

04/06/2017 16 PRETRIAL SCHEDULING ORDER:
Factual Discovery to close by 1/8/2018;
Plaintiffs Expert Disclosures shall
be made by 2/8/2018; Defendants’
Expert Disclosures shall be made by
3/8/2018; Expert Discovery to close
by 4/9/2018 and Dispositive Motions
due by 5/8/2018 – So Ordered by
District Judge John J. McConnell,
Jr. on 4/6/2017. (Barletta, Barbara)
(Entered: 04/06/2017)
04/13/2017 17 CONSENT ORDER granting 14
MOTION to Compel Answers to
Interrogatories filed by Edward A.
Caniglia; Defendants shall respond
by 5/12/17 – So Ordered by District
Judge John J. McConnell, Jr. on
4/13/2017.
(Barletta,
Barbara)
(Entered: 04/13/2017)
04/13/2017 18 CONSENT ORDER granting 15
MOTION to Compel Production of
Documents filed by Edward A.
Caniglia; Defendants shall respond
by 5/12/17 – So Ordered by District
Judge John J. McConnell, Jr. on
4/13/2017.
(Barletta,
Barbara)
(Entered: 04/13/2017)
04/13/2017 19 MOTION to Amend/Correct Complaint
WITH SUPPORTING MEMO filed
by Edward A. Caniglia. Responses

19
DATE

#

DOCKET TEXT
due by 4/27/2017. (Attachments: # 1
Supporting Memorandum Memorandum in Support of Motion to Amend
Complaint, # 2 Exhibit Proposed
Amended Verified Complaint) (Lyons,
Thomas) (Entered: 04/13/2017)

04/28/2017

TEXT ORDER granting as unopposed
19
Motion
to
Amend/Correct
Complaint – So Ordered by District
Judge John J. McConnell, Jr. on
4/28/2017.
(Barletta,
Barbara)
(Entered: 04/28/2017)

05/18/2017 20 AMENDED COMPLAINT against
All Defendants, filed by Edward A.
Caniglia. (Attachments: # 1 Exhibit
Exhibit A, # 2 Exhibit Exhibit B, # 3
Exhibit Exhibit C) (Lyons, Thomas)
(Entered: 05/18/2017)
05/18/2017 21 Summons Request filed by Edward
A. Caniglia. (Huffman, Rhiannon)
(Entered: 05/18/2017)
05/18/2017 22 Summons Request filed by Edward
A. Caniglia. (Huffman, Rhiannon)
(Entered: 05/18/2017)
05/18/2017 23 Summons Request filed by Edward
A. Caniglia. (Huffman, Rhiannon)
(Entered: 05/18/2017)
05/18/2017 24 Summons Request filed by Edward
A. Caniglia. (Huffman, Rhiannon)
(Entered: 05/18/2017)

20
DATE

#

DOCKET TEXT

05/18/2017 25 Summons Request filed by Edward
A. Caniglia. (Huffman, Rhiannon)
(Entered: 05/18/2017)
05/18/2017 26 Summons Request filed by Edward
A. Caniglia. (Huffman, Rhiannon)
(Entered: 05/18/2017)
05/18/2017 27 Summons Issued as to Brandon
Barth, Russell C. Henry, Jr, John
Mastrati, Robert Quirk, Wayne
Russell, Austin Smith. (Attachments:
# 1 Summons, # 2 Summons, # 3
Summons, # 4 Summons, # 5
Summons) (McGuire, Vickie) (Entered:
05/18/2017)
05/22/2017 28 WAIVER OF SERVICE Returned
Executed by Edward A. Caniglia.
Brandon Barth waiver sent on
5/19/2017, answer due 7/18/2017.
(Huffman, Rhiannon) (Entered:
05/22/2017)
05/22/2017 29 WAIVER OF SERVICE Returned
Executed by Edward A. Caniglia.
Russell C. Henry, Jr waiver sent on
5/19/2017, answer due 7/18/2017.
(Huffman, Rhiannon) (Entered:
05/22/2017)
05/22/2017 30 WAIVER OF SERVICE Returned
Executed by Edward A. Caniglia.
John Mastrati waiver sent on
5/19/2017, answer due 7/18/2017.
(Huffman, Rhiannon) (Entered:
05/22/2017)

21
DATE

#

DOCKET TEXT

05/22/2017 31 WAIVER OF SERVICE Returned
Executed by Edward A. Caniglia.
Robert Quirk waiver sent on
5/19/2017, answer due 7/18/2017.
(Huffman, Rhiannon) (Entered:
05/22/2017)
05/22/2017 32 WAIVER OF SERVICE Returned
Executed by Edward A. Caniglia.
Wayne Russell waiver sent on
5/19/2017, answer due 7/18/2017.
(Huffman, Rhiannon) (Entered:
05/22/2017)
05/22/2017 33 WAIVER OF SERVICE Returned
Executed by Edward A. Caniglia.
Austin Smith waiver sent on
5/19/2017, answer due 7/18/2017.
(Huffman, Rhiannon) (Entered:
05/22/2017)
05/24/2017 34 NOTICE of Appearance by Patrick
K. Cunningham on behalf of
Brandon Barth, Russell C. Henry,
Jr, John Mastrati, Robert Quirk,
Wayne Russell, Austin Smith
(Cunningham, Patrick) (Entered:
05/24/2017)
05/24/2017 35 NOTICE of Appearance by Marc
DeSisto on behalf of Brandon Barth,
Russell C. Henry, Jr, John Mastrati,
Robert Quirk, Wayne Russell,
Austin Smith (DeSisto, Marc)
(Entered: 05/24/2017)

22
DATE

#

DOCKET TEXT

05/24/2017 36 ANSWER to 20 Amended Complaint
by Brandon Barth, Russell C. Henry,
Jr, John Mastrati, Robert Quirk,
Wayne Russell, Austin Smith, Robert
F. Strom, The City of Cranston,
Michael J. Winquist. (DeSisto, Marc)
(Entered: 05/24/2017)
08/11/2017 37 STIPULATION
extending
defs’
time to respond to discovery filed by
All Defendants. (DeSisto, Marc)
(Entered: 08/11/2017)
08/15/2017

TEXT ORDER entering 37 Stipulation to extend time for defendants to
respond to discovery – So Ordered by
District Judge John J. McConnell,
Jr. on 8/15/2017. (Barletta, Barbara)
(Entered: 08/15/2017)

09/14/2017 38 Second STIPULATION extending
defs’ time to respond to discovery
filed by All Defendants. (DeSisto,
Marc) (Entered: 09/14/2017)
09/15/2017

TEXT ORDER entering 38 Stipulation to extend time for defendants to
respond to discovery requests – So
Ordered by District Judge John J.
McConnell, Jr. on 9/15/2017. (Barletta,
Barbara) (Entered: 09/15/2017)

10/06/2017 39 MOTION for an Extension of Time
extending all pretrial deadlines filed
by All Defendants. Responses due by
10/20/2017. (DeSisto, Marc) (Entered:
10/06/2017)

23
DATE
10/10/2017

#

DOCKET TEXT
TEXT ORDER granting 39 Motion
for Extension of Time ; Reset Scheduling Order Deadlines: Factual
Discovery to close by 4/9/2018;
Plaintiffs Expert Disclosures shall
be made by 5/8/2018; Defendants’
Expert Disclosures shall be made by
6/8/2018; Expert Discovery to close
by 7/9/2018 and Dispositive Motions
due by 8/6/2018 – NO FURTHER
EXTENSIONS WILL BE GRANTED
– So Ordered by District Judge John
J. McConnell, Jr. on 10/10/2017.
(Barletta,
Barbara)
(Entered:
10/10/2017)

02/23/2018 40 NOTICE of Appearance by Caroline
V. Murphy on behalf of All Defendants (Murphy, Caroline) (Entered:
02/23/2018)
03/19/2018 41 Joint MOTION for an Extension of
Time extending all pretrial dates
filed by All Defendants. Responses
due by 4/2/2018. (Cunningham,
Patrick) (Entered: 03/19/2018)
03/19/2018

TEXT ORDER granting 41 Motion
for Extension of Time; Reset Scheduling Order Deadlines: Factual
Discovery to close by 7/9/2018;
Plaintiffs Expert Disclosures shall
be made by 8/9/2018; Defendants’
Expert Disclosures shall be made by
9/10/2018;, Expert Discovery to close
by 10/9/2018 and Dispositive

24
DATE

#

DOCKET TEXT
Motions due by 11/9/2018 – So
Ordered by District Judge John J.
McConnell, Jr. on 3/19/2018 (Barletta,
Barbara) (Entered: 03/19/2018)

06/15/2018 42 Final MOTION for an Extension of
Time to Complete Discovery filed by
Edward A. Caniglia. Responses due
by 6/29/2018. (Lyons, Thomas)
(Entered: 06/15/2018)
06/18/2018

TEXT ORDER granting 42 Motion
for Extension of Time to Complete
Discovery; Reset Scheduling Order
Deadlines: Factual Discovery to close
by 8/17/2018; Plaintiffs Expert Disclosures shall be made by 9/17/2018;,
Defendants’ Expert Disclosures shall
be made by 10/17/2018; Expert
Discovery to close by 11/17/2018 and
Dispositive Motions shall be filed by
12/17/2018. Pretrial Memoranda deadline will be set in the trial notice. NO
FURTHER EXTENSIONS WILL BE
GRANTED – So Ordered by District
Judge John J. McConnell, Jr. on
6/18/2018
(Barletta,
Barbara)
(Entered: 06/18/2018)

12/17/2018 43 MOTION for Partial Summary Judgment with Supporting Memorandum
filed by All Plaintiffs. Responses due
by 12/31/2018. (Attachments: # 1
Supporting Memorandum) (Lyons,
Thomas) (Entered: 12/17/2018)

25
DATE

#

DOCKET TEXT

12/17/2018 44 STATEMENT OF UNDISPUTED
FACTS by All Plaintiffs re 43
MOTION for Partial Summary
Judgment with Supporting Memorandum. (Attachments: # 1 Exhibit
Exhibit A, # 2 Exhibit Exhibit B, # 3
Exhibit Exhibit C, # 4 Exhibit
Exhibit D, # 5 Exhibit Exhibit E, # 6
Exhibit Exhibit F, # 7 Exhibit
Exhibit G, # 8 Exhibit Exhibit H, # 9
Exhibit Exhibit I, # 10 Exhibit
Exhibit J, # 11 Exhibit Exhibit K,
# 12 Exhibit Exhibit L, # 13 Exhibit
Exhibit M, # 14 Exhibit Exhibit N,
# 15 Exhibit Exhibit 0, # 16 Exhibit
Exhibit P, # 17 Exhibit Exhibit Q,
# 18 Exhibit Exhibit R – Part 1 of 2,
# 19 Exhibit Exhibit – Part 2 of 2,
# 20 Exhibit Exhibit S, # 21 Exhibit
Exhibit T, # 22 Exhibit Exhibit U,
# 23 Exhibit Exhibit V, # 24 Exhibit
Exhibit W, # 25 Exhibit Exhibit X,
# 26 Exhibit Exhibit Y, # 27 Exhibit
Exhibit Z, # 28 Exhibit Exhibit AA,
# 29 Exhibit Exhibit BB – Part 1 of
5, T30 Exhibit Exhibit BB – Part 2 of
5, # 31 Exhibit Exhibit BB – Part 3
of 5, # 32 Exhibit Exhibit BB – Part
4 of 5, # 33 Exhibit Exhibit BB – Part
5 of 5, # 34 Exhibit Exhibit CC, # 35
Exhibit Exhibit DD – Part 1 of 2,
# 36 Exhibit Exhibit DD – Part 2 of
2, # 37 Exhibit Exhibit EE) (Lyons,
Thomas) Modified on 12/17/2018

26
DATE

#

DOCKET TEXT
(McGuire, Vickie).CLERKS NOTE:
Remote electronic access to the document has been restricted by the
Clerks Office as it contains one
or more personal identifiers. /i>
(Entered: 12/17/2018)

12/17/2018 45 MOTION for Partial Summary
Judgment filed by All Defendants.
Responses due by 12/31/2018.
(Attachments: # 1 Supporting Memorandum) (DeSisto, Marc) Docket
Text Modified on 12/18/2018 (Farrell
Pletcher, Paula). (Entered: 12/17/2018)
12/17/2018 46 STATEMENT OF UNDISPUTED
FACTS by All Defendants re 45
MOTION for Summary Judgment.
(Attachments: # 1 Exhibit) (DeSisto,
Marc) (Entered: 12/17/2018)
12/17/2018 47 MOTION to Seal Exhibit E of
Defendants’ Partial MSJ Filed. Notice
Sent To: All Defendants. (DeSisto,
Marc) This entry/document has been
filed under seal pursuant to statute,
rule or court order and access is
restricted. Please login to CM/ECF
to view document(s). (Entered:
12/17/2018)
12/18/2018

TEXT ORDER granting 47 Motion
to Seal – So Ordered by District
Judge John J. McConnell, Jr. on
12/18/2018. (Barletta, Barbara)
(Entered: 12/18/2018)

27
DATE

#

DOCKET TEXT

12/21/2018 48 Joint MOTION for an Extension of
Time to File Response/Reply as to 45
MOTION for Summary Judgment,
43 MOTION for Partial Summary
Judgment with Supporting Memorandum filed by Edward A. Caniglia.
Responses due by 1/4/2019. (Lyons,
Thomas) (Entered: 12/21/2018)
12/21/2018 49 Joint MOTION for an Extension of
Time to File Response/Reply as to 45
MOTION for Summary Judgment,
43 MOTION for Partial Summary
Judgment with Supporting Memorandum filed by Edward A. Caniglia.
Responses due by 1/4/2019. (Lyons,
Thomas) (Entered: 12/21/2018)
12/27/2018

TEXT ORDER granting 49 Motion
for Extension of Time to File
Responses to 43 MOTION for Partial
Summary Judgment with Supporting Memorandum, 45 MOTION for
Summary Judgment. Responses due
by 1/30/2019. – So Ordered by District
Judge John J. McConnell, Jr.
on 12/27/2018. (Barletta, Barbara)
(Entered: 12/27/2018)

12/29/2018 50 Second MOTION to Amend/Correct
20 Amended Complaint filed by
Edward A. Caniglia. Responses due
by 1/14/2019. (Attachments: # 1
Proposed Amended Complaint, # 2
Supporting Memorandum, # 3
Exhibit CPD GO Public Mental

28
DATE

#

DOCKET TEXT
Health, # 4 Exhibit Mastria ATI 21,
# 5 Exhibit E. Caniglia Deposition,
# 6 Exhibit Winquist Deposition, # 7
Exhibit Henry Deposition, # 8
Exhibit Barth Deposition, # 9
Exhibit Expert Report of Dr.
Berman) (Lyons, Thomas) (Entered:
12/29/2018)

01/18/2019

TEXT ORDER granting as unopposed 50 Motion to Amend/Correct
Complaint – So Ordered by District
Judge John J. McConnell, Jr. on
1/18/2019.
(Barletta,
Barbara)
(Entered: 01/18/2019)

01/19/2019 51 AMENDED COMPLAINT against
All Defendants, filed by Edward A.
Caniglia. (Lyons, Thomas) (Entered:
01/19/2019)
01/23/2019 52 ANSWER to 51 Amended Complaint
by Brandon Barth, Russell C. Henry,
Jr., John Mastrati, Robert Quirk,
Wayne Russell, Austin Smith, Robert
F. Strom, The City of Cranston,
Michael J. Winquist. (DeSisto, Marc)
(Entered: 01/23/2019)
01/28/2019 53 Consent MOTION to file supplement
filed by All Defendants. Responses
due by 2/11/2019. (DeSisto, Marc)
(Entered: 01/28/2019)
01/29/2019

TEXT ORDER granting 53 Consent
MOTION to file supplement; Plaintiff
shall submit a supplement to his

29
DATE

#

DOCKET TEXT
Motion for Summary Judgment
addressing the due process claim on
or before 2/2/19 and defendants shall
respond to plaintiffs supplement on
or before 2/9/19 – So Ordered by
District Judge John J. McConnell,
Jr. on 1/29/2019. (Barletta, Barbara)
(Entered: 01/29/2019)

01/30/2019 54 RESPONSE In Opposition to 45
MOTION for Summary Judgment
filed by Edward A. Caniglia. Replies
due by 2/6/2019. (Lyons, Thomas)
(Entered: 01/30/2019)
01/30/2019 55 STATEMENT OF DISPUTED FACTS
by Edward A. Caniglia re 46
Statement of Undisputed Facts.
(Attachments: # 1 Exhibit Exhibit 1,
# 2 Exhibit Exhibit 2, # 3 Exhibit
Exhibit 3) (Lyons, Thomas) (Entered:
01/30/2019)
01/30/2019 56 STATEMENT OF UNDISPUTED
FACTS Statement of Additional
Undisputed Facts by Edward A.
Caniglia re 44 Statement of
Undisputed Facts,,,,,. (Attachments:
# 1 Exhibit Exhibit FF) (Lyons,
Thomas) (Entered: 01/30/2019)
01/30/2019 57 RESPONSE In Opposition to 43
MOTION for Partial Summary Judgment with Supporting Memorandum
filed by All Defendants. Replies
due by 2/6/2019. (Attachments: # 1

30
DATE

#

DOCKET TEXT
Supporting Memorandum) (DeSisto,
Marc) (Entered: 01/30/2019)

01/30/2019 58 STATEMENT OF UNDISPUTED
FACTS Additional by All Defendants
re 57 Response to Motion,. (Attachments: # 1 Exhibit) (DeSisto, Marc)
(Entered: 01/30/2019)
01/30/2019 59 STATEMENT OF DISPUTED FACTS
by All Defendants re 57 Response to
Motion,. (Attachments: # 1 Exhibit)
(DeSisto, Marc) (Entered: 01/30/2019)
01/31/2019 60 SUPPLEMENTAL MEMORANDUM
by Edward A. Caniglia in support of
43 MOTION for Partial Summary
Judgment with Supporting Memorandum, Order on Motion for Miscellaneous Relief,. (Lyons, Thomas)
(Entered: 01/31/2019)
02/06/2019 61 REPLY MEMORANDUM re 54
Response to Motion. (DeSisto, Marc)
(Entered: 02/06/2019)
02/06/2019 62 STATEMENT OF DISPUTED FACTS
Additional by All Defendants. (Attachments: # 1 Exhibit Deposition
Transcript) (DeSisto, Marc) (Entered:
02/06/2019)
02/06/2019 63 REPLY MEMORANDUM re 60
Supplemental Memorandum in
Support. (DeSisto, Marc) (Entered:
02/06/2019)

31
DATE

#

DOCKET TEXT

02/06/2019 64 REPLY to Response re 57 Response
to Motion, re: Plaintiffs Motion
for Summary Judgment filed by
Edward
A.
Caniglia.
(Lyons,
Thomas) (Entered: 02/06/2019)
02/06/2019 65 STATEMENT OF DISPUTED FACTS
Additional by Edward A. Caniglia re
58 Statement of Undisputed Facts.
(Attachments: # 1 Exhibit Exhibit 1,
# 2 Exhibit Exhibit 2, # 3 Exhibit
Exhibit 3, # 4 Exhibit Exhibit 4, # 5
Exhibit Exhibit 5) (Lyons, Thomas)
(Entered: 02/06/2019)
02/08/2019

NOTICE of Hearing on Motion: 43
MOTION for Partial Summary Judgment with Supporting Memorandum,
45 MOTION for Summary Judgment:
Motion Hearing set for Monday,
3/25/2019 at 09:30 AM at Roger
Williams University School of Law
before District Judge John J.
McConnell, Jr. (Barletta, Barbara)
(Entered: 02/08/2019)

02/08/2019

NOTICE of Hearing: Telephone
Conference set for Friday, 3/22/2019
at 09:00 AM before District Judge
John J. McConnell, Jr.; Court to
initiate call. Kindly provide case manager at 401-752-7202 with telephone
contact information if it differs from
the docket sheet (Barletta, Barbara)
(Entered: 02/08/2019)

32
DATE
03/25/2019

#

DOCKET TEXT
Minute Entry for proceedings held
before District Judge John J.
McConnell, Jr.: Motion Hearing held
on 3/25/2019 re (45 in 1:15–cv00525–JJM–LDA) MOTION for
Summary Judgment filed by John
Mastrati, Wayne Russell, Michael J.
Winquist, The City of Cranston,
Robert Quirk, Brandon Barth,
Austin Smith, Russell C. Henry, Jr.,
Robert F. Strom, (79 in 1:15–cv00162–JJM–PAS) MOTION for
Summary Judgment filed by Russell
Amato, Glenn Lamoureux, Tim
Lafferty, Town of North Smithfield,
Stephen Riccitelli, Jason Parmelee,
Gregory Landry, Mark Bergeron,
Steven E. Reynolds, (77 in 1:15–cv00162–JJM–PAS) Second MOTION
for Partial Summary Judgment with
Supporting Memorandum filed by
Jason A. Richer, (43 in 1:15–cv00525–JJM–LDA) MOTION for
Partial Summary Judgment with
Supporting Memorandum filed by
Edward A. Caniglia. Thomas Lyons
for Plaintiff. Patrick Cunningham
& Mark DeSisto for Defendants.
Defendant and Plaintiff present
arguments to the Court. Plaintiff to
submit further briefing. Court
adjourned. (Court Reporter Lisa
Schwam in Courtroom RWU at 9:30

33
DATE

#

DOCKET TEXT
am.) (McGuire, Vickie) (Entered:
03/25/2019)

03/28/2019 66 SUR–REPLY to Reply to Motion
Response re 64 Reply to Response
filed by All Plaintiffs. (Attachments:
# 1 Exhibit Plaintiffs Answers
to Interrogatories, # 2 Exhibit E.
Caniglia Deposition, # 3 Exhibit K.
Caniglia Deposition) (Lyons, Thomas)
(Entered: 03/28/2019)
06/04/2019 67 MEMORANDUM AND ORDER
granting in part and denying in part
43 Motion for Partial Summary
Judgment; granting 45 Motion for
Summary Judgment – So Ordered by
District Judge John J. McConnell,
Jr. on 6/4/2019. (Barletta, Barbara)
(Entered: 06/04/2019)
06/04/2019

NOTICE of Hearing: In Chambers
Conference set for Wednesday,
6/26/2019 at 03:00 PM in Judge
McConnell Chambers (Barletta,
Barbara) (Entered: 06/04/2019)

06/04/2019

REVISED NOTICE of Hearing: In
Chambers Conference is RESCHEDULED to Tuesday, 6/25/2019 at
02:30 PM in Judge McConnell
Chambers
(Barletta,
Barbara)
(Entered: 06/04/2019)

06/10/2019 68 TRANSCRIPT ORDER for proceedings held on 3/25/2019 before Judge
McConnell. Ordinary Transcript

34
DATE

#

DOCKET TEXT
delivery selected. Transcript to be
delivered in 30 days.. (Huffman,
Rhiannon) (Entered: 06/10/2019)

06/10/2019 69 TRANSCRIPT ORDER ACKNOWLEDGMENT Entered re: 68 Transcript
Order. Court Reporter/Transcriber:
Lisa Schwam. (Dias, Jennifer)
(Entered: 06/10/2019)
06/25/2019

Minute Entry for proceedings held
before District Judge John J.
McConnell, Jr.: In Chambers
Conference held on 6/25/2019;
Thomas W. Lyons, Marc DeSisto and
Patrick Cunningham participated
(Barletta,
Barbara)
(Entered:
06/25/2019)

06/27/2019 70 TRIAL NOTICE AND PRETRIAL
ORDER – So Ordered by District
Judge John J. McConnell, Jr. on
6/27/2019.
(Barletta,
Barbara)
(Entered: 06/27/2019)
06/27/2019

NOTICE of Hearing: Jury Selection
set for Tuesday, 7/9/2019 at 09:30
AM in Courtroom 1 before District
Judge John J. McConnell, Jr.
(Barletta,
Barbara)
(Entered:
06/27/2019)

07/08/2019

HEARING CANCELLED: The jury
selection scheduled for Tuesday,
7/9/19 at 9:30 a.m. in Courtroom 1
before Judge John J. McConnell, Jr.

35
DATE

#

DOCKET TEXT
is cancelled (Barletta,
(Entered: 07/08/2019)

Barbara)

07/19/2019 71 FINAL JUDGMENT – So Ordered
by District Judge John J. McConnell,
Jr. on 7/19/2019. (Barletta, Barbara)
(Entered: 07/19/2019)
08/01/2019 72 NOTICE OF APPEAL by Edward A.
Caniglia as to 71 Judgment (filing
fee paid $ 505.00, receipt number
0103-1402621)
NOTICE TO COUNSEL: Counsel
should register for a First Circuit
CM/ECF Appellate Filer Account at
http://pacer.psc.us courts.gov/cmecf/.
Counsel should also review the First
Circuit requirements for electronic
filing by visiting the CM/ECF
Information section at http://www.
cal.uscourts.gov/cmecf Appeal Record
due by 8/8/2019. (Lyons, Thomas)
(Entered: 08/01/2019)
08/01/2019 73 CLERK’S CERTIFICATE AND
APPELLATE
COVER
SHEET:
Abbreviated record on appeal consisting of notice of appeal, order(s)
being appealed, and a certified copy
of the district court docket report
transmitted to the U.S. Court of
Appeals for the First Circuit in
accordance with 1st Cir. R. 11.0(b).
72 Notice of Appeal. (Attachments: #

36
DATE

#

DOCKET TEXT
1 Record on Appeal) (Potter, Carrie)
(Entered: 08/01/2019)

08/02/2019

USCA Case Number 19-1764 for 72
Notice of Appeal filed by Edward A.
Caniglia. (Farrell Pletcher, Paula)
(Entered: 08/02/2019)

03/16/2020 74 OPINION of the U.S. Court of
Appeals for the First Circuit entered
as to 72 Notice of Appeal filed by
Edward A. Caniglia: We need go no
further. Police officers play an
important role as community caretakers. As this case illustrates, they
sometimes are confronted with peculiar circumstances circumstances
that present them with difficult
choices. Here, the actions of the
defendant officers, though not letter
perfect, did not exceed the proper
province of their community caretaking responsibilities. The able district
court recognized as much and, for
the reasons elucidated above, its
judgment is Affirmed. (Potter,
Carrie) (Entered: 03/16/2020)
03/16/2020 75 JUDGMENT of the U.S. Court of
Appeals for the First Circuit entered
as to 72 Notice of Appeal filed by
Edward A. Caniglia: This cause
came on to be heard on appeal from
the United States District Court for
the District of Rhode Island and was

37
DATE

#

DOCKET TEXT
argued by counsel. Upon consideration whereof, it is now here
ordered, adjudged and decreed as
follows: the judgment of the district
court is affirmed. (Potter, Carrie)
(Entered: 03/16/2020)

04/06/2020 76 MANDATE of the U.S. Court of
Appeals for the First Circuit issued
as to and in accordance with 75
Judgment of the U.S. Court of
Appeals for the First Circuit: In
accordance with the judgment of
March 13, 2020, and pursuant to
Federal Rule of Appellate Procedure
41(a), this constitutes the formal
mandate of this Court. (Potter,
Carrie) (Entered: 04/06/2020)
05/07/2020 77 MOTION for Attorney Fees filed by
Edward A. Caniglia. Responses due
by 5/21/2020. (Attachments: # 1
Supporting Memorandum, # 2
Affidavit, # 3 Affidavit, # 4 Affidavit)
(Lyons, Thomas) (Entered: 05/07/2020)
05/15/2020 78 CONSENT ORDER holding 77
MOTION for Attorney Fees filed by
Edward A. Caniglia in abeyance
until further Order of this Court – So
Ordered by Chief Judge John J.
McConnell, Jr. on 5/15/2020. (Barletta,
Barbara) (Entered: 05/15/2020)
12/18/2020

TEXT ORDER denying without
prejudice 77 Motion for Attorney

38
DATE

#

DOCKET TEXT
Fees – So Ordered by Chief Judge
John J. McConnell, Jr. on 12/18/2020.
(Barletta,
Barbara)
(Entered:
12/18/2020)

12/18/2020 79 NOTICE by Brandon Barth, Russell
C. Henry, Jr., John Mastrati, Robert
Quirk, Wayne Russell, Austin
Smith, Robert F. Strom, The City of
Cranston, Michael J. Winquist
(DeSisto, Marc) (Entered: 12/18/2020)

39
UNITED STATES DISTRICT COURT
DISTRICT OF RHODE ISLAND
————
C.A. No. 15-525
————
EDWARD A. CANIGLIA,
Plaintiff
v.
ROBERT F. STROM as the Finance Director of
THE CITY OF CRANSTON, et al.,
Defendants
————
PLAINTIFF’S STATEMENT OF
UNDISPUTED FACTS
1. Plaintiff Edward (“Ed”) Caniglia is 68 years old.
(Plaintiff’s Answers to Defendant City of Cranston’s
Interrogatories at Answer No. 1, attached as Exhibit
A). He has been married to Kim Caniglia since 1993.
(E. Caniglia depo. at p. 11, excerpts attached as
Exhibit Q). They have never filed for divorce. (Id. at
pp. 67-68, 82-83).
2. Col. Winquist joined the Rhode Island State
Police in 1990 after attending the State Police Academy. (Winquist depo. pp. 10-11, excerpts attached as
Exhibit B).
3. Col. Winquist was told while with the State
Police that he could require a person to submit to a
mental health evaluation at a hospital emergency
room without obtaining a court order if that person
was in imminent danger of harming himself or someone else. (Exhibit B at pp. 18-20).

40
4. Moreover, Col. Winquist was told he had the
authority in those circumstances to seize firearms
without a court order to protect the public. (Id. at
p. 20).
5. Col. Winquist was told this was part of the community caretaking function. (Id. at p. 20). The community caretaking function was not embodied in any written document nor was Col. Winquist taught any legal
basis for the function. (Id. at pp. 21-22).
6. Col. Winquist is not aware of any statute that
embodies the community caretaking function. (Id. at
p. 31). Prior to 2017, there was no statute that authorized police to require a person to have a psychiatric
evaluation. (Id.). Prior to 2018, there was no statute
that authorized police to seize a person’s firearms
when that person was a danger to himself or others.
(Id. at pp. 30-31).
7. There was no written policy or procedure that
set forth the State Police’s authority to seize firearms
or to require persons to submit to psychiatric examinations without a court order. (Id. at pp. 22-23).
8. Col. Winquist was with the State Police until
2014 when he was hired to be the Colonel of the
Cranston Police Department. (Id. at p. 13).
9. The State Police eventually became accredited
by the Commission for Accreditation of Law Enforcement (“CALEA”). (Id. at pp. 15, 21). Col. Winquist was
involved in the accreditation process. (Id.).
10. None of the CALEA standards dealt with the
community caretaking function or the authority of the
State Police to require someone to submit to a psychiatric evaluation or to seize firearms without a court

41
order. (Id. at p. 23; Henry depo. pp. 42-43, excerpts
attached as Exhibit C).
11. Col. Winquist is the person who establishes
policy for the Cranston Police Department. (Exhibit B
at p. 24).
12. The Cranston Police Department first became
accredited by CALEA in 2011 or 2012. (Exhibit C at p.
41). CALEA establishes “best practices” for law
enforcement agencies. (Id. at pp. 39-40).
13. The Cranston Police Department has a manual
of policies and procedures. (Exhibit B at p. 34). It
includes General Orders (“GO”). (Id. at pp. 36-37). The
GOs are based on CALEA standards. (Exhibit C at p.
41).
14. The first GO, number 000.01, entitled “Introduction,” states: “This manual is a complete catalog of
department issued general orders, policies, procedures, rules and regulations. Revisions have been completed as needed.” (Exhibit D). As of January 6. 2014,
the manual was a complete catalog of the Department’s policies and procedures. (Exhibit C at p. 44).
The manual is “the bible for the Cranston Police
Department.” (Id. at p. 46).
15. The Manual has a GO 100.10 which sets forth
the Cranston Police Departments “Limits of Authority” “during the execution of the criminal process.”
(Exhibit E).
16. The situation involving Plaintiff was not part
of the criminal process. Col. Winquist believes that
Cranston Police Department does not have a GO
which sets forth its limits of authority in situations
such as those involving Plaintiff. (Exhibit B at pp. 3839).

42
17. The Cranston Police Department does have a
GO 320.80 entitled “Civil Procedure” which provides
guidelines while executing the police role in civil situations, including “keep the peace” situations. (Exhibit
F). This GO provides that in “keep the peace” situations” “the officer must terminate the process if there’s
any resistance.” (Id.)
18. Col. Winquist does not believe that this GO
applies to the situation involving Plaintiff. (Exhibit B
at pp. 39-42).
19. Col. Winquist does not believe that this GO
limits the authority of the Cranston police to act pursuant to the community caretaking function when
there is imminent harm to the public. (Id. at pp. 4243).
20. Capt. Henry’s understanding is that there is no
limit on the police authority under the community
caretaking function so long as it is not used to collect
evidence to prosecute a crime. (Exhibit C at pp. 54-55).
He believes the function authorizes police to take
whatever steps are reasonable based on the facts and
circumstances at the time. (Id. at p. 55). What is reasonable is “in the eye of the beholder.” (Id.). There are
no written guidelines to help a police officer determine
whether he has the authority to act pursuant to the
community caretaking function. (Id. at pp. 55-56).
Capt. Henry is not aware of any training for Cranston
police officers on the scope of their authority under the
community caretaking function. (Id. p. 56).
21. GO 350.20, “Bureau of Criminal Identification,” addresses the return of firearms that have been
seized for safekeeping. (Exhibit G; Exhibit B at pp. 4548).

43
22. Col. Winquist believes this GO authorizes the
seizure of firearms based on a person’s “temporary
state of mind.” (Exhibit B at p. 47).
23. There is no specific time frame that the
Cranston Police hold a firearm based on a person’s
temporary state of mind. (Id. at pp. 53-54).
24. The Cranston Police do not keep statistics as to
how often they seize firearms based on a person’s temporary state of mind and Col. Winquist has no idea
how often it happens. (Id. at p. 55).
25. Cranston Police Department GO 320.70
addresses “Public Mental Health,” including voluntary
and involuntary admissions to mental health facilities. (Exhibit H).
26. Col. Winquist believes that if the Cranston
police tell a person that they are going to seize his firearms unless he goes for a mental evaluation that that
is a voluntary admission because the person can still
say “no.” (Exhibit B at p. 57-58).
27. Conversely, Capt. Henry says the Cranston
police should not coerce someone to have a mental
examination by threatening to take away his firearms.
(Exhibit C at pp. 85-86).
28. GO 320.70 states that “officers are not in a
position to diagnose mental illness but must be alert
to common symptoms.” (Exhibit H at § IV(a)(i)). Col.
Winquist agrees with this statement. (Exhibit B at pp.
74-75). Symptoms of mental illness include a person
making a statement that they want to kill themselves,
that they are despondent, that they have heavy use of
drugs or alcohol. (Id. at p. 63).
29. A person’s behavior meets the criteria for an
involuntary admission when a police officer believes

44
that the person is in imminent harm of their safety or
another person. (Id. at p. 59).
30. The officer on the scene makes a determination
as to whether there is imminent danger. (Id. at p. 43).
The Cranston police are trained in learning the symptoms of someone who is in a mental health crisis. (Id.
at pp. 43-44).
31. Col. Winquist has seized firearms for safekeeping many times. With respect to the criteria uses to do
so, he says “it was an assessment made on the scene
by myself and other troopers.” (Id. at p. 62). He says
police are not trained to diagnose someone but to
be aware of symptoms of an emotional crisis. (Id. at
pp. 62-63).
32. Col. Winquist says that a Cranston police
officer’s knowledge respecting mental illness would
come from the officer’s training and experience. (Id. at
pp. 63-64).
33. Col. Winquist believes that a police officer’s
experience dealing with people who have attempted
suicide provides training in diagnosing mental illness.
(Id. at pp. 77-78). The decision to seize a person’s firearms is up to the individual officer’s discretion. (Id. at
p. 78). The factors a police officer considers may not all
be set forth in the Department’s training. It may also
be based on the officer’s “instinct.” (Id. at pp. 79-80).
34. Defendants have produced three different
Powerpoint training presentations on mental health,
dated 2008, 2011, and 2013. (Exhibits I, J, and K
respectively).
35. The 2008 presentation references the Rhode
Island Mental Health Law. (Exhibit I at p. 5). Col.
Winquist is not familiar with the Mental Health Law.

45
(Exhibit I; Exhibit B at pp. 73-74). He has not seen this
presentation. (Id. at p. 74). Col. Winquist has not seen
the 2011 presentation. (Id. at p. 74).
36. The 2011 presentation states if a person does
not want help, “Never threaten them with hospitalization.” (Exhibit J at p. 40).
37. The 2011 presentation includes slides on “Risk
Factors for Suicide.” (Id. at pp. 43, 44, 45). Capt. Henry
says the only risk factor for suicide that applies to Mr.
Caniglia is that he supposedly asked his wife to kill
him. (Exhibit C at pp. 88-91).
38. The 2013 presentation includes a slide on risk
factors for suicide. (Exhibit K at p. 8). Capt. Henry
does not know whether the officers on the scene considered any of these factors. (Exhibit C at p. 92).
39. In 2016, at Col. Winquist’s request, the Rhode
Island Attorney General’s office gave the Cranston
Police a PowerPoint presentation on “Search and Seizure Law.” (Exhibit L; Exhibit B at pp. 82-83). Col.
Winquist is not aware of any prior presentations to the
Cranston Police Department by the Rhode Island
Attorney General’s office on search and seizure law.
(Exhibit B at pp. 83, 84, 86).
40. The Search and Seizure presentation covers
the community caretaking function, including Rhode
Island decisions. (Exhibit L at p. 32; Exhibit B at pp.
87-89). All of the decisions respecting the community
caretaking function of which Col. Winquist is aware
involve motor vehicles. (Id. at p. 89).
41. When the Cranston police seize a person’s firearm for “safekeeping” it is pursuant to the community
caretaking function because they are “in a crisis or an
imminent risk to themselves.” (Id. at pp. 94-95).

46
42. To Col. Winquist’s knowledge, neither the
State Police nor the Cranston Police have used any
studies, data, or reports to determine when it is appropriate to seize firearms for safekeeping pursuant to
the community caretaking function. (Id. at p. 95).
43. Col. Winquist is not aware of any statistics on
what percentages of home with firearms have a suicide
by firearm. (Id. at pp. 98-99). He does not think such
statistics are relevant to the Cranston Police Department’s policy of seizing firearms for safekeeping
because “it’s a judgment decision by that officer based
on what’s in front of him.” (Id. at p. 99).
44. The Cranston Police Department has a policy
or procedure of obtaining written consents for
searches. (Id. at p. 99).
45. Before August 2015, neither Officer Mastrati
nor any other Individual Defendant had never heard
of Edward Caniglia nor had they had any contact with
him or his wife. (Mastrati depo. at p. 49, excerpts
attached as Exhibit M; Smith depo. at pp. 41-42,
excerpts attached as Exhibit N; Russell depo. at pp.
41-42, excerpts attached as Exhibit O).
46. Mr. Caniglia has never had any kind of
restraining order entered against him. (Exhibit M at
p. 49). He has never had any kind of criminal charges
against him. (Id. at pp. 49-50). Mr. Caniglia has never
been accused of domestic violence. (Id. at p. 50). He has
no history of violence. (Id.). Mr. Caniglia has no history
of violence or of threatening violence or of misusing
firearms. (Id.). He has no history of threatening violence to himself. (Id.).
47. Officer Mastrati is not aware of any legal reason why Mr. Caniglia cannot possess a firearm. (Id. at
pp. 51-52).

47
48. Officer Mastrati understands that the only reason for which the police can take people into custody
without arresting them is to interview them as a witness. (Id. at p. 14).
49. Officer Mastrati recalls being trained that
property can be seized for “safekeeping” without a
warrant. Safekeeping includes holding property until
a person returns from the hospital. (Id. at pp. 14-15).
50. Officer Mastrati has heard of the community
caretaking function but does not understand what it
is. (Id. at p. 15).
51. Officer Smith does not know what the community caretaking function is. (Exhibit N at pp. 64-66).
He has no idea whether it relates to the seizure of Mr.
Caniglia’s firearms. (Id. at p. 66). He does not know
whether the community caretaking function authorizes the Police Department to require people to talk to
the Cranston rescue about their psychological condition. (Id. at pp. 66-67).
52. Officers Mastrati and Smith have attended
Cranston Police Department training about dealing
with people with perceived mental health issues.
Officer Smith recalls it was 2011. Officer Mastrati
recalls training in 2013. (Exhibit 9 to Mastrati depo.,
attached here as Exhibit P; Exhibit M at pp. 116-17;
Exhibit N at pp. 70-71).
53. Officer Mastrati states he does not require a
person to have a psychiatric evaluation. Rather, he
calls the rescue and the rescue evaluates the person.
(Exhibit M at pp. 17-18). Mastrati understands that he
does not have the authority to require someone to have
a psychiatric evaluation. (Id. at pp. 25-26). He understands that the rescue can require a person to go for a
psychiatric evaluation. (Id. at p. 18).

48
54. Officer Mastrati believes that he does have the
authority to seize a person’s firearms if he thinks they
are suicidal. (Id. at pp. 26-27). When Officer Mastrati
seizes a firearm because he believes the person is suicidal that comes under the category of “safekeeping.”
(Id. at p. 43).
55. The policy or procedure of the Cranston Police
Department is to have a supervisor make the decision
whether to seize a person’s firearms for safekeeping.
(Id. at p. 28).
56. Officer Mastrati is not aware of any court decision, or constitutional provision, or statute or police
department policy or procedure that gives him the
authority to seize a person’s firearms to prevent that
person from hurting himself or others. (Id. at pp. 3738). The Cranston Police Department does not have
either a written or unwritten policy or procedure that
deals with seizing firearms for “safekeeping.” (Id. at
pp. 43-44).
57. Officer Mastrati understands that the
Cranston Police Department cannot take someone into
custody if there is not a criminal process. (Id. at p. 97).
There is no GO that sets forth any authority to seize
property when there is not a criminal process. (Id. at
pp. 97-98).
58. On August 20, 2015, Plaintiff and his wife Kim
had an argument in their house. At one point during
the argument, Mr. Caniglia retrieved a handgun that
he keeps under the mattress of the bed, put it on the
dining room table, and said “just shoot me now and get
it over with.” (Exhibit Q at p. 24).
59. Kim and Ed agree that the magazine was not
in the handgun and that the handgun was not loaded
when Ed did this, although Kim did not know that at

49
the time. (Exhibit Q at p. 82; K. Caniglia depo. at p.
17, excerpts attached as Exhibit R).
60. Ed subsequently left the house and went for
drive. Kim took the handgun, put it back under the
bed, and she hid the magazine that was still under the
bed. (Exhibit R at pp. 19-21).
61. When Ed returned, the Caniglias argued some
more. Kim decided to leave and went to stay at the
Econo Lodge Motel on Reservoir Avenue. (Id. at pp. 2425).
62. The next morning Kim went to eat breakfast at
the “Scramblers” restaurant on Reservoir Avenue. (Id.
at p. 28). She tried to call Ed but he did not answer the
phone. (Id. at p. 33). Ed was in the restroom and
missed the call. (Exhibit Q at pp. 28-29).
63. Kim became concerned that Ed may have committed suicide and called the Cranston Police because
she wanted an officer to accompany her to the house to
check on Ed. (Exhibit R at pp. 29-31, 72). She was not
afraid that he would use the gun on himself. (Id.).
64. The Cranston Police dispatched four squad
cars in response to Mrs. Caniglia’s call. (Id. at pp. 3334). She told the police officers she wanted an escort
back to the house to check on Mr. Caniglia. (Id. at p.
35).
65. Officer Mastrati spoke with Mrs. Caniglia in
the parking lot of the “Scramblers” restaurant on
Reservoir Avenue. (Exhibit M at pp. 52-53). The Incident Report says: “She stated that she was not scared
for her own life, but more scared walking in and not
knowing if Edward had committed suicide.” (Id. at pp.
75-76).

50
66. Officer Mastrati called Ed from the parking lot.
He said he wanted to come to the house to check on
Ed’s well-being. (Exhibit Q at pp. 33-34).
67. Officer Mastrati told Mrs. Caniglia that Mr.
Caniglia sounded fine. (Exhibit R at pp. 36-37). The
Cranston Police officers told Mrs. Caniglia to follow
them to the house but to remain in the car while they
spoke with Mr. Caniglia. (Id. at pp. 37-38).
68. Officers Mastrati, Russell, Smith, and Sergeant Barth went to the Caniglias’ house. (Exhibit M
at p. 77). Sgt. Barth was the officer in charge of the
scene. (Id. at p. 79). There were four squad cars at the
Caniglias’ house. (Exhibit R at p. 39).
69. The officers spoke with Mr. Caniglia on his
back porch. (Exhibit Q at pp. 36-37). They were all
near him when they spoke. (Id. at p. 38; Exhibit R at
p. 43).
70. Mr. Caniglia was “cooperative.” He was not
abrasive or aggressive. He said he was not suicidal.
(Exhibit M at p. 80). Mr. Caniglia was “calm.” (Id.).
71. Mr. Caniglia told Officer Mastrati that he had
had a friend commit suicide and that he would never
to do that to [his] family.” (Id. at p. 83).
72. Mr. Caniglia did not feel depressed or suicidal.
(Exhibit Q at pp. 57-58).
73. However, Officer Mastrati did not believe Mr.
Caniglia. (Exhibit M at pp. 83-84).
74. Officer Mastrati said “I can’t determine if
someone is not suicidal. To me, I felt like he was a risk
to himself.” (Id. at p. 81).
75. Officer Mastrati based this opinion on the fact
that Mr. Caniglia had put his handgun and, suppos-

51
edly, the magazine on the counter and “ask[ed] his
wife to end his life.” (Id. at pp. 82, 106-07).
76. Officer Mastrati had no other reason to disbelieve Mr. Caniglia’s statement that he was not suicidal. (Id. at p. 84).
77. Officer Mastrati has heard people say “shoot
me now” but he doesn’t know if they really mean it.
(Id. at pp. 82-83).
78. Mr. Caniglia never made any threat to use his
firearm on himself. (Id. at p. 54).
79. Officer Mastrati has received training on
assessing people for risk of suicide. (Exhibit 10 to
Mastrati depo., attached here as Exhibit S; Exhibit M
at pp. 116). None of the factors set forth in that training applied to Mr. Caniglia when Officer Mastrati
spoke with him. (Exhibit M at pp. 117-120).
80. Officer Mastrati acknowledges that Mr.
Caniglia seemed “normal” when they spoke. (Incident
Report, attached as Exhibit T; Exhibit M at p. 122).
81. Officer Russell said that Mr. Caniglia seemed
“nice,” “very polite,” and “welcoming.” (Exhibit O at p.
43-44). He does not remember that Mr. Caniglia said
anything that indicated that he wanted to harm himself. (Id. at p. 46). He said Mr. Caniglia did not seem
suicidal. (Id. at p. 49).
82. The police officers asked about Mr. Caniglia’s
mental health. He told them that was none of their
business. (Exhibit Q at pp. 85-86).
83. One of the officers said that in these situations
the Cranston Police confiscate firearms. (Id. at p. 38).
84. Mr. Caniglia responded: “You’re not confiscating anything.” (Id.).

52
85. The police officers told Mr. Caniglia that if he
submitted to a psychiatric evaluation at Kent Hospital
his firearms would not be removed from the house. (Id.
at p. 66). Mr. Caniglia only agreed to the go to the hospital to prevent the confiscation of his firearms. (Id. at
p. 83).
86. One of the police officers told Mrs. Caniglia
that Ed “needed to have a psych eval” and that if he
did that “we won’t have to take the firearm.” (Exhibit
R at pp. 41-42, 44).
87. Captain Henry made the decision to seize Mr.
Caniglia’s firearms. (Incident Report, Exhibit T;
Exhibit M at pp. 53-54). Capt. Henry assumes he got a
phone call from the officers at the scene. (Exhibit C at
p. 107). He does not remember any reasons for the seizure apart from what is set forth in the Incident
Report. (Id. at p. 119). He says the officers on the scene
felt it was reasonable to do so based on Mr. Caniglia’s
state of mind (Id. at p. 62).
88. Capt. Henry graduated from the Rhode Island
Municipal Police Training Academy in 1992. (Id. at pp.
16-17). He does not recall any classes on when it is
appropriate to hold or detain a person without arresting them. He does not recall any classes on when it is
appropriate to seize property without a warrant or a
court order. (Id. at pp. 17-18). Capt. Henry does not
recall any classes on when, if ever, it is appropriate to
seize weapons for safekeeping. (Id. at p. 19). He does
not recall any classes on the community caretaking
function. (Id.). Capt. Henry remembers he received
training on dealing with people with mental health issues but he does not recall specifics. (Id. at pp. 19-20).
89. Capt. Henry thinks that the community caretaking function has been discussed during “in-service”

53
training at the Cranston Police Department on mental
health. (Id. at p. 28).
90. The Cranston Police Department seizes firearms for “safekeeping” “if we feel that the circumstances that exist at the time create a danger relative
to the firearms, create a danger to the public, or to any
member of the public...” (Id. at p. 29). The authority to
do this arises under the community caretaking
function. (Id.).
91. With respect to the community caretaking
function, Capt. Henry says: “My understanding is that
the courts recognize that law enforcement needs to
take certain actions relative to the Fourth Amendment
without a warrant that pertain to public safety functions or emergencies.” (Id. at p. 24).
92. Capt. Henry thinks the public safety function
includes a person with a firearm who is thinking of
harming themselves. (Id. at pp. 24-25).
93. Capt. Henry agrees with GO 320.70 that
“[o]fficers are not in a position to diagnose mental illness.” (Exhibit H; Exhibit C at p. 68).
94. The court decisions of which Capt. Henry is
aware respecting the community caretaking function
deal with motor vehicles. (Id. at p. 97). He is not aware
of any court decision authorizing police to seize property, including firearms, from a home pursuant to the
community caretaking function. (Id. at p. 34).
95. Capt. Henry thinks the community caretaking
function authorizes the Cranston police to require a
person to go to a hospital where a mental examination
can be performed. However, the community caretaking function does not permit the Cranston police to
require a person to submit to a psychological evalua-

54
tion. (Id. at pp. 31-32, 69-70). He is not aware that any
Cranston police officer has ever required a person to
do that. (Id. at p. 32).
96. Capt. Henry understands that the decision
that Mr. Caniglia was “imminently dangerous” was
based on his statements and actions the night before
Cranston police spoke with him. Mr. Caniglia did not
say anything to Cranston police that indicated he was
“imminently dangerous.” (Id. at pp. 74-75).
97. Capt. Henry says that in the circumstances the
Cranston police would have made the decision to take
Mr. Caniglia to the hospital regardless of whether he
objected. (Id. at p. 157-58).
98. The Cranston police have not received any formal training on whether someone is imminently dangerous. (Id. at p. 77).
99. Whether someone is “imminently dangerous”
would be a subjective decision based on an individual
officer’s experience. Two different police officers in the
same situation could come to two different conclusions. (Id. at pp. 77-78)
100. Officer Mastrati did not hear the conversation
between Mr. Caniglia and the Cranston Rescue.
(Exhibit M at p. 55). He does not know whether Mr.
Caniglia agreed to go for an evaluation. (Id.).
101. Richard Greene is a rescue lieutenant with
the Cranston Fire Department rescue service. (Greene
depo. p. 18, excerpts attached as Exhibit U). He
responded to the call to the Caniglia’s house. (Id. at pp.
39-40). He was on the scene for approximately 8
minutes. (Id. at pp. 53-55).
102. Officer Greene identified thirteen risk factors
that are part of the State of Rhode Island protocol that

55
he recognizes as relevant to determining whether a
person is suicidal. (Exhibit 43 to Greene depo.,
attached here as Exhibit V; Exhibit U at pp. 35-36). All
the factors are important. (Id. p. 38).
103. Lt. Greene specifically remembers very little
about the incident beyond what is set forth in the
Cranston rescue report. (Exhibit 42 to Greene depo.,
attached here as Exhibit W; Exhibit U at pp. 39-42).
He does not recall whether he asked Mr. Caniglia
about any of the risk factors. (Exhibit U at p. 44). He
does not know if Mr. Caniglia met any of the risk factors he identified. (Id. at pp. 45-47).
104. The rescue report states, inter alia: “pt stated
he was not looking to hurt himself.” (Exhibit W).
105. Officer Greene told Mr. Caniglia that they
were taking him to the hospital. (Exhibit U at p. 48).
He said the Cranston police made the decision that
Mr. Caniglia was going to the hospital. (Id.).
106. Officer Greene says that the decision to take
Mr. Caniglia to the hospital was based on Mr. Caniglia
telling his wife to shoot him and that that statement
provided the authority to take Mr. Caniglia to the hospital. (Id. at pp. 49-50). Officer Greene did not consider
any other factors besides the fact that Mr. Caniglia
had a gun. (Id. at pp. 73-74).
107. Officer Greene says that if someone says to
another person “just shoot me now,” he assumes that
they actually want the other person to shoot them. (Id.
at pp. 67-68). He made no determination as to whether
Mr. Caniglia actually wanted his wife to shoot him.
(Id. at p. 68).
108. Col. Winquist believes, based on the Incident
Report, that Mr. Caniglia was at imminent risk of

56
harm when the Defendants seized his firearms and
sent him for a mental evaluation. (Exhibit B at pp. 5961).
109. Mr. Caniglia never threatened to use his firearms or any other weapons on himself. (Exhibit B at
p. 110).
110. Officer Mastrati understood that the firearms
in the house belong to Mr. Caniglia. (Exhibit M at p.
89). He did not ask Mr. Caniglia if he could seize the
firearms. (Id.).
111. The Defendants did not obtain a written consent to search the house. (Exhibit B at p. 99). Mr.
Caniglia did not give verbal consent for a search. (Id.
at p. 100).
112. Officer Mastrati said there was no crime
involved with respect to the incident at the Caniglia’s
house. (Exhibit M at p. 59).
113. After Mr. Caniglia left in the Cranston rescue,
one of the police officers told Mrs. Caniglia that Ed had
given him permission to seize the firearms. (Exhibit R
at p. 47, 49-51). Mrs. Caniglia never said she wanted
the guns out of the house. (Id. at p. 51). The officer told
Mrs. Caniglia that she could retrieve the guns by going
to the Police Department and they would be returned
to her. (Id. at p. 65).
114. Defendants believe that Mrs. Caniglia consented to a search of the house. However, she did not
consent to seizure of the firearms. (Exhibit B at p.
117).
115. Officer Mastrati seized five items from the
Caniglia residence including two handguns, clips for
the handguns, and ammunition. (Exhibit M at p. 66).

57
116. The guns belong to Mr. Caniglia. (Exhibit R
at p. 10).
117. Officer Mastrati found one firearm under the
Caniglia’s bed. (Exhibit M at p. 89). The second firearm was in a box behind a workbench in the garage.
(Id. at p. 90).
118. Officer Mastrati wrote in the Incident Report:
“It should be noted that in further speaking with Kim
she stated that she was not in fear for her own life from
Edward but was more worried about Edward taking
his own life.” (Id. at pp. 91-92).
119. Mrs. Caniglia never indicated that Edward
had ever threatened to take his own life with a firearm. (Id. at p. 92).
120. Officer Mastrati is not aware of any statute
that requires a court order before a person can be compelled to go to a hospital or mental health facility. (Id.
at p. 107).
121. Mr. Caniglia went in the Cranston rescue to
Kent Hospital, was evaluated by a social worker, and
discharged. (Exhibit X).
122. On Monday, August 24, 2015, Kim Caniglia
went to the Cranston Police Department to retrieve
Ed’s firearms. (Exhibit R at p. 65). She was told she
would have to request a copy of the police report, that
it would take 3-5 business days, and that it would cost
35 cents a page. (Id. at pp. 66-68). She was told she
would have to wait for a captain to review the request.
(Id.).
123. On August 24, 2015, Mrs. Caniglia returned
to the Cranston Police Department and received a copy
of the report. (Id. at 68-69). She was told the captain
had not reviewed the request yet. (Id.). A few days

58
later, the Police Department called the Caniglias and
said that the guns would not be returned and they
would have to get a court order. (Id.)
124. The Cranston Police Department has a record
which indicates that on September 1, 2015, a captain
of the Department denied a request to return the firearms. (Exhibit 25 to Henry depo., attached here as
Exhibit Y). That captain’s signature is not identified.
(Quirk depo. at p. 34, excerpts attached as Exhibit Z).
125. During the second week of September 2015,
Mr. Caniglia went to the Cranston Police Department
to obtain his firearms. He was told they were not going
to release the firearms. (Exhibit Q at pp. 73-74).
126. On October 1, 2015, Mr. Caniglia’s attorney,
Nicholas Lambros wrote a letter to Chief Winquist
requesting the return of Mr. Caniglia’s firearms.
(Exhibit 28 to Winquist depo., attached here as
Exhibit AA).
127. Major Quirk was not involved in seizure of
Mr. Caniglia’s firearms. He was involved in the return
of Mr. Caniglia’s firearms after the receipt of Mr.
Lambros’ letter. (Exhibit Z at pp. 22-23).
128. When Col. Winquist received Attorney
Nicholas Lambros’ letter, dated October 1, 2015, about
the return of Mr. Caniglia’s firearms he initially
instructed Major Quirk to tell Attorney Lambros to get
a court order because he mistakenly believed that the
situation involved a domestic assault. (Exhibit B at p.
49-50). When Major Quirk told him it did not, Col.
Winquist says he instructed Major Quirk to return the
firearms. (Id. at p. 50).
129. However, Major Quirk recalls the events differently. He testified that he reviewed the Incident

59
Report, that he spoke with Col. Winquist about the
incident, and that he called Mr. Lambros to tell him he
would have to get a court order for the return of the
firearms. (Exhibit Z at pp. 24-25, 29-30). He reported
this conversation to Col. Winquist. (Id. at p. 31).
130. Major Quirk does not know whether Col.
Winquist and he consulted with any of the Cranston
Police Department’s policies or procedures. (Id. at p.
25). He does not believe that he spoke with any of the
officers involved in the seizure of Mr. Caniglia’s firearms before making this decision. (Id. at p. 43).
131. This decision was consistent with the custom
and practice of the Cranston Police Department. (Id.
at p. 27). That custom and practice is not reflected in
any written document. (Id.). Major Quirk is not aware
of any legal authority for this custom and practice. (Id.
at pp. 28-29).
132. Major Quirk recalls that there was some
other event that prompted Col. Winquist to instruct
him to return Mr. Caniglia’s firearms but he does not
recall what it was. (Id. at pp. 31-32).
133. On December 11, 2015, Plaintiff filed this
lawsuit.
134. On December 22, 2015, Defendants returned
Mr. Caniglia’s firearms, magazine and ammunition to
him without a court order. (Exhibit Y).
135. Col. Winquist does not know why it took until
December 22, 2015 to release Mr. Cangilia’s firearms.
(Exhibit B at p. 118).
136. Mr. Caniglia has retained Lanny Berman,
Ph.D., a psychologist specializing in suicidology, as an
expert witness. His expert report is attached as Exhibits BB). In sum, Dr. Berman opines to a reasonable

60
degree of scientific, psychological and profession certainty based on 47 years of experience that:
a. Mr. Caniglia was neither at acute nor imminent risk of suicide on August 20 and 21, 2016. (Id.
at p. 6).
b. Mr. Caniglia’s actions and statements on the
evening of August 20, 2015 did not constitute a
suicidal communication, nor did they communicate
any suicidal intent. Further, at no other time and
especially on the morning of August 21, 2015 did
Mr. Caniglia express or communicate in words or
actions anything that could possibly be construed
as indicating he was at imminent risk of suicide.
(Id. at p. 9);
c. No independent evaluation of Mr. Caniglia’s
risk for suicide was made based on both his current
mental status and associated risk factors as the
Cranston Police Department officers were trained
to observe and a sole reliance on Mr. Caniglia’s
statement and action on the night before to document any level of concern for imminent risk of
harm was inappropriate and a breach of the standards to which these officers were trained. (Id. at pp.
9-10); and
d. Officers of the Cranston Police Department
did not apply or rely upon appropriate criteria or
reasonable and standard police procedures in
determining Mr. Caniglia was in imminent danger
of suicide and in determining that his firearms
needed to be confiscated on August 21, 2015. (Id. at
pp. 10-13).
137. The Cranston Police Department is aware of
the Second Amendment, the Fourth Amendment, the
Due Process Clause of the Fourteenth Amendment

61
and the corresponding provisions of the Rhode Island
Constitution. (Exhibit B at pp. 113-14).
138. Col. Winquist is not aware of the Rhode
Island Firearms Act. He does not know whether other
members of the Cranston Police Department are
aware of that Act. (Id. at p. 114-15).
139. Col. Winquist and the Cranston Police
Department are generally aware of the Rhode Island
Mental Health Law. (Id. at p. 115).
140. Other than the community caretaking function, Col. Winquist is not aware of any authority for
the Cranston police to seize Mr. Caniglia’s firearms
and to transport him for a psychological evaluation.
(Id. at p. 116).
141. Col. Winquist believes that the community
caretaking function gives the Cranston police the
authority to seize Mr. Caniglia’s firearms even if
he objected and the authority to require him to have
a psychiatric evaluation even if he objected. (Id. at
p. 126).
142. Defendants’ actions were not at all what Kim
Caniglia had in mind when she called the CPD and she
was very angry with them. (Exhibit R at pp. 71-72). “I
thought that I would have an officer go with me to the
house, he would knock on the door, Ed would answer
the door, I would know he was okay, that we would
talk, and if things were fine, the officer would leave.”
(Id. at p. 72).
143. Mr. Caniglia incurred approximately $1000
in costs for the Cranston rescue taking him to the hospital. (Exhibit Q at p. 83).
144. Officer Russell became a Cranston Police
officer in 2013 (Exhibit O at p. 21). He estimates he

62
has been involved in a “couple dozen” situations in
which the Cranston Police Department seized firearms for “safekeeping.” (Id. at p. 40). He has been
involved in approximately fifty situations in which the
Cranston Police Department had someone transported
for a psychological evaluation. (Id. at p. 41).
145. Defendants have produced a nine-page inventory of seized weapons dated 2017. (Exhibit CC). It
contains approximately 475 weapons, mostly all firearms. It does not set forth why individual weapons
were seized.
146. Defendants have also produced a fifty-one
page inventory entitled “Firearms Destruction Log”
listing approximately 900 weapons between 2006 and
2016, mostly firearms. (Exhibit DD).
EDWARD CANIGLIA
By his attorneys,
/s/ Thomas W. Lyons
Thomas W. Lyons #2946
Rhiannon S. Huffman #8642
RHODE ISLAND AFFILIATE,
AMERICAN CIVIL LIBERTIES UNION
Strauss, Factor, Laing & Lyons
One Davol Square, Suite 305
Providence, RI 02903
(401) 456-0700
tlyons@straussfactor.com

63
CERTIFICATION
I hereby certify that on December 17, 2018, a copy
of the foregoing was filed and served electronically on
all registered CM/ECF users through the Court’s electronic filing system. Parties may access this filing
through the Court’s CM/ECF system.
/s/ Thomas W. Lyons

64
In The Matter Of: Caniglia vs Strom, et al
Cpt. Russell C. Henry, Jr.
June 13, 2018
ALLIED COURT REPORTERS, INC.
AND VIDEO CONFERENCE CENTERS
* * *
[85] to a health care professional. As I spoke about
earlier, that’s our primary goal is to get – present them
to a medical personnel, and if the person doesn’t want
to participate, the person we’re bringing doesn’t want
to participate, that’s their prerogative, we can’t force
them. It’s much different than involuntary committal.
Q. Do you know if Mr. Caniglia was given any
reason why he should agree to go for a psychiatric
evaluation?
MR. CUNNINGHAM: Objection.
A.

No.

Q. Do you know, for example, whether any of the
police officers on the scene told Mr. Caniglia that they
were going to seize his firearms, but if he had, and
passed a psychiatric evaluation, he could get them
back?
A.

No.

Q. Okay. If a police officer said that to Mr.
Caniglia, would that be contrary to police department
policy or procedure?
A. Well, we wouldn’t coerce somebody. We request,
and then if it came to a point where the person didn’t
want to cooperate, and we felt it was necessary to have
him transported, then we [86] could physically take
them to the hospital. But it was not quid pro quo, if

65
you submit, we’ll give you the guns back; that’s not
part of our policy.
MR. LYONS: Since we were just talking about it,
let’s mark this as Exhibit 20.
EXHIBIT 20 (PLAINTIFF’S EXHIBIT 20 MARKED
FOR IDENTIFICATION)
Q. Captain Henry, let me show you what’s been
marked as Exhibit 20, which is a copy of a Rhode
Island General Lam Section 40-1-5-7 which is entitled
Emergency Certification. I’m going to ask you if this is
the same one that is referred to in the PowerPoint
presentation we just looked at.
A. I believe so.
Q. Is it your understanding this was the statute
that was in effect in August of 2015?
A. I’m not 100 percent sure about the history of the
section, it shows 2017. I believe this is the last update
to this.
MR. CUNNINGHAM: Yes.
Q. Do you know when you studied to be captain if
this is what you looked at?
A.

Some form of this, I believe.

Q. As you sit here, are you aware of any differences
between this statute that’s been marked as an
* * *
[89] of these conditions apply to him?
Q. I’m asking whether any of them were considered, specifically considered. Let me withdraw the
question. Let me put it this may: You recall having a
discussion with an officer who was at Mr. Caniglia’s

66
home at the time – phone conversation at the time of
the alleged incident?
A. Right.
Q. Did you, in the course of that conversation,
discuss any of these factors or warning signs or
questions that are set forth in Pages 43, 44 or 45 of the
exhibit?
A. Well, the sergeant told me that – he asked the
wife to kill him, end his life. So although he didn’t
threaten, which would fit this criteria on Page 44, he
did speak – ask the wife to do it, told her he wanted
her to end his life. So to me that’s synonymous with
suicide. He wanted the wife to do it. Some people commit
suicide by police, because they don’t want to do it
themselves. It was my impression he wanted his life
ended by the wife. That was one of the factors.
Q. Okay. Do you know if the wife said that she
believed that Mr. Caniglia wanted her to kill him? [90]
In other words, did the wife believe that Mr. Caniglia
wanted his wife to kill him?
MR. CUNNINGHAM: Objection.
A. I don’t know what the wife believes, other than
she believed she was in danger, and she left the house
for the night.
Q. Did the wife say that she was in danger, she
believed she was in danger?
A. My understanding is that is what was relayed
to the officers on scene.
Q. Okay. Again, that was from the phone conversation you had with an officer who was at the scene?
A.

Yes.

67
Q. Do you know if any of the other warning signs
of suicide were considered with respect to Mr. Caniglia?
A. Talking about or writing about dying of suicide
– the conversation he had with his wife about dying
meets that third criteria. I would say agitation was one
of them, because I believe they said there was a trivial
argument over a coffee mug. As far as the questions to
ask, I don’t know if they read any of those verbatim. I
doubt they had this available to them.
Q. Do you know if anything else was considered or
* * *

68
Cranston Police Department
General Order 000.01
[SEAL]
SECTION

EFFECTIVE
DATE

PAGES

000 - Preface

June 6, 2014

1

SUBSECTION

SPECIAL INSTRUCTIONS

00 - Policy and
Procedure Manual

N/A

TITLE

CALEA STANDARD

000.01 - Introduction

12.2.1(b)

I. Introduction
a. The Cranston Police Department, in furthering its commitment to professionalism
has compiled this Policy and Procedure
Manual.
b. This manual is a complete catalog of
department issued general orders, policies,
procedures, rules and regulations. Revisions have been completed as needed.
c. The Chief of Police, consistent with the
City of Cranston Charter, Section 9.01
titled "Department of Police," has approved
the written directives contained in this
manual.
[Digital Signature]
Sgt. Matthew J. Kite, LP.D.

69
Cranston Police Department
General Order 100.10
[SEAL]
SECTION

EFFECTIVE
DATE

100 — Administration December 5, 2016

PAGES
6

SUBSECTION

SPECIAL
INSTRUCTIONS

00 — Authority

N/A

TITLE

CALEA STANDARD

100.10 — Limits of
Authority

1.2.1, 1.2.3, 1.2.4, 1.2.6,
1.2.7, 74.1.1, 74.1.2, 74.1.3,
74.3.1, 74.3.2

I. Purpose
a. To define limits of law enforcement authority
during the execution of criminal process.
II. Policy
a. It is the duty of the Cranston Police Department
and its employees to protect and defend the
Constitution and to comply with all federal,
state, and local laws striving to accomplish the
department mission.
III. Authority
a. The Constitution of the United States
b. Constitution of the State of Rhode Island and
Providence Plantations
c. City Charter of Cranston, Rhode Island, Section
9.01

70
d. City of Cranston Code, Title 2, Chapter 2.16
e. The Chief of Police is vested by and subject to
the provisions of the City Charter and the laws
of the State of Rhode Island, with the authority
to approve, issue, modify, or rescind all departmental general orders, special orders, personnel
orders, and memoranda.
IV. Definitions
a. Arrest — The deprivation of a person's liberty
through legal authority.
b. Arrest Warrant — A written order, in the name
of the people, signed by a magistrate or other
judicial authority, pursuant to law, directing a
peace officer to place into custody a specified
person and bring them before a magistrate to
answer to the charge or charges brought against
him or her.
c. Article I Section 6 (R.I. Constitution) - Search
and seizure. — The right of the people to be
secure in their persons, papers and possessions,
against unreasonable searches and seizures,
shall not be violated; and no warrant shall
issue, but on complaint in writing, upon probable cause, supported by oath or affirmation, and
describing as nearly as may be, the place to be
searched and the persons or things to be seized.
d. Bench Warrant — A court issued order directing a peace officer to arrest a specified person
and bring him or her before a magistrate to
answer the charge or charges brought against
him or her.
e. Custodial Interrogation — Questioning initiated by a peace officer where an individual has

71
been taken into custody or has been otherwise
deprived of his or her liberty in any significant
way.
f. Fourth Amendment (U.S. Constitution) - The
right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable searches and seizures, shall not be violated;
and no warrants shall be issued but upon probable cause, supported by oath or affirmation,
and particularly describing the place to be
searched, and the persons or things to be seized.
g. Interview — a conversation controlled by an
officer with a victim, witness, or anyone else
who may have information about a crime.
h. Probable Cause - Facts and circumstances that
are sufficient to lead an reasonable officer to
believe that a crime has been, is being, or is
about to be committed.
i. Reasonable Suspicion — There are specific and
articulable facts that would lead a reasonable
officer to believe that criminal activity is afoot.
j. Search Warrant — A written order, in the name
of the people, signed by a magistrate or other
judicial authority, pursuant to law, directing a
peace officer to search a specified area, property, or body for evidence related to a crime or
the perpetrator of a crime.
V. Arrest
a. Authority
i. All sworn members of the Cranston Police
Department have the authority to make an
arrest by virtue of R.I. General Law Chapter
12-7

72
b. Circumstances that must exist to make an
arrest
i. The commission, attempt to commit, conspiracy to commit, or warrant charging the
commission of a felony or misdemeanor
criminal offense.
ii. Probable cause to believe the individual to
be arrested committed the offense.
c. Arrest with a warrant
i. Warrants should be obtained prior to making an arrest, however, if time and circumstances do not allow, Rhode Island General
Law Chapter 12-7 authorizes peace officers
to make arrests without a warrant when certain conditions exist.
ii. Members of the Uniform Division must hold
the rank of Sergeant or higher as the complainant on an arrest warrant.
iii. Any Detective or Inspector may serve or sign
a warrant as an affiant and complainant.
iv. When attempting to execute a warrant at a
private residence, entry will only be made
under exigent circumstances, with a search
warrant, or by consent of the owner or
occupant.
v. Sworn members are authorized to execute
warrants anywhere within the State of
Rhode Island and Providence Plantations,
with proper authorization from a supervisor.
1. Prior to executing warrants in another
jurisdiction, officers of this department
are required to notify the local police

73
department of jurisdiction or to the
Rhode Island State Police, if there is no
local law enforcement agency.
vi. Warrants may be served at any time, day or
night.
vii. Upon making an arrest on a warrant, the
officer, will identify himself or herself as a
police officer and inform the arrestee that a
warrant exists and the charge(s) on that
warrant.
viii. When making an arrest, every reasonable
effort will be made to mitigate the risk to
those not involved in the arrest.
ix. All officers on scene should be briefed prior
to executing the warrant.
x. When practical and reasonable, occupants of
public buildings, like businesses, should be
notified prior to the execution of a warrant
on their property. If prior notification is not
made, an effort will be made to explain the
facts and circumstances behind the arrest,
as soon as practicable.
d. Arrest without a warrant.
i. When it is not practical or reasonable to
obtain an arrest warrant, a sworn officer of
this department may affect an arrest under
the following conditions:
1. Felony arrest (RIGL 12-7-4), a warrantless arrest can be made if either of the following conditions exist.
a. Reasonable grounds exist to believe
that a felony has been or is being com-

74
mitted and the person to be arrested
has committed or is committing it.
b. When the person to be arrested has,
in fact, committed or is committing a
felony.
c. Misdemeanor arrest (RIGL 12-7-3) a
warrantless arrest can be made if
either of the following conditions
exist.
d. Reasonable grounds exist to believe
that the person cannot be arrested
later, or may cause injury to himself
or herself or others, or loss or damage
to property unless immediately
arrested.
e. Probable cause exists that the person
committed a crime classified as
domestic violence under RIGL Chapter 12-29 and it occurred within
twenty-four (24) hours of the arrest.
e. Arrest in a foreign jurisdiction.
i. Sworn members shall assist the State of
Rhode Island Office of the Attorney General
in arrests involving persons in foreign
jurisdictions.
ii. When extradition/rendition is authorized by
the Office of the Attorney General, the
officer will:
1. Contact the local law enforcement agency
in the jurisdiction where the individual is
located or being detained.

75
2. Send a teletype message through the National Law Enforcement Telecommunications System (N.L.E.T.S) confirming
extradition/rendition and the charges for
which the individual is wanted.
3. Once arrested, the fugitive will be
brought before the appropriate court
based upon the jurisdiction where
arrested.
4. The sworn personnel will respond to the
jurisdiction to take custody of the fugitive
under the following circumstances:
a. A Governor's Warrant exists.
b. A Rhode Island supervising Assistant
Attorney General authorizes the
action.
5. If the fugitive challenges extradition/rendition, the Office of the Attorney
General will be notified.
f. Special immunities from arrest.
i. Diplomatic immunity.
1. See General Order 100.05.
ii. Members of the Rhode Island General
Assembly.
1. While the General Assembly is in session, including 2 days prior to the start
and two days after termination of the session, in accordance with R.I.G.L. 22-4-2.
g. Alternatives to arrest.
i. Verbal warning.

76
ii. Emergency commitment to an approved
public treatment facility.
iii. Referrals to social service agencies.
iv. Any use of an alternative to arrest must be
documented in a written report.
h. Alternatives to pre-arraignment confinement.
i. District court summons.
ii. Any use of an alternative to pre-arraignment
confinement must be documented in a
written report.
i. Arrestee reporting and processing see General
Order 370.01.
VI. Interviews and interrogations
a. Interviews
i. Non-custodial conversations usually with a
voluntary and cooperative person.
ii. Involved participants and witnesses should
be interviewed separately and isolated from
each other prior to and after the interviews
to avoid discussion.
b. Interrogations
i. Review the situations where recorded interrogations are required General Order
350.06.
ii. A directed interview that involves an uncooperative person.
iii. A custodial interrogation involves the questioning of someone suspected of committing
or attempting to commit a crime.

77
iv. For custodial interrogations, the Miranda
Warnings are required.
1. An individual is considered to be "in custody" when, based upon the existing circumstances, the person being questioned
reasonably believes that he or she is no
longer free to leave.
2. R.I.G.L. 12-7-20 — requires the opportunity to make a phone call within one
hour of detention to call an attorney.
3. If the suspect invokes his or her constitutional rights at any time during the interrogation, questioning must stop.
4. The suspect does have the right to voluntarily re-initiate the interrogation.
5. All statements made during an interrogation must be elicited without force,
coercion, or promises of leniency.
VII. Search warrants
a. Refer to General Order 100.11 for department
rules on strip and body cavity searches.
b. Search warrants will be completed according to
Rhode Island State Law, specifically R.I.G.L.
12-5-1, 12-5-2, and 12-5-3.
c. Members of the Uniform Division must hold the
rank of Sergeant or higher as the complainant
on a search warrant.
d. Any Detective or Inspector may serve or sign a
warrant as an affiant and complainant.

78
e. Search warrants shall be reviewed by a supervisor prior to being brought before a magistrate,
when feasible.
f. Search warrants that have been deemed to
"high risk" shall require notification to the
Chief of Police or designee to determine
whether or not the Special Reaction Team will
be deployed.
g. The search will be conducted in the safest manner possible.
h. The complaining officer will leave the property
owner a copy of the search warrant along with
an inventory list of the items seized.
i. Within fourteen (14) days of issuance of the
warrant, whether executed or not, shall be
returned to the district court having jurisdiction
over the place of search or, if unexecuted,
returned to the court of issuance. A warrant
that has been served shall be accompanied by
any supporting affidavits and inventory.
j. Exceptions to the search warrant requirement.
i. Consent to search the property by the person
whose rights will be affected by the search.
1. Must be voluntary and either written or
verbal.
2. A signed "Consent to Search" form is
preferred.
3. Consent searches during vehicle stops
must be conducted in accordance with
R.I.G.L. 31-21.2-1 and General Order
320.50.
ii. Stop and frisk

79
1. Officers may frisk the outer clothing of a
person for the purpose of locating a
weapon when the officer has articulable
reasons to detain the individual and has
knowledge of facts or circumstances that
would lead a reasonable officer to believe
the person is armed or otherwise
dangerous.
a. While conducting a lawful frisk, an
officer may seize contraband that he
or she immediately identifies based
upon touch, without manipulation of
the object. "Plain touch" doctrine.
iii. Movable vehicles
1. When probable cause exists that the
vehicle, capable of being moved, contains
evidence of a crime.
2. These searches may be conducted either
at the location where the vehicle was
encountered or at the police station.
3. Probable cause searches of vehicles
extend to all areas of the vehicle, unless
probable cause limits the location.
iv. Search incident to arrest.
1. May be conducted in the area of immediate control of a person being arrested.
2. The search must be contemporaneous to
the arrest and will be conducted for the
following reasons:
a. Protect arresting officers and others
on scene.

80
b. Prevent escape or injury to the
arrestee.
c. Seize evidence.
d. Prevent destruction of evidence.
e. Provide an inventory of items possessed by the arrestee at the time of
arrest.
f. The scope of the search includes the
arrestee's clothing, closed containers
in his or her possession, and everything within his or her immediate
control.
g. The search of a vehicle, incident to arrest, must be supported by an officer's
ability to demonstrate an actual and
continuing threat to public and officer
safety posed by the arrestee, or a need
to preserve evidence from tampering
by the arrestee.
h. Closed containers not in the arrestee's
immediate control, may be seized, but
they may only be searched when probable cause exists to do so.
3. Plain view
a. The "Plain View" Doctrine allows
police to seize items that are in plain
view and the officer has probable
cause to believe this item is either
contraband or evidence when:
i. The officer is lawfully present in
the location.

81
ii. Seizing the item would require no
further intrusion.
4. Exigent circumstances.
a. A search may be conducted of anything when there is reason to believe
the search is necessary to save a life,
prevent injury, or serious property
damage.
b. Searches conducted under exigent circumstances are limited to emergency
situations.
c. This includes "Hot Pursuit" of a suspect where probable cause exists to
believe that the suspect has committed a felonious crime. An officer may
enter and search a building into
which he or she has pursued a
suspect.
5. Inventory search.
a. Will be conducted of any personal
property, including containers, in the
possession of a person under custodial
arrest.
b. Officers will conduct inventory
searches of seized vehicles consistent
with department policy, General
Order 330.41, if applicable.
6. Any search not listed in this policy, but is
authorized by the United States Constitution and/or the Constitution of the
State of Rhode Island and Providence
Plantations.

82
VIII. Use of discretion
a. The use of discretion may be exercised
by sworn personnel in situations
where alternatives to official law
enforcement action will result in a
better solution for affected individuals, society, the police department,
and the offender.
i. Discretion may not be exercised in
situations mandated by law.
ii. Use of discretion in situations
involving a misdemeanor or felony
crime requires notification to and
approval from a supervisor.
IX. Service of court documents
a. Communications will be notified of all attempts
to serve court documents.
b. When the service location is outside of the City
of Cranston, the local law enforcement agency
will be notified.
c. The servicing
following:

officer

will

document

the

i. Date and time of attempt.
ii. Officer's name.
iii. Name of person served.
iv. Location of attempt.
v. Method of service or reason for non-service.
vi. The service form will be completed for successful attempts.

83
vii. This information can be logged as a dispatch
entry if no report is required.
d. The Prosecution Unit will maintain a log with
the following information for:
i. Date and time received.
ii. Date and time of attempt.
iii. Officer's name.
iv. Type of process.
v. Nature of document.
vi. Originating court.
vii. Name of individual being sought/served.
viii. Date of assignment.
ix. Date of service due.
x. Docket number.
e. When assisting with Civil Court process, refer
to General Order 320.80 — Civil Procedures/Keep the Peace.
i. Sworn officers of this agency are not
authorized to serve civil process.
X. Responsibility
a. It is the responsibility of all personnel to familiarize themselves and comply with this order.

84
Cranston Police Department
General Order 320.80
[SEAL]
SECTION
300 - Law
Enforcement
Operations
SUBSECTION
20 - Patrol
Functions
TITLE
320.80 — Civil
Procedures

EFFECTIVE DATE PAGES
June 6, 2014
1

SPECIAL INSTRUCTIONS
N/A
CALEA STANDARD
N/A

I. Purpose
a. To provide guidelines for the Cranston Police
Department while executing the police role in
civil situations.
II. Policy
a. It is the policy of the Cranston Police
Department to aid in keeping the peace in civil
situations and to fully document such actions.
III. Authority
a. The Chief of Police is vested by and subject to
the provisions of the City Charter and the laws
of the State of Rhode Island, with the authority
to approve, issue, modify, or rescind all
departmental general orders, special orders,
personnel orders, and memoranda.
IV. Procedures
a. Telephone requests to dispatch and walk-in
request for police presence at a "keep the peace"

85
will be forwarded to the Patrol Officer-inCharge.
b. The Officer-in-Charge will determine the
nature of the action and if a police presence is
warranted.
c. The Cranston Police Department will dispatch
officers to provide for a "keep the peace"
whenever necessary. Appropriate "keep the
peace" functions include:
i. Tenant/Landlord disputes
ii. Eviction by Sheriff/Constable
iii. Repossession.
iv. Domestic dispute resolutions (post arrest
assistance).
v. Any situation deemed appropriate by the
Officer in Charge.
d. Once dispatched to a "Keep the Peace Call", the
officer must terminate the process if there is
any resistance except when the process is
served by the County Sheriff/Constable in
possession of Writ of Execution. In that event,
the officer may assist the Sheriff by
maintaining peace.
e. In all cases, a police report will be completed.
V. Responsibility
a. It is the responsibility of all officers to
familiarize themselves and comply with this
order.
[Digital Signature]
Sgt. Matthew J. Kite, LP.D.

86
Cranston Police Department
General Order 350.20
[SEAL]
SECTION

EFFECTIVE
DATE

300 — Law Enforcement
April 14, 2015
Operations
SUBSECTION

PAGES
15

SPECIAL
INSTRUCTIONS

50 — Investigations
TITLE

CALEA STANDARD

350.20 — Bureau of
Criminal Identification

83.1.1,
83.2.3,
83.2.6,
83.3.2,
84.1.3,
84.1.6,

83.2.1,
83.2.4,
83.2.7,
84.1.1,
84.1.4,
84.1.7,

83.2.2,
83.2.5,
83.3.1,
84.1.2,
84.1.5,
84.1.8

I. Purpose
a. To provide guidelines for the accurate, timely
collection and preservation of evidence. This
policy will establish guidelines for both maintaining the integrity of the evidentiary chain of
custody and properly storing found/personal
property.
II. Policy
a. It is the policy of the Cranston Police Department to provide efficiency in the identification,
collection and preservation of physical evidence
at a crime scene.

87
III. Authority
a. Federal Law
b. State Law
c. The Chief of Police is vested by and subject to
the provisions of the City Charter and the laws
of the State of Rhode Island, with the authority
to approve, issue, modify, or rescind all departmental general orders, special orders, personnel
orders, and memoranda.
IV. Procedure
a. Crime Scene Processing
i. The first department member to arrive at a
crime scene should not move or touch anything whenever possible.
ii. Members should always check for persons
requiring medical attention and/or suspects,
but should be cautious as to not disturb the
crime scene.
iii. All activity performed and any alterations to
the scene should always be noted.
1. Request necessary assistance. All persons found at the scene should be identified, detained and kept separate from
each other
2. Briefly note and record any evidence that
may relate to the crime. The date, time of
arrival, weather conditions and roam
conditions should be recorded and a
Crime Scene Roster should be started
and maintained.

88
3. Officers should physically isolate the
outer perimeter by erecting a clearly
marked crime scene barrier.
4. Only authorized personnel are to be
allowed inside the perimeter of the crime
scene.
a. BCI Detectives can authorize or deny
officers access to a crime scene,
regardless of rank.
5. The name and time of authorized persons
entering and leaving the crime scene will
be recorded utilizing the designated
Cranston Police Department Crime
Scene Roster.
6. It is imperative that all evidence be protected from contamination, alteration,
damage, destruction and theft.
a. Any officer who is unfamiliar with the
procedure relating to the collection
and preservation of evidence should
obtain assistance from a supervisor, a
member of BCI or a Crime Scene
Technician.
iv. Members of BCI processing a crime scene
will photograph search, collect, preserve,
document, transport, and submit evidence to
the Property/Evidence Room or other
authorized location.
1. BCI will provide technical assistance to
other department members as needed.
2. BCI personnel will be equipped with
department issued cellular phones so

89
response will be provided in an efficient
manner.
v. A mobile crime scene vehicle will be assigned
for use by BCI Detectives
1. It will contain the required equipment
and supplies to perform the following
tasks:
a. Recovery
evidence.

of

b. Photography
documentation.

latent
and

fingerprint
video

c. Crime Scene sketching and recording.
d. Collection and preservation of physical evidence.
2. It is the responsibility of members of BCI
to ensure that the Crime Scene Vehicle is
maintained in good repair and is ready
for service on a 24-hr basis.
3. Detectives of BCI will keep the crime
scene vehicle stocked with the necessary
supplies and equipment to ensure the
performance of the above listed tasks.
4. BCI Detectives will be allowed access and
use of the Mobile Resource Center when
it is deemed necessary.
vi. Reports filed by officers processing the
crime/accident scene will be completed by
the end of their tour and will contain the following information;
1. Case Number

90
2. Officer's name, date and time of notification and arrival at the scene
3. Location of the crime scene
4. Name and information of all parties
involved
5. Actions taken at the scene, to include:
a. Number of photographs taken, type of
camera used (digital or film), type of
film, if applicable and which camera
was used.
b. Whether or not measurements were
taken for preparation of a crime scene
sketch.
c. Documenting all physical evidence
recovered to include;
d. A description of the item (make,
model, and serial number)
e. The source of the item and name of
the officer collecting the item.
f. Assigning a property number and
providing a description of the
evidence.
g. Exposed film or Digital Media containing photos and crime scene measurement information.
6. The investigating officers will document
in a written report all procedures used
and circumstances surrounding how all
visible and latent evidence was located
and recovered.

91
7. In situations where a substance or material from a known source is available, it
will be collected for submission to the
appropriate laboratory for comparison
with physical evidence collected from the
scene. This will be done in a manner to
ensure the admissibility and integrity of
the sample in a court of law.
vii. Photography
1. The crime scene should be photographed
and/or videotaped before any search has
begun.
a. In a team situation, one person should
be assigned to all the photography
and videotaping
2. No personnel should be within the scene
at this time and no police equipment
should be included in the photographs
except as necessary for investigative
purposes
3. Items of evidence may not be moved or
examined until they have been photographed and/or videotaped from all relevant angles and examined for evidentiary
value.
4. Crime scene photographs and/or videotape should include the following:
a. The approaches to the crime scene
b. The surrounding area
c. The general scene
d. Relevant close-ups

92
e. Body positions should be photographed from all compass points
(N,S,E,W), along with an identification photo of the decedent's face.
f. Any fingerprints, bloodstains, tool
marks, bite marks, damaged area,
skid marks, tire tracks, glass,
impressions, etc.
5. In photographs where a scale is required,
a minimum of (2) photographs should be
taken; one (1) without the scale in the
photograph and one (1) with the scale in
the photograph.
6. At the time the photographs are taken, a
record should be made of the date, time
and location of the photographs, as well
as the case number of the incident. The
type of camera, f/stop, focal length and
air temperature should also be noted.
7. Each item of evidence should be photographed showing its location relative to
the crime scene.
8. If a digital camera is used then the photographs will be stored onto a CD/DVD
and loaded into the Image Archive
Folder, or the photos may be loaded into
the image files of the records management system.
9. If film is used, then upon completion, the
rolls of film will be placed in the alarmed
evidence room until such time that the
film can be transported for development.

93
a. The negatives and photographs will
be stored and filed by case number in
the evidence room.
viii.

Crime Scene Sketch

1. The investigating officer and/or member
of BCI will create a sketch of the crime
scene when applicable. This sketch will
include, but not be limited to the
following:
2. Dimensions of the crime scene
3. Relation of the crime scene to surrounding area/buildings.
4. Address, floor or room number as
appropriate.
5. Location of the significant features of the
crime scene including the victim, if any.
6. Date and time of preparation.
7. Name of person(s) preparing the sketch.
8. Direction of North.
9. Locations of physical evidence recovered.
10. The department's Total Station Forensic
Mapping System will be utilized on major
crime scenes or where BCI members
deem it necessary. The BCI Division may
request assistance from the Traffic Division or any other Officer that may be
trained in the use of the Total Station.
ix. Fingerprints
1. A crime scene search will include a
detailed examination for visible, plastic

94
and latent fingerprints when appropriate. Officers performing this function will
preserve all developed prints.
2. All surface areas in and around the crime
scene that have the potential of retaining
fingerprints or palm prints will be
searched and processed using an appropriate method determined by the Crime
Scene Technician or BCI Officer.
3. Elimination fingerprints will be obtained
from all persons who had legal access to
a crime scene so that the prints may be
used to exclude them. This includes any
victims, witnesses or involved parties.
Elimination prints will include all of the
individual's information and be marked
"Elimination" prints.
4. Fingerprints found at a crime scene will
be immediately recorded by photography
before any attempt is made to lift the
prints. A photograph of the print will be
taken with a scale present in the photograph and another without the scale
present.
5. The fingerprint lift card will contain the
following information:
a. Case number
b. Date and Time
c. Officer's Name/Badge Number
d. Property Number
e. Location or object the print was lifted
from.

95
6. Fingerprints from known individuals,
latent fingerprints and all other fingerprint evidence will be stored in such a
manner as to preserve evidentiary value
through proper identification, packaging
security and chain of custody.
b. Evidence Collection
i. Any officer impounding evidence shall
properly handle, mark, package (if appropriate) and transport all physical evidence to
headquarters or any other authorized location as soon as practicable prior to the end of
their tour of duty and document the evidence
in accordance with this policy.
ii. After the search has been completed and the
sketches and photographs have been taken,
the evidence may be collected.
iii. One (1) member of BCI will be the lead evidence collector who would have the responsibility of securing the evidence and maintaining the chain of custody.
iv. For all items of evidence that are collected, a
list containing the following information
should be prepared:
1. A description of the item(s), including the
make, model and serial number, if any.
2. The source from which the item(s) were
obtained.
3. The date, time, location and the
name/badge number of the person seizing
the evidence

96
v. Evidence should only be handled when
necessary
vi. Latex Gloves will be used when handling
any evidence
vii. If needed, a swatch or section may be cut out,
taken away or removed from its original
environment (i.e., carpet, upholstery, wall,
door, ceiling, etc.)
viii. Some types of evidence require special
handling procedures, such as, but not limited to the following:
1. Liquid blood samples shall be placed in
properly sealed containers and promptly
refrigerated.
2. Wet or bloody clothing should be air dried
and packaged in paper bags.
3. Physiological fluids should be frozen.
4. Items possibly supporting latent fingerprints should be protected from any
movement or actions that might destroy
or contaminate the prints.
c. Marking the Evidence
i. All property shall be packaged, labeled and
sealed. The packaging shall be initialed and
dated.
ii. Property that cannot be packaged should be
initialed in a manner that preserves the evidentiary value and has minimal effect on the
item's appearance.

97
d. Packaging Evidence
i. The main purpose in using proper containers
and packaging is to prevent a change in the
physical evidence through:
1. Loss by leakage
2. Evaporation or seepage
3. Contamination
4. Mixture or mingling
5. Alteration
6. Pilferage
ii. All evidence containers shall be sealed in
such a way that a container cannot be
opened unless a seal is broken. All seals
shall be marked with the Officer/Detectives
initials, badge number, date and time
(RISCL Required).
1. Narcotics and currency that are not
sealed properly will not be accepted.
iii. Evidence should not be bent or forced into a
container. Padding may be added to prevent
the object from moving, sliding or rolling
within a container.
iv. To ensure the preservation of evidence and
the prevention of contamination, all items
should be properly packaged by using:
1. Glass canning jars with screw on lids and
metal paint cans for volatile substances
(DO NOT USE PLASTIC).
2. Sterile plastic jars, metal cans or small
packaging envelopes for small items,

98
such as: bullets, shell casings, glass fragments, paint chips, hair, fibers, powdery
substances, etc.
3. Specified cardboard boxes for knives and
firearms.
4. Self-sealing, plastic bags for narcotics
and other dangerous drugs, currency,
jewelry, and other small items.
5. Paper bags for stained materials such as,
bloodied articles or those containing bodily fluids. (CAUTION: DO NOT PACKAGE MATERIALS WHEN WET AND
MOIST. ARTICLES SHOULD BE
ALLOWED TO DRY AND THEN BE
PLACED IN THEIR OWN SEPARATE
CONTAINER).
6. Sharps containers
needles.

for

Hypodermic

v. All evidence will be appropriately stored and
secured according to department directives.
e. Documenting Evidence
i. To minimize the chain of custody, evidence
should be handled by as few people as possible. The impounding officer is responsible for
the evidence seized, and its chain of custody,
until the evidence is turned over to the evidence custodian.
ii. The impounding officer will issue each piece
of evidence/property a separate IMC Property Number and attach the appropriate
Property Label to the item. Items should be
packaged separately and then secured in

99
Temporary Storage Lockers, The Impound
Garage or the outside Impound Area.
iii. Any Evidence suspected of having blood
and/or bodily fluid on it shall be allowed to
air dry and then placed in doubled paper
bags and sealed (preferably with red-bio hazard tape or labeled with biohazard stickers).
iv. The impounding officer is to complete a
Cranston Police Department Property Form
prior to placing the evidence in the temporary storage lockers. The evidence is to be
listed in the property section of the officer's
report. The Property Form is to generically
describe the items being seized and shall
also include any serial numbers. Indicate
which evidence needs to be processed, and
what it needs to be processed for. The Property Form shall accompany the evidence to
either the temporary storage lockers or the
evidence custodian.
v. Evidence shall be properly marked and
labeled. Evidence seized shall be marked
with the following:
1. Date and time evidence was seized.
2. Property number(s).
3. Case report number.
4. Officer seizing and depositing evidence.
5. Storage location (Temporary storage
lockers, Evidence Bay, etc.)
6. Indication of whether processing is
necessary.

100
vi. Items too large to be stored inside the temporary storage lockers are to be stored in the
impound bay in the basement or the outside
impound area in the rear lot of Headquarters.
vii. Evidence which needs to be processed (i.e.,
fingerprints, DNA analysis, etc.) shall be
accompanied by a memorandum indicating
what the item is and for what it is to be processed.
1. The memorandum should also include
suspect/victim's names and date of birth.
viii.Evidence to be analyzed for fluids (i.e., blood,
urine and alcohol) shall be placed in the
temporary storage refrigerators.
1. The impounding officer should notify BCI
via e-mail or departmental memorandum
that the evidence has been placed there
and what analysis is required.
ix. Any cash which is seized shall be counted by
the impounding officer and a supervisor.
1. It shall then be placed in a clear, tamper
proof, plastic evidence envelope, sealed,
initialed and dated.
2. A property label showing the amount
should be affixed to the front of the tamper proof bag.
x. Separate Property Forms should be completed for each group of narcotics, each
group of money, each group of jewelry, etc.
1. For example: an officer seizes 2 bags of
Marijuana, 1 gram of cocaine, and

101
$150.00 in cash. The two baggies of Marijuana are packaged together and listed
on one Property Form. The cocaine is
packaged separately and listed on a second Property Form. The money is secured
in a third package and listed on a separate Property From than the narcotics.
xi. Any evidence that is seized relative to a felony investigation shall be documented on a
Cranston Police Department Seizure Report.
The impounding officer will sign the Seizure
Report and it will accompany the evidence
where it is to be stored. Upon accepting and
storing the evidence, the BCI Detective shall
sign the Seizure Report and forward it to
Records to be scanned into the images section of the report.
xii. Any officer that seizes any narcotics during
an investigation shall complete a Rhode
Island Department of Health Transmittal
Form. The Transmittal Form shall indicate
the tests that are being requested and submitted along with the property form to BCI.
f. Storage of Evidence
i. BCI Detectives shall be responsible for
receiving, storing, maintaining, releasing
and accounting for all evidence in compliance with department policy.
1. The Temporary Storage Lockers are to be
emptied and the property shall be transported to the Alarmed Evidence Room
(AER) in a timely manner

102
ii. Upon receiving the evidence/property, the
BCI Detective shall examine it to ensure
that it is properly marked and packaged.
1. They will also ensure that the Property
Form is properly filled out. If either does
not conform to requirements, the Detective shall return the item to the submitting officer's supervisor for correction.
iii. Upon acceptance of the property/evidence,
the BCI Detective shall transfer the evidence from the temporary storage lockers to
the appropriate storage area in the AER.
1. A storage location (Bin #) shall be
assigned for the property/evidence and
recorded on the Property Form and in the
record management system. All Property
Forms will be stored in numerical order,
by year, inside of the evidence room.
g. Submission
Laboratories

of

Evidence

to

Forensic

i. It shall be the responsibility of the BCI
Detectives to request crime/forensic laboratory examinations.
1. BCI Detectives will be responsible for
preparing and transporting physical evidence to the appropriate laboratory.
ii. All narcotics and other controlled substances
will be transported by a BCI Detective to the
Rhode Island Department of Health, Toxicology Unit for examination.
1. In instances involving juvenile suspects,
narcotics and controlled substances that

103
are seized will only be tested by special
request as required by the court.
iii. All seized evidence subject to examination
shall be submitted to the appropriate laboratory as soon as possible.
iv. In situations where perishable evidence,
such as fresh blood, bloodstained objects,
physiological stains and tissue, biological
materials and alcoholic beverage samples
cannot be submitted in a timely fashion,
such perishable evidence will be stored in
BCI evidence refrigerator.
v. Items of physical evidence submitted for
examination will be prepared in a uniform
manner.
vi. Items of evidence will be packaged and
transmitted consistent with the requirements of the receiving laboratory.
vii. Depending upon the circumstances surrounding a particular investigation and/or
the type of evidence in question, the department will utilize, but is not limited to, the
following laboratories:
1. The Rhode Island Crime Laboratory at
the University of Rhode Island
2. The Rhode Island Department of Health,
Providence, Rhode Island. Please note
that any evidential submissions must be
forwarded consistent with RIDOH guidelines (electronically located in the departmental "M-Drive," hard copy on file in the
BCI Unit).

104
3. The Connecticut
Meriden, CT.

State

Crime

Lab,

4. The Federal Bureau of Investigation's
Forensic Lab, Quantico, VA.
viii. The officer transporting the evidence to the
laboratory will obtain a receipt to maintain
the chain of custody.
ix. Regardless of which laboratory is utilized,
the following information will be recorded
upon submission of evidence:
1. The name of last person having custody
of the item
2. The date and time of the submission or
mailing and the method used for
transportation.
3. The date and time of receipt in the
laboratory
4. Name and signature of the laboratory
personnel receiving the evidence.
x. A written report of the laboratory findings
will be obtained and the results will be documented in a supplemental report by the
submitting officer. The written lab report
will then be scanned into the images section
of the record management system and the
original will be stored in records.
h. Recording Transfers of Custody
i. BCI Detectives shall be responsible for
maintaining an accurate record of all
changes in the custody of evidence.

105
1. Such changes shall be fully recorded on
the reverse side of the Property Form and
the record management system.
ii. Members of the department to whom evidence is transferred bear full responsibility
for ensuring. its security, proper handling,
storage and maintenance until the evidence
is returned to the evidence custodian.
iii. When evidence/property is being released to
its owner, the receiver shall sign the Property Form indicating receipt of the items.
The receiver is required to produce a photo
ID prior to the release of the
evidence/property.
iv. Evidence may be released for court purposes
to the impounding officer, lead investigator,
or prosecution officer. The officer must sign
and date the Property Form and the record
management system tracking must be
updated to reflect the transfer.
v. Except when admitted into evidence in
court, evidence removed for court purposes
shall be returned immediately.
1. Upon return, the officer shall indicate the
date and time it was returned and place
it in the Temporary Storage Lockers or
return it to a BCI Detective.
2. A log recording the transfer of narcotics
and/or other evidence for training purposes (i.e., K-9, SIU) shall be kept. The
log shall indicate the time and date of
transfer, amount transferred, transfer-

106
ring officer's name and badge number,
and date time of return.
vi. Members of the department shall document
the transfer of custody of physical evidence,
while in the field/at the scene.
i. Disposal of Evidence
i. When no longer needed for evidentiary purposes, all evidence with the exception of firearms and contraband shall be returned to its
lawful owner. If the property is transferred
to this department by court order, or the
lawful owner fails/refuses to claim the property, then the agency may, as permitted by
law:
1. Destroy the item;
2. Dispose of it though auction;
3. Turn it over to the Unclaimed Property
Division of the State of Rhode Island; or
4. Retain it for use by the department
ii. Firearms and non-drug contraband shall be
destroyed unless a court order authorizes
use of this item by this agency; or the firearm is required by State Law, Court Order,
or request of the Attorney General to be
returned to its owner.
iii. Drugs shall be destroyed in accordance with
the practices established by the State of
Rhode Island and/or Departmental Policy.
iv. All fireworks and ammunition shall be delivered to the State of Rhode Island Fire
Marshal's Office for destruction.

107
v. At no time will any contraband be removed
for the personal use/possession of an
employee of this department.
vi. Evidence seized in a case shall be disposed
of in the following manner:
1. Felonies:
a. When the case results in a conviction
then the destruction date shall be set
at 1/2 the term of the sentence, to
avoid any appeals processes and must
be completed within six (6) months of
that date.
b. When the case results in a nonconviction, 48A or the defendant is
otherwise exonerated; then the evidence shall either be returned to its
rightful owner or disposed of in
accordance with this policy.
c. If no suspects exist or no arrests have
been made, and the statute of limitations has expired, then the items can
be disposed of or returned in accordance with this policy.
d. Under no circumstances shall evidence in unsolved Capital Crimes be
disposed.
2. Misdemeanors:
a. When the case results in a conviction
then the destruction date shall be set
at 1/2 the term of the sentence, to
avoid any appeals processes and must
be completed within six (6) months of
that date.

108
b. When the case results in a nonconviction, 48A or the defendant is
otherwise exonerated; then the evidence shall either be returned to its
rightful owner or disposed of in
accordance with this policy.
c. If suspects exist or no arrests have
been made, and the statute of limitations has expired, then the items can
be disposed of or returned in accordance with this policy.
3. Evidence collected in suicide and
attempted suicide cases shall be disposed
of after 90 days. If the item is a firearm,
refer to the Firearms section of this
policy.
j. Missing Evidence or Property
i. If after a thorough search of the Temporary
Storage Lockers, Alarmed Evidence Room,
or any other possible location of storage, the
evidence custodian believes a piece of evidence or seized property cannot be
accounted for, the BCI Sergeant and the
Detective Captain shall be notified in
writing.
k. Procedures for Found or Personal Property
(non-evidence)
i. Found/Personal Property shall be properly
marked and placed into the Temporary Storage Lockers with a completed Property
Form. Personal Property with no evidentiary value shall not be impounded unless
absolutely necessary. Prisoner traps should

109
remain in the holding area and returned to
prisoners upon their release or transfer.
Officers are to ensure that prisoners sign a
release form for their property.
ii. Every effort shall be made by the
officer/detective
involved
in
a
Found/Personal Property case to locate the
owner and return the property to that
person.
iii. As time and space constraints require, the
evidence custodian shall dispose of property
for which no owner can be determined, or for
which the owner refuses/fails to pick up. The
disposal of Found/Personal Property shall be
by the evidence custodian who shall follow
the same general rules as apply to the disposal of evidence in accordance with the
Rhode Island General Law.
l. Guidelines for Specific Types of Evidence
i. Blood Sample
1. Blood vials shall be placed in a plastic
storage tube and then placed in the Temporary Storage Locker refrigerator. The
storage tube shall be sealed, and labeled
with the case number, initials and code
number, and date/time. A Property Form
shall accompany the vials.
ii. Alcohol
1. A photograph of all alcohol seized shall be
taken. One unit of alcohol (bottle, can,
etc.) shall be saved, labeled, and packaged as evidence, the remainder
destroyed. If the alcohol seized has been

110
opened, then a sample shall be placed in
an airtight container. The container will
be sealed, labeled, packaged and then
both the original container and the sample container will be logged as evidence.
iii. Drugs
1. Seized drugs will be weighed by the
impounding officer prior to submission as
evidence. Drugs will be packaged in a
clear, tamper proof, plastic evidence bag.
The bag will be sealed, labeled and placed
in a Temporary Storage Locker. A Property Form and a RI State Toxicology
Transmittal Form shall accompany the
drugs.
iv. Recovered Stolen Goods
1. Recovered property from shoplifting and
minor theft cases shall be photographed
and returned to the owner.
v. Knives
1. All knives shall be placed in a cardboard
knife box in such a manner that the edges
or tip cannot injure someone who may
handle the knife. The knife box shall be
labeled and appropriately marked.
vi. Firearms
1. Safety - All seized or surrendered
firearms.
a. All Firearms will be handled in a safe
manner in accordance with department policy.

111
b. Every officer that confiscates a
firearm will complete a Property Card
and a Firearms Recovery Form. A
Property Number will be issued for
each individual firearm.
c. The firearm will be checked through
NCIC and an ATF trace shall be
requested.
d. The impounding officer will ensure
that the firearm is rendered safe.
i. In
the
case
of
a
semiautomatic/fully automatic weapon
then it will be secured by pulling
the slide back, and opening the
cylinder or bolt.
1. The same procedures should be
utilized when securing long
rifles and shotguns.
ii. If the firearm is a revolver, it will
be secured by ensuring that the
cylinder is open and devoid of any
ammunition.
iii. The firearm will be secured in a
long gun or handgun cardboard
box.
iv. The firearms shall be stored separately from ammunition.
v. Secure the firearm in the Temporary Storage Lockers.
e. If the arrestee possesses a State of
Rhode Island Permit to Carry a Concealed Weapon then the permit will be

112
confiscated
and
evidence.

submitted

as

f. Upon taking possession of a firearm
the BCI Officer will ensure that it is
secured properly and all necessary
paperwork and record management
system entries have been completed.
The firearm will then be stored appropriately in the AER.
2. Firearms seized as evidence
a. If testing is required (NIBIN entry,
Test Fire, etc.), then the BCI Detective handling the case shall ensure
that the firearm is sent to the appropriate Laboratory.
b. Upon learning that the criminal complaint has been adjudicated, the BCI
Detective will confirm in writing (or
email) with the Prosecution Division
that:
i.

The criminal complaint has been
fully and finally adjudicated.

ii. The Prosecution Unit no longer
requests that we retain possession
of the firearm.
iii. When the Defendant is found
guilty or otherwise convicted of the
charge, the firearm will be disposed of as follows:
1. If the firearm is owned by a
person with no criminal
involvement in the case, then
they shall be notified in writing

113
that he/she has six months
from the date of notification to
claim the firearm or it will be
presumed abandoned under RI
General Law.
2. If the defendant owns the firearm then a motion for forfeiture will be filed by the Prosecution Division, as provided for
in R.I. General Law.
3. If the firearm was purchased
with the proceeds of illegal narcotic related activity, move to
have the firearm forfeited as
provided for in R.I. General
Law.
iv. When the Defendant is found NOT
GUILTY or otherwise exonerated,
return the firearm to its rightful
original owner.
1. If the defendant is the owner,
notify the defendant in writing
that he/she has six (6) months
from the date of notification to
claim the firearm or it will be
presumed abandoned under
R.I. General Law.
2. If the defendant is not the
owner of the firearm, notify the
owner in writing that he/she
has six (6) months from the
date of notification to claim the
firearm or it will be presumed

114
abandoned under R.I. General
Law.
c. The Prosecution Unit will notify the
Attorney General in writing of the circumstances surrounding the seizure
of a concealed weapons permit.
i. If the Attorney General will take
action against the permit holder,
the Prosecution Unit will notify
the licensee in writing of the disposition of the permit.
1. The licensee will also be notified that will not be authorized
to carry a concealed firearm
until otherwise notified.
ii. If the Attorney General will not
take action against the permit
holder, the Prosecution Unit will
notify the licensee in writing that
no action has been taken against
their permit and that the licensee
must respond to headquarters to
retrieve the permit.
3. Firearms Seized for Safe Keeping
a. If it is believed that the owner meets
the criteria set forth in R.I. General
Law, mental incompetents, drug
addicts, and drunkards prohibited
from possession, the owner will be
notified that they will need an order
from a competent court instructing
the department to return the firearm.

115
i. The owner may "file a motion to
return seized property" with the
court and arrange for a hearing on
the matter.
ii. If the owner has not filed this
motion within six (6) months from
the date of notification, the firearms will be presumed abandoned
under R.I. General Law.
b. If the firearm was confiscated due to
the owner's temporary state of mind
posing a threat to him/herself or others and the case has been adjudicated,
no court orders are in effect and no
other circumstances exists that would
prevent the owner from legally possessing the firearm, then notification
will be made in writing:
i. That the department is in possession of the firearm and that it was
confiscated based on the office's
reasonable concerns as outlined in
the case report.
ii. That the owner may retrieve the
firearm at headquarters.
iii. That if the owner does not retrieve
the firearm with in six (6) months
from the date of notification, the
firearm will be presumed abandoned under R.I. General Law.
4. Firearms Seized as Found Property
a. Officers will take a first report and
list the firearm as "found property".

116
b. Every effort will be made to locate the
rightful owner of the firearm. The BCI
Detective will complete a supplemental report documenting what
efforts were made.
i. If the owner is identified and
located, notification will be made
that the owner has six (6) months
from the date to claim the firearm
or it will be presumed abandoned
under R.I. General Law.
ii. If an owner is not identified or
located, then the firearm will be
held for six (6) months and then
presumed abandoned.
5. Firearms Surrendered to the Police
Department
a. Record the firearm as "in custodyconfiscated" in the record management system's property section.
b. Firearms Recovery Form.
c. Firearms will be disposed of according
to department policy.
vii. Disposition of Forfeited and Abandoned
Firearms
1. Dispose of any firearm forfeited under
R.I. General Law according to the
instructions of the Attorney General.
2. Dispose of any firearm forfeited under
R.I. General Law as follows:
a. If requested by the Chief of Police, a
motion will be filed for non-

117
destruction and retention of the firearm by the department
b. If the Chief of Police makes no
request, the firearm will be destroyed
in a manner consistent with the
standards of firearm destruction set
forth by the Bureau of Alcohol,
Tobacco, and Firearms.
3. Abandoned Firearms
a. Any firearm will be held for six (6)
months after it was declared
abandoned.
b. On the six (6) month anniversary, the
firearm will be destroyed in a manner
consistent with department policy.
4. Procedures Relating to the Release of
Firearms
a. The release of any firearm that has
been confiscated, seized or forfeited to
the custody of the Cranston Police
Department shall not be released
without the prior consent and authorization of the Chief of Police designee.
viii.

Cash/Valuables

1. Shall be counted by the impounding
officer and a supervisor. The currency/valuables shall be placed in a plastic tamper proof bag, sealed, and properly
marked by the impounding officer and
the supervisor. The amount contained
shall be indicated on the property label
and on the Property Form and secured in
the Temporary Storage Lockers.

118
ix. Seizure of Computer Equipment and Other
Electronic Storage Devices.
1. If the seizure of computer equipment and
other devices capable of storing data in
electronic format is necessary in the
performance of an investigation and if all
legal requirements have been fulfilled,
investigators should follow the listed procedures to limit the loss of electronic
evidence.
2. Preserve the computer/device area for
potential fingerprints.
3. Immediately restrict
computer/device.

access

to

the

4. Isolate the computer/device from phone
lines and/or cable modems to restrict
remote access.
5. If the computer/device is "Off", do not
turn it "On".
6. If the computer/device is "On", and is a
Stand-Alone Computer, then:
a. Photograph screen, then disconnect
all power sources; unplug from wall
AND the back of the computer.
b. Place evidence tape over each drive
slot.
c. Photograph/diagram and label back of
computer components with existing
connections.
d. Label all connections/cable ends to
allow reassembly as needed.

119
e. If transport is required, then package
components and transport/store components as fragile cargo.
f. Keep away from magnets, radio transmitters
and
otherwise
hostile
environments
g. If the computer is Networked or a
Business Computer, then:
i. Consult a computer specialist for
assistance.
ii. Do not attempt to disconnect any
part of the computer system as
this may severely damage the system, disrupt legitimate business,
and/or create liability.
iii. Additional
information
and
computer specialist may be
accessed through the MIS Department, the RI State Police, the U.S.
Secret Service, the Federal Bureau
of Investigation and/or other law
enforcement agencies.
x. Motor Vehicles
1. Dispatch will include a detailed description and the tow location of the vehicle in
the IMC tow log.
2. The officer towing the vehicle will assign
it, (the vehicle), a PR# and complete a
property card for any vehicle that is being
towed and held, as it should be considered evidence or seized/held property. If
there are keys with the vehicle, they
should be assigned a separate PR#.

120
3. The officer towing the vehicle will
include, on the property card, the reason
that it is being held at HQ or the City
garage.
a. i.e. Held for prints, Held for processing, To be searched by/for.
4. The Property card will be placed into designated temporary evidence locker
(T121). , with the keys attached, if there
are any. Do not leave the property card
with the vehicle.
5. A property label will be completed and
kept with the vehicle.
6. The officer towing the vehicle will complete a department vehicle hold form
which includes the specific location of the
vehicle as well as the PR# assigned. This
should also be attached to the Property
Card submitted to BCI.
7. The officer towing the vehicle will include
the vehicle information in IMC under the
property tab.
a. Enter the detailed vehicle information under the "Vehicle" tab
b. Enter the storage location under the
"Case Tracking" tab
c. Select either "Police Impound lot",
"CPD basement", or "City garage"
8. Release of vehicles being held at HQ will
be handled by the BCI Unit. Subjects
requesting the return of their vehicles

121
will be required to make an appointment
with the BCI Unit.
9. BCI will be responsible for performing a
monthly audit of the impound lot and
basement of HQ on the first of each
month to insure compliance and proper
tracking of seized vehicles.
V. Medication Disposal Program
a. The drug collection unit (DCU) shall be located
in the lobby of the Cranston Police Department
in an area that affords an accessible and anonymous drop-off point to the public on a 24hour/7 day per week basis.
i. Non-sworn members of the department shall
neither accept, nor receive into their possession, any items from any entity for disposal
into the DCU. When asked about the disposal of medication, all civilian personnel
shall inform the general public about their
ability to use the DCU in the lobby.
ii. Acceptable medications that are physically
turned over to any sworn department
employee for disposal shall not be deposited
into the DCU, but shall be treated as recovered property and handled in accordance
with established department procedures
governing such property.
iii. In order to ensure the safety and security of
the DCU, its lobby location shall be continuously monitored by the video surveillance
system.
iv. The DCU shall be securely locked with a
uniquely keyed padlock at all times except

122
when being emptied
personnel.

by

authorized

1. The padlock provided with the DCU shall
not be changed without prior written consent
of
the
Detective
Division
Commander.
2. The duplication of the padlock key is
prohibited.
v. The DCU shall have a sign posted upon it
listing both acceptable medications that may
be placed inside the unit and unacceptable
items that may not be placed inside the unit.
b. Acceptable and Unacceptable Items
i. Acceptable - Prescriptions, prescription
patches, prescription medications, prescription ointments, over-the-counter medications, vitamins, medication samples, and pet
medications.
ii. Unacceptable - Thermometers, hydrogen
peroxide, inhalers, aerosol cans, ointments,
lotions, liquids, "sharps" (i.e., needles, lancets, syringes, IV's), and any medications or
items from entities such as, but not limited
to, businesses, pharmacies, and health care
providers
c. Collection and Control
i. The DCU shall be the responsibility of the
supervisor of the Bureau of Criminal
Identification.
1. The supervisor of BCI and the Detective
Division Commander shall possess a copy
of the padlock key.

123
2. The supervisor of BCI and the Detective
Division Commander shall be responsible for the security of the key that is
assigned to each unit.
3. The supervisor of BCI and a detective
assigned to BCI shall be responsible for
ensuring access cannot be gained into the
storage area located within the DCU by
affixing the padlock to the DCU after
completion of their duties.
ii. The BCI Supervisor, or designee, and a second detective assigned to BCI shall be present at all times whenever the DCU is
opened.
iii. The DCU shall be opened and inspected
periodically to ensure that it does not
become overfilled.
iv. The DCU shall be emptied as needed, but no
less than once per month.
v. When emptied, the contents of the DCU
shall be immediately transferred to the
secure property room by the BCI Supervisor
or designee and a second detective assigned
to BCI.
vi. A documented inventory of the contents is
not mandatory, but may be performed by the
BCI Supervisor or designee and a second
detective assigned to BCI.
vii. The contents will be bagged, sealed,
weighed, bar-coded, and placed in the drug
locker located within the secure property
room by both parties.

124
viii. The sealed bag containing the contents will
be disposed of in accordance with established department guidelines.
ix. The BCI Supervisor or designee shall annually initiate and maintain a new DCU incident report with a supplemental narrative
being added whenever the DCU is opened or
emptied.
x. Additionally, whenever the DCU is opened
or emptied, a log shall be kept by the BCI
Supervisor containing the following information:
1. Incident number.
2. Date and time of opening or emptying of
the DCU.
3. Identities of the personnel present.
4. Weight of contents (when the DCU is
emptied).
5. Property tag number.
6. The BCI Supervisor shall immediately
notify the Commander of the Detective
Division, in writing, of all activities and
reports generated with respect to the
DCU.
VI.Training
a. As a mandatory requirement of their probation,
all members of the Cranston Police Department
BCI will successfully complete Criminal Investigation: Scientific Evidence I & II, hosted by
the RI State Crime Lab.

125
b. BCI members will make every attempt to
remain current with any applicable changes in
state laws, the procedures for the collection and
preservation of evidence, and the policies of outside agencies, i.e., the RI State Crime Laboratory or the Department of Health.
e. Members may be required to attend refresher
courses and specialized training seminars or
schools relating to the collection and preservation of evidence.
d. The expense for all memberships and dues for
any professional organizations dealing with the
duties and responsibilities of a Cranston Police
Department BCI Detective, such as IAI,
NEDIA, RICA, IAPE will be covered by the City
of Cranston
VII. Inspections and Audits
a. An audit of the property room will take place
when new personnel are transferred in or out of
the BCI.
i. The purpose of the audit is to ensure the continuity of custody and not to account for
every item of property.
ii. Any discrepancies found during the audit
should be noted before the new officer is
assigned
b. An audit of the property room will take place
annually.
i. This audit will be conducted by a supervisor,
appointed by the Chief of Police, not
assigned to the Detective Division.

126
ii. The audit should be a random sampling of
property held to satisfy the auditor that policies and procedures are being followed.
c. An unannounced inspection of the property
storage area will take place annually and will
be conducted by the Chief of Police or designee.
VIII. Responsibility
a. It is the responsibility of all personnel to familiarize themselves and comply with this order.
[Digital Signature]
Matthew J. Kite, LP.D.

127
Cranston Police Department
General Order 320.70
{SEAL]
SECTION
300 - Law
Enforcement
Operations

EFFECTIVE DATE PAGES
June 6, 2014

4

SUBSECTION

SPECIAL INSTRUCTIONS

20 - Patrol
Functions

N/A

TITLE

CALEA STANDARD

320.70 - Public
Mental Health

41.2.7(a-e)

I. Purpose
a. To address the most common types of interactions with mentally ill persons, and provide
guidance to department personnel in dealing
with such individuals.
II. Policy
a. It is the policy of the Cranston Police Department to ensure a consistently high level of service is provided to all community members and
to afford people who have mental illnesses the
same rights, dignity, and access to police and
other government and community services as
are provided to all citizens.
III. Authority
a. United States Constitution

128
b. Constitution of Rhode Island and Providence
Plantations
c. Federal Law
d. State Law
e. The Chief of Police is vested by and subject to
the provisions of the City Charter and the laws
of the State of Rhode Island, with the authority
to approve, issue, modify, or rescind all departmental general orders, special orders, personnel
orders, and memoranda.
IV. Procedures
a. Recognizing mental illness.
i. Officers are not in a position to diagnose
mental illness but must be alert to common
symptoms.
ii. Symptoms of mental illness may vary, but
all mentally ill persons have thoughts, feelings, or behavioral characteristics which
result in an inability to cope with the ordinary demands of life.
iii. While a single symptom or isolated event
does not necessarily indicate mental illness,
professional help should be sought if symptoms persist or worsen.
b. Common encounters
i. Officers should be prepared to encounter a
person with a mental illness at any time.
ii. Common situations in which such individuals may be encountered include but are not
limited to, the following:

129
1. Mentally ill persons may be found in
medical emergency situations;
2. Disturbances may develop when caregivers are unable to maintain control over
mentally ill persons engaging in selfdestructive behaviors;
3. Individuals with mental challenges may
be found wandering aimlessly or engaged
in repetitive or bizarre behaviors in a
public place;
4. Repetitive and seemingly nonsensical
motions and actions in public places,
inappropriate laughing or crying, and
personal endangerment;
5. Socially inappropriate or unacceptable
acts such as ignorance of personal space,
annoyance of others, inappropriate
touching of oneself or others, are sometimes associated with the mentally ill
person who are not conscious of acceptable social behaviors.
c. Response to people with perceived mental
illness
i. Persons with mental illness can be easily
upset and may engage in tantrums or selfdestructive behavior.
1. Minor changes in daily routines may
trigger these behaviors.
ii. Frequently, a family member or friend is of
great value in calming an individual exhibiting unusual behavior as a result of mental
or emotional impairment.

130
iii. The following guidelines detail how to
approach and interact with people who may
have mental illness, and who may be a crime
victim, witness or suspect.
1. These guidelines should be followed in all
contacts, whether on the street or during
more
formal
interviews
and
interrogations.
2. While protecting their own safety, the
safety of the person with mental illness
and others at the scene, the officer
should:
a. Speak calmly;
b. Use non-threatening body language:
c. Eliminate commotion;
d. Look for personal identification:
i. Medical tags or cards often indicate mental illness and will supply
a contact name and telephone
number;
e. Call the caregiver:
f. Prepare for a lengthy interaction:
g. Be attentive to sensory impairments:
h. In some situations and particularly
when dealing with someone who is
lost or has run away, the officer may
gain improved response by accompanying the person through a building
or neighborhood to seek visual clues;
i. Be aware of different forms of communication. Mentally ill individu-

131
als often use signals or gestures
instead of words or demonstrate
limited speaking capabilities;
j. Don't get angry;
k. Maintain a safe distance.
iv. Once sufficient information has been collected about the nature of the situation, and
the situation has been stabilized, there is a
range of options officers should consider
when selecting an appropriate disposition.
These options include the following:
1. Refer or transport the person for medical
attention if he or she is injured or abused.
2. Outright release.
3. Release to care of family, care giver or
mental health provider.
4. Refer or transport to substance abuse
services.
5. Assist in arranging voluntary admission
to a mental health facility if requested.
6. Transport for involuntary emergency
psychiatric evaluation if the person's
behavior meets the criteria for this
action.
7. Arrest if a crime has been committed
d. Interview & Interrogation
i. Officers attempting to conduct an interview
with a mentally ill individual should consult
a mental health professional to determine if
the person understands the Miranda rights.

132
1. If the mentally ill person is a witness,
officers should:
a. Not interpret lack of eye contact or
strange actions as indications of
deceit;
b. Use simple
language;

and

straightforward

c. Do not employ common interrogation
techniques, suggest answers, attempt
to complete thoughts of persons slow
to respond, or pose hypothetical
conclusions.
e. Custody
i. If an individual with a mental,
emotional, or psychological illness
is taken into custody, officers will
make reasonable effort to use the
least restraint possible and protect
the arrestee from self-injury, while
taking all necessary precautions.
ii. In a misdemeanor incident where
an individual is apparently mentally ill, officers may seek nonarrest resolutions.
1. The most desired resolution
being voluntary admission to
an appropriate mental health
facility.
2. When public safety is at issue,
officers will follow RI General
Law, regarding involuntary
emergency evaluation:

133
a. Refer to RIGL 40.1-5-7.
f. Voluntary admission
i. Persons who appear to be in need
of psychiatric evaluation and do
not appear to pose an imminent
danger to themselves or others
should be referred to a mental
health facility.
ii. Persons who have been or are
under the care of a private physician should be referred to the physician if possible.
iii. Persons, who voluntarily agree to
psychiatric evaluation, will be
taken to Rhode Island Hospital or
another appropriate facility.
g. Involuntary admission
i. A higher level of law enforcement
intervention will be required when
officers encounter the following
scenarios:
1. The person is imminently dangerous to him/herself or others.
2. The person is unable to care for
him/herself
3. The person is suffering substantial physical deterioration
and shows an inability to function if not treated immediately.
ii. Officers can respond with the most
appropriate of the following alter-

134
natives for involuntary admissions
to a psychiatric hospital:
1. Police officers, who have personally observed the actions of
the individual and have reason
to believe that the person is in
clear and imminent danger of
causing personal harm to
him/herself or others, will
ensure the individual is evaluated,. The normal procedure
will be to have rescue transport
the individual.
2. Rhode Island Hospital is the
primary hospital, however rescue personnel may make the
determination to which hospital the patient is ultimately
transported.
3. Rescue personnel should be
informed of the observations of
the officer that lead to the evaluation request.
4. Police and rescue personnel
should work together to determine the best course of police
involvement in the transport.
iii. The officer must complete an incident report detailing the circumstances of the event(s) they
observed, which led to the involuntary admission evaluation.

135
V. Training
a. Cranston Police Department will provide entry
level personnel with training on this subject,
and will provide refresher training at least
every three (3) years.
b. Newly hired personnel will receive training in
department procedures set forth in this General
Order as part of their entry level training.
c. Refresher training for all personnel will include,
but not be limited to: policy review during staff
meetings, roll call training, and in-service programs.
VI.Responsibility
a. It is the responsibility of all personnel to familiarize themselves and comply with this order.
[Digital Signature]
Sgt. Matthew J. Kite, LP.D.

136
In The Matter Of: Caniglia vs Strom, et al
Officer John Mastrati
May 31, 2018
ALLIED COURT REPORTERS, INC.
AND VIDEO CONFERENCE CENTERS
* * *
[18] told someone that they had to go for a psychiatric
evaluation?
A. Not usually. I request it. Regardless of the answer,
I’ll have the rescue come down and evaluate them.
Q. And if the person says I don’t want to have a
psychiatric evaluation, what do you do then?
A. I still go call for the rescue to check that person
out depending – I’m not a medical professional, so I’ll
let them evaluate them, and if they say they need to
go, then they go.
Q. So, your understanding is that the rescue can
require someone to go for a psychiatric evaluation?
A.

Yes.

Q. Is the rescue that you call, is that the rescue
that is part of the Cranston Fire Department?
A.

Yes.

Q. Okay. And your understanding is that’s also
part of the City of Cranston?
MR. CUNNINGHAM: Objection.
THE WITNESS: The rescue?
MR. LYONS: Yes.
A.

Yes.

137
Q. Do you have any of your written materials from
the
* * *
[83] mean it.
Q. Okay. If Mr. Caniglia had really meant for his
wife to shoot him, do you think he would have had the
magazine and handgun separate?
MR. CUNNINGHAM: Objection.
A. I don’t know.
Q. Okay. Do you know if Mrs. Caniglia has ever
used the handgun?
A. I don’t know.
Q. Do you know if she would know how to put the
magazine into the handgun?
A. I wouldn’t know.
Q. Can you read to yourself the last sentence – no,
let me withdraw the question. The next sentence says,
quote, “He stated that he had a friend who committed
suicide, and he would never do that to family.” Do you
see that?
A. I do.
Q. Do you remember him saying that?
A. I do.
Q. Okay. How did he say that?
MR. CUNNINGHAM: Objection.
A. He told me pretty much in a calm may, the may
he was talking to me the whole time.
Q. Okay. Did he say it in a persuasive may?

138
* * *
[89] A. Yes.
Q. Okay. It was your understanding the firearms
belonged to Mr. Caniglia?
A.

According to Kim, yes.

Q. Okay. Did you ever ask Mr. Caniglia if you could
seize the firearms?
A.

No.

Q. Do you know if any Cranston police officer
asked Mr. Caniglia if the Cranston police could seize
the firearms?
A. I don’t know.
Q. You located one firearm under the bed?
A. Yes, that’s where Kim pointed out that firearm,
that’s where she told me it was where she hid it
initially when I spoke to her.
Q. She put it under the bed?
A. She stated, yes. After he took it out and then she
stated she didn’t call 911, she left, and then she hid it.
Q. Do you know where Mr. Caniglia usually kept
that firearm?
A. I do not.
Q. Do you know if he kept it under the bed?
A. I don’t.
Q. Okay. In other words, you don’t know if that
was
* * *

139
[92] whether or not Kim indicated that she had any
concerns for her own safety?
MR. CUNNINGHAM: Objection.
A. Yes. Again, I didn’t know – all I knew, there was
one weapon there, one firearm. She brought up the
second firearm and she wanted it removed from the
household for his well-being, and she also said she
didn’t want them because she didn’t know what he was
going to do with him. For me that’s also for her wellbeing, that’s why the firearm was removed.
Q. All right. But did she say she wanted it removed
because of her own well-being?
A.

No. Mostly for Edward’s well-being.

Q. Are you aware of any occasion which Edward
has threatened to take his own life with a firearm?
MR. CUNNINGHAM: Objection.
A.

No.

Q. Did Kim indicate that Edward had ever
threatened to take his own life with a firearm?
A.

No.

MR. LYONS: Exhibit 3.
EXHIBIT 3 (PLAINTIFF’S EXHIBIT 3 MARKED
FOR IDENTIFICATION)
Q. Officer Mastrati, let me show you what’s been
* * *

140
In The Matter Of: Caniglia vs Strom, et al
Officer Wayne Russell
July 20, 2018
ALLIED COURT REPORTERS, INC.
AND VIDEO CONFERENCE CENTERS
* * *
[44] apart from reviewing the incident report or –
A. Okay.
Q. – stuff you heard from other officers?
A.

That he was – he was nice. He was very polite.

Q. Okay.
A. He – as far as I – what I remember from outside
of the incident report, I believe I was working overtime
so I think I worked third before that. He was very
welcoming.
Q. Okay. When you say “he,” you’re talking about
Mr. Caniglia?
A.

Yes, sir.

Q. Okay.
A. I didn’t – I don’t believe I said anything to him.
Q. Okay.
A. As far as I remember, I never went inside the
house.
Q. Okay.
A. I think myself and I think Officer Smith just
stood on the porch while Officer Mastrati and Sergeant
Barth spoke to him.
Q. Okay.

141
A. Besides that, I don’t really –
* * *

142
[1] UNITED STATES DISTRICT COURT
DISTRICT OF RHODE ISLAND
————
C.A. No. 15-525-M-LDA
————
EDWARD A. CANIGLIA,
vs
ROBERT F. STROM, AS THE FINANCE DIRECTOR OF THE
CITY OF CRANSTON, et al.
————
DEPOSITION
DEPOSITION of Kim Caniglia, taken in the aboveentitled cause on behalf of the Defendants, pursuant
to notice, before Brenda A. Scharver, Notary Public in
and for the State of Rhode Island, at the offices of
DeSisto Law, 60 Ship Street, Providence, Rhode Island
on June 27, 2018 scheduled for 10:00 a.m.
APPEARANCES:
FOR THE DEFENDANT:
DeSISTO LAW
BY: PATRICK K. CUNNINGHAM, ESQ.
FOR THE PLAINTIFF:
THOMAS W. LYONS, III, ESQ.
AFFILIATED COURT REPORTERS (401) 246-0520
* * *
[17] the bedroom, he gets the gun. Does he get anything else?
A I don’t know. I didn’t– He went into the bedroom.
I didn’t.

143
Q Let me try it this way. You said he went into the
bedroom, got a gun, dropped the gun on the table?
A

Just the gun.

Q

Just the gun. Nothing else?

A

No.

Q

Was the gun loaded?

A

I couldn’t tell from where I was sitting.

Q And he said, why don’t you just shoot me and
put me out of my misery?
A

Correct.

MR. CUNNINGHAM: Brenda, I’m going to have you
mark an exhibit for us.
(WHEREUPON; Affidavit of Kim Caniglia marked
Defendant’s Exhibit A for Identification)
Q Mrs. Caniglia, do you remember executing an
Affidavit, I’m assuming for Mr. Lyons, regarding this
lawsuit?
A

Yes.

Q Could you look at Paragraph Number 5 for me
and just read it to yourself.
A

Yes.

Q Does that refresh your recollection whether Mr.
Caniglia
* * *
[19] Q Your memory is that your husband said why
don’t you just shoot me and put me out of my misery?
A

I believe that’s what he said.

144
Q Your Affidavit on Paragraph 5 said that you
remember him saying, “shoot me now and get it over
with”?
A

Yes.

Q

Do you remember him saying that too?

A

I don’t remember exactly.

Q But it was something to the effect of shoot me
now and put me out of my misery?
A

Yes.

Q What happens after he puts the gun on the table
and says shoot me now and put me out of my misery?
A I asked him what he was doing? What are you
thinking? I’m going to– I’m going to call 911.
Q

And did he respond to that?

A I don’t believe he did. He– It was shocking. I
don’t remember exactly what occurred, but very shortly
after that he said, I’m leaving, and he left, I have to go
for a ride.
Q So shortly after he puts the gun on the table and
says why don’t you just shoot me and put me out of my
misery, shortly after that he leaves?
A

Yes

[20] Q He says I need to go for a ride?
A

Yes.

Q And you have no memory of him putting a
magazine on the table?
A

No.

Q

What do you do when he goes for a ride?

A

Cry.

145
Q

Besides–

A Thinking about what I should do. I’ve never
been in this situation. I got the gun, I put it back
underneath the bed, that’s in my recollection when I
saw the magazine so I knew the gun wasn’t loaded. As
soon as I picked up the gun and saw the magazine
wasn’t in it, I knew it wasn’t loaded. I got the magazine
out from underneath the bed and I hid it in a drawer.
Q I’m going to do this one step at a time again. So
after he leaves, you say you put the gun underneath
the bed?
A

Back where it always is.

Q When you say “underneath the bed”, do you
mean?
A

In between.

Q What do you mean when you say “underneath
the bed”?
A I mean between the mattress and the box
spring.
Q Perfect. And then you said that when you picked
up the gun to put it in between the mattress and the
box spring, [21] you noticed that there was no magazine?
A

Yes.

Q

So you noticed then that it was unloaded?

A

Yes.

Q

Then what did you do?

A As I was putting the gun back between the
mattress and the box spring, I felt the magazine which
is in its own little holder, and I took that and I hid it
in a drawer in the bedroom.

146
Q Again, I’m not trying to put words in your
mouth, I’m just trying to clarify and understand it. So
the magazine was, for lack of a better description,
hidden in the same place the gun was, in between the
mattress and the box spring?
A

Yes.

Q

I’m sorry, you took the magazine and hid that?

A

Yes.

Q

Where did you hide that?

A I hid it in a drawer, a dresser drawer in the
bedroom.
Q

Why did you hide the gun and the magazine?

MR. LYONS: Objection.
A

I didn’t know what else to do.

Q You say you didn’t know what else to do, but
what was the purpose of hiding the gun and the
magazine?
* * *

147
In The Matter Of: Caniglia vs Strom, et al
Richard Greene
July 26, 2018
ALLIED COURT REPORTERS, INC.
AND VIDEO CONFERENCE CENTERS
* * *
[42] Q. Do you remember anything specific that the
police said to you?
A. Yes. They told me that they recovered the weapon,
which is a gun, and they told me that the patient
wanted his wife to shoot him with his own gun.
Q. Do you remember anything else the police told
you?
A.

No.

Q. Did you talk to Mr. Caniglia?
A.

Yes.

Q. All right. Do you remember what Mr. Caniglia
said?
A. I believe, per the report now, I asked the patient
what was going on, and he told me exactly what the
police officer told me. He did not deny the allegations.
Q. Okay. Do you know if you asked or if you were
told whether the gun was loaded?
A.

No.

Q. Did you – would you normally have asked that
question?
A.

No.

Q. Would it matter to you?
A.

No.

148
Q. Why not?
* * *
[44] dispute with his wife.
Q. Do you recall if you asked Mr. Caniglia about
any of the risk factors for suicide that you have identified?
A. I don’t recall.
Q. Do you know if the police made a determination
whether or not Mr. Caniglia was suicidal?
A. No idea.
Q. Apart from the fact that Mr. Caniglia had made
this statement about he wanted his wife to shoot him,
did you consider any other factors as to whether he
was a risk for suicide?
A. Other than him telling me he wanted his wife to
shoot him twice, from the night before and that day.
Q. Is it your understanding that he had said that
twice?
A.

Yes.

Q. And what is that based on?
A.
me.

From what the police told me, and what he told

Q. So your recollection is Mr. Caniglia told you
that he had twice told his wife he wanted her to shoot
him?
A. The patient, or the police. He told me, I
* * *
[46] A. I do not recall.
Q. Do you know if he had feelings of hopelessness?

149
A. Well, when you say your wife is going to leave
you, I don’t know how you want to – I can’t tell you
how the guy feels. All I know is he was upset.
Q. Why do you say his wife was going to leave him?
A. Because he told me that; that’s in my report.
Q. You have a specific recollection of Mr. Caniglia
saying that his wife was going to leave him?
A.

I wrote it in my report, so, yes.

Q. Do you know if Mr. Caniglia had a history of
impulsive or aggressive behavior?
A. No, I didn’t.
Q. Did you ask him?
A. I don’t remember.
Q. Do you know if he had a recent loss of a loved
one, job, money or social loss?
A. No idea.
Q. Did you ask him?
A. I don’t remember.
Q. Do you know if he had – well, PTSD stands for
post-traumatic stress disorder, correct?
A. Correct.
Q. Do you know if Mr. Caniglia had PTSD?
* * *
[48] THE WITNESS: Say that question again?
Q. Do you know who decided that Mr. Caniglia was
going to go to the hospital?
A. He had no – he didn’t have a – he never denied
(sic) not to go.

150
Q. Well, did you ask him if he wanted to go?
A. Did I ask him? I believe I told him that we were
going to the hospital, and he did not deny it.
Q. Did the Cranston police tell you that Mr.
Caniglia was going to the hospital?
A. I would say yes. That’s why I was there.
Q. Did the Cranston police tell you why Mr. Caniglia
was going to the hospital?
A.

Yes.

Q. What did he they tell you?
A. He wanted his wife to shoot him, so they wanted
a psych evaluation.
Q. Did anybody say that Mr. Caniglia had agreed
to go to the hospital?
A. He agreed.
Q. How did he agree?
A. I told him we’re going to the hospital, and he
didn’t refuse.
[49] Q. Okay. Did Mr. Caniglia ever say I want to go
to the hospital for a psych evaluation?
A.

Them words, no.

Q. You inferred from the fact that Mr. Caniglia did
not verbally object, that he was agreeing to go to the
hospital?
MR. CUNNINGHAM: Objection.
A. I told him, most likely I told him that we were
going to the hospital for a psych evaluation; from what
he said, I would have wrote it if he denied to go. He
went willingly.

151
Q. And on what basis do you say he went willingly?
A. Because he got in my truck, I didn’t have police
with me, there was no restraints, it was verbally, it was
calm, and he admitted to everything that happened.
So in his mind he got out of the situation by leaving
the house. He walked in my truck without any issue.
We talked and we drove to the hospital. There was no
unwillingness, there was no – if there’s anything that
would not want him to go, it would have been written
in the report.
Q. Okay. So there was no discussion with you
about why he was agreeing to go to the hospital, as you
understood it?
* * *

152
UNITED STATES DISTRICT COURT
DISTRICT OF RHODE ISLAND
————
C.A. No. 15-525
————
EDWARD A. CANIGLIA,
v.

Plaintiff,

ROBERT F. STROM AS THE FINANCE DIRECTOR OF THE
CITY OF CRANSTON, THE CITY OF CRANSTON, COL.
MICHAEL J. WINQUIST, IN HIS INDIVIDUAL AND IN HIS
OFFICIAL CAPACITY AS CHIEF OF THE CRANSTON POLICE
DEPARTMENT, CAPT. RUSSELL HENRY, JR., IN HIS
INDIVIDUAL AND IN HIS OFFICIAL CAPACITY AS AN
OFFICER OF THE CRANSTON POLICE DEPARTMENT;
MAJOR ROBERT QUIRK, IN HIS INDIVIDUAL CAPACITY
AND IN HIS OFFICIAL CAPACITY AS AN OFFICER OF THE
CRANSTON POLICE DEPARTMENT, SGT. BRANDON
BARTH, IN HIS INDIVIDUAL CAPACITY AND IN HIS
OFFICIAL CAPACITY AS AN OFFICER OF THE CRANSTON
POLICE DEPARTMENT, OFFICER JOHN MASTRATI,
IN HIS INDIVIDUAL CAPACITY AND IN HIS OFFICIAL
CAPACITY AS AN OFFICER OF THE CRANSTON POLICE
DEPARTMENT, OFFICER WAYNE RUSSELL, IN HIS
INDIVIDUAL CAPACITY AND IN HIS OFFICIAL CAPACITY AS
AN OFFICER OF THE CRANSTON POLICE DEPARTMENT,
OFFICER AUSTIN SMITH, IN HIS INDIVIDUAL CAPACITY
AND IN HIS OFFICIAL CAPACITY AS AN OFFICER OF THE
CRANSTON POLICE DEPARTMENT, AND JOHN AND JANE
DOES NOS 1-10, IN THEIR INDIVIDUAL CAPACITIES AND
THEIR OFFICIAL CAPACITIES AS OFFICERS OF THE
CRANSTON POLICE DEPARTMENT,

Defendants.
————

153
Defendants Statement of Undisputed Facts
1. On August 20, 2015, Plaintiff and his wife, Kim
Caniglia (“Mrs. Caniglia”) had an argument over a
coffee mug at their residence in Cranston, Rhode Island.
Exhibit A, Kim Caniglia June 27, 2018, Deposition
Transcript at 11.
2. During the argument, Plaintiff told Mrs. Caniglia
that her “family wasn’t all that great,’ that she “liked
[her] brothers better than” Plaintiff and that she
should “go live with” them. Exhibit A at 12-13.
3. Mrs. Caniglia asked Plaintiff “what’s wrong? Why
aren’t you happy? I can’t make you happy, you have to
do that yourself. And that’s when [Plaintiff] walked
into the bedroom . . . [and] he came out with a gun,
threw it on the table, and said why don’t you just shoot
me and get me out of my misery.” Exhibit A at 16.\
4. After Plaintiff told his wife to “shoot” him, Mrs.
Caniglia asked him “[w]hat are you thinking?” Exhibit
A at 19.
5. Mrs. Caniglia told Plaintiff that she was going to
contact 911 because she wanted Plaintiff to know that
by bringing out the gun “he brought [the argument] to
a different level.” Exhibit A at 19, 23.
6. Mrs. Caniglia thought Plaintiff’s behavior was
“shocking.” Exhibit A at 19.
7. Shortly after Mrs. Caniglia informed Plaintiff
that she was going to contact 911, Plaintiff left the
residence. Mrs. Caniglia, however, did not contact 911.
Exhibit A at 19, 23.
8. After Plaintiff left the residence, Mrs. Caniglia
put the gun “between the mattress and the box spring”
in their bedroom. Exhibit A at 20.

154
9. At her deposition, Mrs. Caniglia testified that it
was at this point she discovered that the magazine was
not in the gun. She testified that she took the magazine
“out from underneath the bed and . . . hid it in a
drawer” in the bedroom. Exhibit A at 20.
10. In an affidavit executed before her deposition,
however, Mrs. Caniglia averred that, during the argument, Plaintiff brought an unloaded gun and a magazine
to her and implored her to “shoot me now and get it
over with.” Exhibit B, Affidavit of Kim Caniglia at ¶ 5.
11. Mrs. Caniglia hid the gun and the magazine
because she was worried about Plaintiff’s “state of
mind.” Exhibit A at 22.
12. Plaintiff was “depressed”, and Mrs. Caniglia
was afraid that Plaintiff “was going to do something
with the gun and the magazine” and “hurt himself’ or
“take[] his own life.” Exhibit A at 22-23; `Exhibit C,
John Mastrati May 31, 2018 Deposition Transcript at
75, 91; Exhibit D, Cranston Police Department
Incident Report at 3, 4.
13. Before Plaintiff returned to the residence, Mrs.
Caniglia thought it best to “pack a bag” and “go to a
hotel for a night.” Exhibit A at 24.
14. When Plaintiff returned to the residence, he
informed Mrs. Caniglia that the argument was “all [her]
fault . . . .” After that comment, Mrs. Caniglia left the
residence and went to the Econo Lodge on Reservoir
Avenue in Cranston. Exhibit A at 25.
15. At some point that evening, Mrs. Caniglia spoke
to Plaintiff by telephone. Plaintiff asked Mrs. Caniglia
to come home but she refused because she thought
they needed time to “chill.” Plaintiff was upset and
angry. Exhibit A at 26.

155
16. At some point the following morning, Mrs.
Caniglia contacted the CPD and “requested an officer
to do a well call.” Exhibit A at 29.
17. Mrs. Caniglia was “incredibly worried” that
Plaintiff was going to harm himself or commit suicide.
Exhibit A at 30.
18. During the telephone call to the Cumberland
Police Department (“CPD”), Mrs. Caniglia requested
an escort to her residence because she was a “little
afraid” of Plaintiff. Mrs. Caniglia also informed the CPD
that (1) she and Plaintiff had “gotten into a verbal
fight;” (2) Plaintiff took a gun and said “shoot me;”
(3) Plaintiff took the gun and magazine and threw it
on the table; (4) she spent the night in a hotel and was
now in the parking lot of Scramblers Restaurant, and
(5) she “hid the gun” and put the magazine in a drawer.
Exhibit E; CD of Digitally Recorded Telephone Call
From Kim Caniglia to Cranston Police Department
August 21, 2015.1
19. As a result of Mrs. Caniglia’s telephone call to
the CPD, Cranston Police Officers John Mastrati
(“Mastrati”), Austin Smith (“Smith”) and Sgt. Brandon
Barth (“Sgt. Barth”) were dispatched to Scrambler’s
Restaurant. Exhibit C at 65, Exhibit F, Sgt. Brandon
Barth July 19, 2018, Deposition Transcript at 29, 31.
20. At Scramblers, Mrs. Caniglia informed a CPD
officer “about the gun, about the words [Plaintiff] said
and what [she] did with the gun” and magazine.
Exhibit A at 35.
21. Mrs. Caniglia informed Officer Mastrati that
she had an argument with Plaintiff and that during
1

Defendants have filed the digital recording of the telephone
call under seal because it contains personally identifiable information.

156
the argument Plaintiff took out an unloaded firearm
and a magazine and asked Mrs. Caniglia to use it on
him. Exhibit C at 52-54, Exhibit D at 3; Exhibit F at 30.
22. Mrs. Caniglia stated that she was concerned
about what she would find when she returned home,
that she was concerned about Plaintiff’s safety; specifically informing Mastrati that she was worried about
Plaintiff committing suicide. Exhibit A at 36, Exhibit
C at 75-76; Exhibit D at 3-4; Exhibit F at 91.
23. Officer Mastrati contacted Plaintiff by telephone
from Scramblers. Plaintiff agreed to speak to Mastrati
at Plaintiff’s residence. Exhibit C at 76-77.
24. CPD officers informed Mrs. Caniglia to follow them
to the Caniglia residence but to stay in her car when
they arrived at the residence. Exhibit A at 37-38.
25. Upon arrival at the residence, Officer Mastrati
spoke to Plaintiff outside of the house, near or about
the porch/deck area of the property. Exhibit C at 7778. Sgt. Barth and Officer Smith and Officer Wayne
Russell were also on scene, in or about the same area.
Exhibit F at 35.
26. Plaintiff told Mastrati that he brought the gun
out during the argument with Mrs. Caniglia. Exhibit
C at 119-120.
27. Plaintiff “pretty much told [Mastrati] the same
story that [Mrs. Caniglia] told” him. Exhibit C at 53.
28. Plaintiff corroborated what Mrs. Caniglia had
informed Cranston Police Officers about the argument,
the gun, and that Mrs. Caniglia should shoot him.
Exhibit F at 38, 39.
29. Plaintiff admitted to Mastrati that he and Mrs.
Caniglia had had an argument over a coffee mug and
he was “sick of the arguments” and he took out his

157
unloaded handgun and told his wife to “just shoot me”
because he “couldn’t take it anymore.” Exhibit G Edward
A. Caniglia June 29, 2018 Deposition Transcript at 6768; Exhibit D at 3.
30. Plaintiff also admitted to a Kent Hospital employee
that, during the argument with Mrs. Caniglia, he
retrieved an unloaded gun and told Mrs. Caniglia that
“she should just shoot him and put him out of his
misery.” Exhibit G at 54; see also id. at 24 (admitting
he said “shoot me now and get it over with”).
31. At some point after Mrs. Caniglia arrived at the
residence, an officer approached her car and told her
she could come to the residence. Exhibit A at 39-40.
32. When she arrived at the residence, Plaintiff
asked her why she contacted the CPD. Exhibit A at 40.
33. Mrs. Caniglia informed Plaintiff that she was
worried about him. Exhibit A at 40.
34. Plaintiff was “very upset” because Mrs. Caniglia
contacted the CPD so she went back to the car. Exhibit
B at ¶ 14.
35. While at the residence, Mrs. Caniglia overheard
Plaintiff inform a CPD officer that he had an argument
with Mrs. Caniglia about a coffee mug and that he “did
bring out a gun and set in on the table and told [Mrs.
Caniglia] to just go ahead and shoot him and put him
out of his misery.” Exhibit A at 41.
36. Although Plaintiff informed Mastrati that he
was not suicidal, Mastrati was not convinced because
a “normal person would [not] take out a gun and ask
his wife to end his life . . .” Exhibit C at 82.
37. Mastrati believed that Plaintiff was a danger to
himself. Exhibit C at 106-107.

158
38. Sgt. Barth considered Plaintiff’s statement to
his wife to shoot him to be a suicidal statement.
Exhibit F at 84-85.
39. The CPD seized two guns and ammunition from
the Caniglia residence for safekeeping. Exhibit D at 2.
40. Mrs. Caniglia showed police the location of the
guns and magazines. The guns and ammunition were
seized from the bedroom and the garage. Exhibit A at
51; Exhibit D at 4.
41. Sgt. Barth made the decision to seize the guns,
however, that decision was approved by Captain Russell
Henry (“Captain Henry”). Exhibit F at 44; Exhibit H
Cpt. Russell C. Henry, Jr. June 13, 2018, Deposition
Transcript at 119.
42. Captain Henry believed that if the CPD had left
Plaintiff “there with the firearms, potentially, he’s in
danger, [Mrs. Caniglia] could be in danger, the neighbors
could be in danger, any person that comes in contact
with Mr. Caniglia could be in danger.” Exhibit H at 79.
43. Plaintiff was eventually transported to Kent
County Hospital for a medical evaluation. Exhibit G at
44; Exhibit B at ¶ 17.
44. Plaintiff was evaluated at the hospital but was
not admitted. Amended Complaint Exhibit B; Exhibit
B at ¶ 20.
45. Plaintiff was not charged with any crime with
respect to the incident. Answer to ¶ 50 of Amended
Complaint.
46. The CPD did not prevent Plaintiff from obtaining any firearms after the August 21, 2015 incident.
Answer to ¶ 47 of Amended Complaint.

159
47. On or about October 1, 2015, Plaintiff’s attorney
sent Colonel Winquist a letter requesting the return of
his guns. Answer to ¶ 41 of Amended Complaint.
48. Plaintiff’s guns were returned to him in late
December 2015. Exhibit H at 132.
49. At his deposition Plaintiff testified that he believes
that his life is “wonderful and great” and denied any
“potential thoughts of suicide in the future.” Exhibit G
at 58-59.
50. Colonel Michael Winquist and Major Robert
Quirk were not at the scene nor were they consulted
by officers at the scene. Exhibit I Colonel Michael
Winquist June 20, 2018 Deposition Transcript at 44;
Exhibit J Major Robert Quirk July 13, 2018 Deposition
Transcript at 22; Exhibit D.
Defendants,
By their attorneys,
/s/ Marc DeSisto
Marc DeSisto, Esq. (#2757)
Patrick K. Cunningham, Esq. (#4749)
DeSisto Law LLC
60 Ship Street
Providence, RI 02903
401-272-4442
marc@desistolaw.com
patrick@desistolaw.com

160
CERTIFICATION OF SERVICE
I hereby certify that the within document has been
electronically filed with the Court on this 17th day of
December 2018 and is available for viewing and
downloading from the ECF system.
Thomas W. Lyons, Esq.
tlyons@straussfactor.com
Rhiannon S. Huffman, Esq.
rhuffman@straussfactor.com
/s/ Marc DeSisto
Marc DeSisto

161
EXHIBIT A
* * *
[11] Q Were you employed in August of 2015?
A

No, I had just lost my job.

Q

What did you do before 2015?

A

I worked for Swank.

Q

In Attleboro?

A

Yeah, in Taunton for 18 years.

Q

What did you do for Swank?

A I was the financial manager, then promoted to
merchandising manager until we were bought out and
then they closed Swank.
Q

Mr. Caniglia’s lawsuit – am I saying that right?

A

Yes, the Italian way.

Q I was schooled on that, believe me. The lawsuit
is based on an August 20, 2015 incident that occurred
at your house on Cranston Street; is that correct?
A

Yes.

Q As you sit here today, do you have an independent recollection of that event?
A

Yes.

Q It is my understanding that the incident started
over an argument over a coffee mug; is that correct?
A

Yes.

Q Could you describe for me how the incident started
relative to the coffee mug?
* * *

162
[24] said, well, I’m leaving, I need to take a ride.
Q

So Ed takes a ride. What do you do next?

A I get the gun and I put it in between the mattress and the box spring. I take the magazine, I hide
it. I’m struggling with myself, do I stay, do I leave,
what do I do? I don’t know how long Ed’s going to be
gone. Is there something that I should have said, should
have done, should have – all of those things were going
through my mind. And I thought, okay, what I’ll do is
I’ll pack a bag, and I threw a couple of pair of pajamas,
underwear, deodorant, toothpaste, and I figured I would
go to a hotel for a night, but first I was going to wait
until Ed got back. I was putting together a go-bag for
better description, to see what was going to happen
when Ed got back, whether he had cooled off enough,
play it by ear.
Q Did Ed eventually come back before you left the
house?
A

Yes.

Q

And what happened when Ed came back?

A I was in the living room sitting on the couch. I
heard the truck come in. He didn’t come up for about
15 minutes, 10, 15 minutes, he was still down the stairs.
Our garage is underneath the house. Finally, he did,
and he walked into the living room, and he looked at
me [25] sitting on the couch and he said, this is all your
fault you’ve changed since your mom died. And that’s
when I decided to go to a hotel.
Q

Did you tell him you were leaving?

A

Yes.

Q

What was his response, if any?

163
A None really. Fine, if that’s what you think you
should do.
Q

What hotel did you go to?

A The Econo Lodge on Reservoir Avenue across
from Garden City.
Q I’m sorry, I’m not familiar with Cranston. How
far is that from your house?
A

A mile, mile and a half.

Q Around what time did you get to the Econo
Lodge if you remember?
A

I don’t know, 9, 10.

Q Once you get to the Econo Lodge, did you talk to
anyone or tell anyone about what had occurred
between you and Ed?
A

No.

Q

Did you speak to Ed?

A

Yes.

Q What were the circumstances of how you spoke
to Ed? Did [26] Ed call you? Did you call Ed?
A I don’t remember. I don’t remember who called
who. I remember telling him that I was fine.
Q Do you remember anything else about that
phone call besides telling him that you were fine?
A Not really. I’m sure – I believe he said that I
should come home. And I believe that I said, no, I think
it’s better that we have the time to cool – chill, I probably
said chill.
Q Do you remember his demeanor on the telephone
call? Was he upset?

164
A

Sorry?

Q

Did he seem upset to you?

A

Yes.

Q

Did he seem angry?

A

A little.

Q And you said that he, although you don’t have a
specific memory of it, that he probably said come
home?
A

Yes.

Q Do you have a memory of saying, no, I’m going
to stay here?
A

I believe I did, yes.

Q Do you remember if you spoke about anything
else?
A

That I would call him in the next day.
* * *

[29] the table and that he said just shoot me and get
me out of my misery. She said, well, you can call the
police and have a well call, and I knew what that was
in my mind. And so that’s what I did, I called the
Cranston Police Department, not 911, it was not an
emergency, and requested an officer to do a well call.
Q I’m going to roll it back a little bit. So you were
in the Scramblers parking lot which is a restaurant
somewhere near the hotel and you call your therapist?
A

Yes.

Q You tell your therapist about the incident you
had with your husband?
A

Yes.

165
Q You also inform your therapist of the incident
that your husband put the gun on the table?
A

Yes.

Q Did you tell the therapist what your husband
said?
A

Yes.

Q That he said, I don’t want to put words in your
mouth again, I apologize, why don’t you shoot me, just
put me out of my misery?
A

Yes.

Q And she suggests that you call the police for a
well call?
[30] A I probably told her that I was worried about
going home, that I was worried about what I was going
to find.
Q When you say you were worried about going
home and worried about what you were going to find,
what were you worried you were going to find?
A I was afraid that I was going to find Ed hanging
from the rafters, that’s what I was worried about.
Q You were afraid you were going to find him,
when you say “hanging from the rafters”?
A

Hanging.

Q Were you afraid that he was going to use the
gun?
A

No.

Q Why weren’t you afraid that he was going to use
the gun?
A

I don’t know.

Q

166
You were afraid he was going to commit suicide?

A

I was incredibly worried.

Q You were incredibly worried that he was going
to commit suicide or harm himself in some way; is that
correct?
A

Yes.

Q So after you have the discussion with Barbara,
you call the Cranston Police Department; is that correct?
A

Yes.

Q Do you remember what you informed the Cranston
Police Department on that telephone call?
* * *
[36] A Yes.
Q Did you ever tell them you were concerned that
your husband may have committed suicide?
A I believe what I said was that I was worried
about what I would find when I got home.
Q And did you expand or describe what you meant
when you said you were worried about what you would
find?
A I don’t remember. I don’t believe that I did. I
believe what I had said was I was afraid of what I
would find when I got home.
Q When I jumped in, I believe what you said was
at some point the officers said, okay, follow us to the
house; is that what happened?
A

Yes.

Q Could you describe to me what happened once
you left the Scramblers –

167
MR. CUNNINGHAM: Strike that.
Q Do you remember which officer said, okay, follow
us to the house?
A

No.

Q I believe what you said was you overheard the
conversation between one of the officers and your
husband?
A

Yes.

[37] Q After that officer spoke to your husband, did
he say anything to you?
A He actually – He said that your husband sounds
fine, he answered, he said that it was alright for us to
come over.
Q

What happens next?

A That’s when all of the other police cars came and
they had a conference in the parking lot. I was still in
the car. They came over to me, that’s when I called my
therapist and said––
Q

There’s a lot of cops here?

MR. LYONS: Is that yes?
A Yes.
Q Do you remember how many police officers arrived
at Scramblers Restaurant?
A

Not really. Four squad cars.

Q So four squad cars arrive, you speak to your
therapist. After you speak to your therapist what
happens?
A One of the officers, and I do not know which one,
came over to the car and said, okay, we’re going to go

168
over to your house, follow us, you’ll stay in the car, and
we’ll go talk to Ed.
Q So at this point one officer comes over to you and
says we’re going to go to the house, you follow us but
you [38] stay in the car, we’re going to go talk to your
husband?
A

Yes.

Q

So now do you follow the officer to your house?

A

Yes.

Q

And what do you do once you get to your house?

A

I stayed in the car.

Q Do you remember how long you were in the car?
A Not really. It felt like a long time. It probably
wasn’t. Maybe 15, 20 minutes.
Q

While you’re in the car, can you see your house?

A

I can see our house.

Q While you’re in your car can you see any of the
police officers?
A No, I’m on – The driveway goes here, the front
of the house, the house, and I’m on this street so I see
the bedroom windows basically.
Q

So you see a portion of your house?

A

Yeah.

Q But you don’t see any police officers from your
viewpoint while you’re in the car?
A

Not really, no.

Q

Do you see your husband while you’re in the car?

A

No.

169
Q Did you see anybody close to your house while
you’re [39] sitting in the car?
A

Like other people?

Q

Other people, yes.

A

I don’t know, didn’t pay attention.

Q Did you see any individuals or any individuals
associated with the Cranston Fire Department or rescue
from your viewpoint in the car at that time?
A

No.

Q So you’re in the car because you have been
instructed by one of the police officers, okay, we’re going
to go talk to Ed, you stay over there; right?
A

Yes.

Q You’re in the car for say anywhere between 10
and 20 minutes to the best of your recollection?
A

Yes.

Q You don’t see any police officers, you don’t see
any rescue personnel, you don’t see your husband?
A

No.

Q

You just see a portion of your house?

A Yes, and I’m parked behind a police officer. There’s
a police officer’s car across the street. There is another
one at the cross– a cross street that comes into Cranston
Street and there is another car in front of our house.
[40] Q Are there any police officers in the cars?
A

I don’t know. I don’t know if I paid attention to that.

Q

At some point in time you left your car; correct?

A A police officer came to the car and said it’s
okay, you can come up.

Q

170
What happens next?

A We walk down the driveway to the back of the
house and up to the deck and there were police officers
standing there and Ed was standing there and I
walked up the stairs and I saw Ed. And he’s like, why
did you call the police, what’s going on? And I didn’t
say anything.
Q

You didn’t respond?

A I was worried. No, I just said, I was worried, I
was worried about you.
Q And you were worried about him because you
were worried he may have committed suicide or may
have harmed himself:
A

Yes.

Q

What happens after that?

A They were talking with Ed. They were talking
with themselves. There was –– I’m sorry.
Q

It’s quite all right.

A There was – I was there. I was separated but I
was there, I was on the deck.
Q

You were on the deck?
* * *

[51] to get the guns.
Q Did you ever suggest to the police officers that
you wanted the guns out of the house?
A

No.

Q Did you ever suggest to the police officers that
you didn’t feel comfortable with the guns being in the
house?

171
A

No.

Q Do you know how the police removed the guns
from the house?
A The officer and I went into the house and he
asked me to show him where the guns were.
Q

Did you show him where the guns were?

A Yes, we walked into the bedroom and I pointed
to where we kept the gun between the mattress and
the box spring, and he asked me if I would get it out,
and I did. I gave the gun to the officer. And I went to
the dresser drawer where I put the magazine, and I
got that out and gave it to him. He said, Ed said he
had another gun, do you know where that is? And I
said, yes. And he said, will you show me? I said, it’s
down in the garage. I brought him down into the
garage. The gun was hidden in a sock hanging from a
nail behind the pegboard and I could not reach that, so
I told him where it was and he got it and got it out of
the sock, and the magazine to that gun was
* * *

172
EXHIBIT B
UNITED STATES DISTRICT COURT
DISTRICT OF RHODE ISLAND
————
C.A. No.
————
EDWARD A. CANIGLIA,
v.

Plaintiff,

ROBERT F. STROM AS THE FINANCE DIRECTOR OF THE
CITY OF CRANSTON, THE CITY OF CRANSTON, AND
COL. MICHAEL J. WINQUIST IN HIS OFFICIAL CAPACITY
AS CHIEF OF THE CRANSTON POLICE DEPARTMENT,
Defendants.
————
AFFIDAVIT OF KIM CANIGLIA
Kim Caniglia, being duly sworn, says:
1. I am 58 years old. I have been married to Edward
A. Caniglia (“Ed”) since 1993. We live in Cranston, Rhode
Island.
2. My father was a police officer for the City of Chicago.
3. I have been around handguns since I was a child.
I have fired handguns at shooting ranges.
4. Ed has kept two handguns in our house for protection. One handgun was kept tinder our bed. The
other handgun was kept in our garage.
5. On August 20, 2015, Ed and I had an argument
in our house about a broken coffee cup. During the
argument, he brought the unloaded handgun from
under the bed, and a bullet magazine to the kitchen,

173
put them on a counter separately and said “shoot me
now and get it over with.” Ed then left the house.
6. While Ed was gone, I put the gun back under the
bed and hid the Magazine.
7. Ed came back to the house and we argued some
more. I left and went to a hotel for the night. However,
at no time did I feel I was in danger.
8. The next morning, while eating breakfast at a
restaurant, I tried calling Ed’s cell phone. He did not
answer. I became concerned for his well-being.
9. I called the Cranston Police Department’s regular
phone number from the restaurant parking lot and
asked that a police officer accompany me to the hot to
check on Ed.
10. A Cranston police officer came to the restaurant.
I explained the situation to him in the parking lot
Then, three more squad cars of Cranston police officers
arrived.
11. The first Cranston police officer called Ed’s cell
phone with the number I gave him. I could hear him
laugh during the phone conversation. He then told me
he had spoken to Ed and Ed was “fine.”
12. The police officers then told me that they were
going to go to the house to check on Ed. They told me
to follow them but not to go into the house until they
had gone in and spoken to Ed.
13. I parked my car near my house. The Cranston
police officers blocked part of the street in front of our
house with their cars. They went into the house.
14. A few minutes later, one of the police officers
came out and told me I could come into the house.

174
However, Ed was very upset with me for calling the
police so I went back to my car.
15. I saw a Cranston rescue arrive, Ed got into the
rescue and left.
16. One of the Cranston police officers then told me
I could come into the house.
17. One of the Cranston police officers told me that
Ed had gone to Kent Hospital for a psychiatric evaluation. They said Ed had given them permission to take
his guns for safekeeping. They asked me to show them
where the guns were.
18. I showed the officers where the guns were,
including the magazine I had hidden, and his ammunition, all of which they took.
19. I asked when we could get the guns back. One of
the officers said that after Ed was evaluated, I could
go down to the police station and they would release
the guns.
20. I then went to Kent Hospital to wait for Ed to be
released. I spoke with a nurse/doctor about the circumstances while I was there. Ed was released that day
and he drove us home,
21. On August 24, 2015, I called the Cranston Police
Department and left a message that I wanted to come
in to pick up the gums, I did not receive a return call.
I then Went to the Cranston Police Department headquarters to obtain the guns,
22. After I waited for four hours, a police officer
gave me the number for the incident report and said I
could get the incident report from a window at the
Police Department.

175
23. I then went to that window and requested the
report and the guns. I was told that I would have to
return for the report and that the guns would not be
released that day. I was told the Cranston Police Department had a procedure to return the guns and the matter
was with the Captain” who would decide on the request.
24. I subsequently received a phone message that I
could pick up the incident report in a few days.
25. On September 1 or 2, 2015, I returned to the
Cranston Police headquarters and obtained a copy of
the incident report.
/s/ Kim Caniglia
Kim Caniglia
Subscribed and sworn to before me this 17 day of
December, 2015.
/s/ Marion Sipka
Marion Sipka
Notary Public
My commission expires: 11-10-2016

176
EXHIBIT C
Officer John Mastrati - May 31, 2018
* * *
[52] A. No.
Q. We’re going to look at your incident report in a
second. What I want you to do now is just describe for
me what you remember about the incident without
having looked at the incident report.
A. All right. 1 know it was an early morning call,
the calling party was his wife. I met her, not at their
residence, but off of Reservoir Ave. She stated to me
that last night she was in an argument with her husband. During the argument he pulled out a firearm,
which was unloaded at the time, I believe he had the
firearm and the magazine separate in both hands – in
each hand. She stated that once that displayed, she
was going to call 911. That’s when he put the firearm
and magazine down on the counter, she left – he left,
went outside, she hid the gun and the magazine. He
came back in. I believe there was another argument in
which she stated she left, she stayed the night elsewhere. She then called – he called her some time that
night asking her to come back, or they were trying to
resolve the issue. She said no. I think that was the end
of the phone call. She didn’t hear from him after that.
Then [53] I believe that she called us to meet her to go
back to the house because she was unsure what she
was going to walk into.
I think at that time due to the nature of the call with
a firearm being involved, I talked to him on the phone
and had him come outside the residence, asked him if
he would come out to speak to me. He said he would.
Once I got to the scene with other officers, I spoke with

177
Edward, and Edward pretty much told me the same
story that Kim told me that happened.
From there I asked him if he would speak to the
rescue personnel. He said he would.
Rescue personnel came on scene, they spoke together
in private, and then rescue informed me they would be
transporting him to the hospital for an evaluation, or
to talk to someone.
After that, Kim – I had Kim come back to the house
where she was waiting down the street, and she
pointed out where the firearms were, and the firearm
was exactly where she hid it, and then she informed
me about another firearm that was out in the garage
that she didn’t want in the house.
Q. Did you seize the firearms?
A.

Yes.

[54] Q. All right. Who made the decision to seize the
firearms?
A.

Captain Henry.

Q. Captain Henry was your supervisor?
A.

He was the day shift commander, yes.

Q. Did Captain Henry come to the scene, or did you
talk to him on the phone?
A.

I believe it was on the phone.

Q. Did you talk to – when Mr. Caniglia had his
firearm and the magazine out, it’s your recollection that
he had them in separate – in two separate hands, the
magazine was in one hand, and the gun was in the other?
A. Yeah, I believe that’s what Kim told me.
Q. Okay. And Kim is his wife?

178
A.

Yes.

Q. Okay. I just want to make sure we’re clear about
that.
A.

Yes. Yes.

Q. Did Mr. Caniglia, to your knowledge, make any
threat to use the firearm on himself?
A. I don’t recall exactly. I believe he asked – I think
he asked Kim to use it on him. I would have to look at
my report for what she said.
Q. And we will certainly do that, so I just want to
* * *
[65] A. Beat 11, it would be the beat assignment, the
area.
Q. Okay. And then underneath location type, it
says at Scramblers, what does that mean?
A. Initially it was at Scrambler’s, that’s where I
met the reporting party, Kim, and then I continued to
2300 Cranston Street, which was their house.
Q. Underneath that it says mental health issues?
A.

Yes.

Q. What does that mean?
A. That’s what I label it as because what the call
was about. So something brief, so I put that this has to
do with mental health.
Q. Are there specific categories that you pick from?
A.

Yes.

Q. Okay. So mental health issues is like a drop down?
A. Yeah, it would be pertaining to mental health.

179
Q. Then there’s another category on the next page
which says persons, and there appears to be a listing
of information for Mrs. Caniglia; is that right?
A.

Yes.
* * *

[76] Edward had committed suicide.” Is that a correct
reading of the sentence?
A.

Yes.

Q. Does that refresh your recollection as to whether
Mrs. Caniglia had any concerns about her own safety?
MR. CUNNINGHAM: Objection.
A. At that point when I first met her, what she told
me, no.
Q. Then you called – you took the phone number
for Mr. Caniglia?
A.

Yes.

Q. And you called him?
A.

Yes.

Q. And did you use your own phone to call him?
A. I believe I did.
Q. Okay. And you asked if he was at home?
A.

Yes.

Q. He said he was?
A.

Yes.

Q. And you asked if you went by the house would
he come outside?
A.

Yes.

180
Q. And he said that he would be home, and he was
willing to talk to you?
[77] A. Yes.
Q. Okay. When you talked to him on the phone, do
you recall if anything else was said besides what is set
forth in that paragraph?
A. I don’t believe about the incident. I think I just
wanted to get him to come outside to talk to me when
I came there, so that was my main concern at that
point.
Q. Okay. It says Officer Russell, Officer Smith,
Sergeant Barth and I responded to 2300 Cranston Street.
A.

Yes.

Q. What is Officer Russell’s first name?
A. Wayne.
Q. Officer Smith?
A.

Austin.

Q. And Officer Barth?
A. Brendan.
Q. And Mr. Edward came out – Mr. Caniglia came
outside?
A. Yes. When I arrived, yes.
Q. Do you recall where you spoke to him?
A. I believe it was on his front porch. He had a
wraparound deck, I believe.
Q. Was he outside when you got there, or did he
come [78] outside after you arrived?
A. I believe he was outside when I got there, or
when I got there, I talked to him again to have him

181
come outside. Because, for my safety, I wouldn’t approach
the house knowing there was a firearm involved.
Q. Do you recall whether he was already outside
when you got there, or whether he came outside after
you got there?
A. I don’t recall.
Q. Okay. Was it in the front yard or the backyard
that you talked to him?
A. I believe it was the front side, like where his
driveway was.
Q. It was on the deck?
A. On the deck, I believe, yes.
Q. And then you had a discussion with him about
what had happened?
A.

Yes.

Q. Were any of the other officers present for that
discussion with Mr. Caniglia?
A. I don’t know. Maybe standing next to me. I
couldn’t tell you.
Q. Do you know if any of them were not standing
next to you?
* * *
[81] distinction I’m making?
A. I do.
Q. So, what I’m going to try and find out is whether
or not in fact this does remind you, and you say, oh, it
comes back to me, so to speak, or you simply say I don’t
remember it now, but that’s what I put in the report?
A. Okay.

182
Q. So, do you actually remember Edward saying he
was not suicidal?
A. I do.
Q. Okay. What was he like when he said that?
MR. CUNNINGHAM: Objection.
A. Again, he was calm, stating why – I believe I
said why do you want to commit suicide, and pretty
much he was telling me that, convinced me he’s not
suicidal.
Q. Did he convince you he was not suicidal?
A.

No.

Q. Why not?
A. Just from his actions of taking out a weapon.
For me, I can’t determine if someone is not suicidal. To
me, I felt that he was a risk to himself.
Q. And you said based on the fact that he took out
* * *
[91] out to me by Kim.
Q. And you refer to the second firearm and you
said, which was also confiscated; do you see that?
A.

Yes.

Q. What do you mean by confiscated?
A.

Confiscated as in taken.

Q. If you go down to the last sentence in the narrative, it actually says, “Nothing further to report.”
A.

Yes.

Q. Why do you put that there?

183
A. Showing that I’m ending my narrative. So nothing
else to follow.
Q. Is that your standard practice that you put that
at the end?
A.

Yes.

Q. The sentence above that, can you read that,
please?
A. “It should be noted that in further speaking
with Kim she stated that she was not in fear for her
life from Edward but was more worried about Edward
taking his own life.”
Q. And was that accurate when you wrote that?
A.

Yes.

Q. Okay. Does that refresh your recollection as to
* * *
[106] voluntary or involuntary?
A. I would imagine it would be voluntary because
rescue personnel can’t hold someone against their own
will. They would request us to assist them if that was
the case, which they did not.
Q. That’s your assumption?
A. No, that’s what they would do. They won’t
physically force somebody to go. If there was ever an
incident where someone needed to go and they were
uncooperative, then they would call us.
Q. Have you ever talked anybody into going to the
hospital?
MR. CUNNINGHAM: Objection.
A.

No.

184
Q. Were any other police officers near the rescue
when the rescue personnel talked to Mr. Caniglia?
A. I wouldn’t know. I believe I was talking to Kim
at that time away from the scene.
Q. Besides the fact that Mr. Caniglia had put the
firearm and the magazine on the counter in front of his
wife the previous evening, are you aware of any other
information which indicated to you that he might be
suicidal?
A.

No.

Q. Was Mr. Caniglia in clear and imminent danger
of [107] causing personal harm to himself?
A.

Yes.

Q. What do you base that on?
A. I base that off his statements and presenting a
firearm.
Q. Are you aware of whether any Rhode Island
statute in effect at the time addressed the situations
under which a person can be compelled to go to a
hospital or mental health facility?
A.

No.

Q. Are you aware of whether or not, for example, a
court order may be required?
A.

No.

Q. Has that been any part of your training at
either the Cranston Police Department or at the
training academy?
A. I don’t think so.
Q. Okay. If you go down to the last section on that
page which has the letter V, and it says training?

185
A.

Yes.

Q. It says, “Cranston Police Department will
provide entry-level personnel with training on this
subject and will provide refresher training at least
every three years.” Do you see that?
A.

Yes.
* * *

[119] A. He did.
Q. The next bullet point says, “Allow yourself and
the individual an escape route, if appropriate, appropriate for safety and to induce anxiety.” Do you see that?
A. I do.
Q. When you spoke with Mr. Caniglia, did you feel
the need to allow him an escape route? A. No.
Q. Did you feel the need to allow yourself an escape
route?
A. No. The only thing I was worried about is the
firearm that he had, that’s why I called him outside. I
wouldn’t talk to him in his house.
Q. He did not bring the firearm out with him?
A. He was instructed to come out without a firearm
on the phone.
Q. Did he indicate he would have brought the
firearm out if you hadn’t said so?
A.

No.

Q. Did he say he even knew where the firearm was?
A.

No.

Q. Did he say anything about the firearm when
you talked to him on the phone?

186
A. I can’t remember if it was on the phone, he [120]
admitted to having the firearm and bringing the firearm out. I’m just not sure if that was on the phone or
when I spoke to him in person, or both.
Q. When you said he admitted to bringing the
firearm –
A. Presenting the firearm during the argument.
Q. The previous night?
A.

Yes.

Q. And then the last bullet point says, “Be
prepared to repeat questions and commands without
showing frustration.” Do you see that?
A. I do.
Q. Did you have to repeat any questions or
commands to Mr. Caniglia?
A.

No.

Q. Do you have any knowledge of any
presentations on mental illness that may have been
given to the Cranston police in 2008?
A.

No.

Q. I believe I asked you earlier if you had any
knowledge of any state statutes dealing with mental
health?
A. You did.
Q. Your answer was no; is that correct?
A.

Yes.
* * *

187
EXHIBIT E
Defendants have filed Exhibit E, a compact disc
containing a digital recording of Mrs. Caniglia’s
August 21, 2015, telephone call to the Cranston Police,
under seal.

188
EXHIBIT F
Sergeant Brandon Barth - July 19, 2018
* * *
[29] A. I don’t know.
Q. Was he a felon or a fugitive from justice?
A. I would say no because that probably would
have came up at the time.
Q. Okay. Was Mr. Caniglia an unnaturalized, foreignborn citizen?
A. I don’t know.
Q. Are you aware of any legal reason why Mr.
Caniglia cannot possess firearms?
A.

No.

Q. Why don’t we start with why don’t you just
generally tell me what you remember, as you sit here
today, about what happened back in August of 2015.
A. I was – it was a day shift call, so I was working
day shift as a patrol supervisor. I don’t recall if I was
called to the scene or if I just showed up there, but there
was officers meeting with a subject at the Scramblers
Restaurant which is on Reservoir Avenue.
Once I arrived on scene there, they advised me that
they were speaking with Mrs. – is it Caniglia? Is that
the correct pronunciation?
Q. Yes.
[30] A. With Mrs. Caniglia with regards to an
incident that she had had with her husband the night
prior. They advised me that there was a verbal – she
advised them that her and her husband had a verbal
altercation at their residence on Cranston Street in

189
Cranston. And during the course of this verbal argument, she stated her husband produced a firearm and
either slid it across the table at her and said something
to the effect of, “why don’t you use this on me” or I don’t
remember the exact verbiage that she used.
Mrs. Caniglia stated that she then left the residence
and stayed at a hotel for the night, and she was
concerned and scared to go back to her house because
she wasn’t sure what state her husband was in so she
contacted us.
Q. Okay.
A. Once I was advised of the situation, we made
the decision that we were going to respond to the
residence on Cranston Street. We advised Mrs. Caniglia
to follow us there but not respond to the house, to stay
in her vehicle slightly down the street where we could
speak to her if we needed to, but, again, we weren’t
sure of the [31] state that Mr. Caniglia was in. She had
concerns that he might have done harm to himself and
wasn’t sure what type of situation we’d be walking into.
Q. Okay. All right. Let me stop you there. Did you
talk to Mrs. Caniglia directly at Scramblers?
A. I believe I did. I don’t remember the exact
conversations or if I was told by the officers on scene,
but I remember being at Scramblers with them and
her, but the exact conversation that I may have had
with her I don’t recall.
Q. Okay. Do you recall who the other officers were?
A. I believe it was Officer Mastrati and Officer
Smith, I believe.
Q. Okay. And do you know whether one of them or
both of them had spoken with Mrs. Caniglia at
Scramblers?

190
A. At least one of them had. I believe it was Officer
Smith that had given me the information that he had
spoke to her and I may have asked her some other
qualifying questions just to kind of corroborate, but,
again, I don’t recall exactly if it was Officer Mastrati
or Mr. Smith (sic).
Q. Okay. Do you know if there were any other police
officers who came to Scramblers?
* * *
[35] it was the front door or the main door that the
Caniglias used was off of that porch on the left side of
the house if I’m looking directly at it, I believe.
Q. Okay. So what happened generally when you
went to the house?
A. We responded to the house and at some point
we made contact with Mr. Caniglia. I don’t recall if we
ever entered the house at that time. I do remember
officers speaking with Mr. Caniglia on the porch outside
of the house.
Q. Okay. Do you recall where Mr. Caniglia was
when you arrived at the house?
A. He was inside the house, I believe, but I don’t
know where inside the house he was. Again, I don’t –
I can’t remember if we actually entered the house or
if he came to the door or if he was outside, but the
majority of the interaction with Mr. Caniglia was outside on the porch.
Q. On the porch. Okay. And which officers were on
the porch with Mr. Caniglia?
A. From what I remember, Officer Mastrati and
Officer Smith and Officer Russell was there as well
and myself.

191
* * *
[38] yourself, said to Mr. Caniglia?
A. Specific, no, but we asked him his version of
events that happened the night before, you know.
Obviously, we’d go there and advise him of why we
were there, why we’re speaking to him.
Q. Okay.
A. Again, specific sentences I said I don’t recall,
but –
Q. Okay. Do you recall what Mr. Caniglia said?
A. From what I remember, he corroborated what
Mr. Caniglia – or Mrs. Caniglia had stated about the
verbal arguments and the firearm in question.
Q. Okay. Did anyone ask Mr. Caniglia if he was
suicidal?
A. I don’t know if that exact verbiage was used,
suicidal, but through the course of a call like that we
would ask him, you know, “do you want to do harm to
yourself, what is your” – again, I’m pretty sure none of
those officers or myself are medical professionals, so
just trying to, maybe, get a piece that somebody says
that they’re not in the right frame of mind and they
may want to do harm to themselves or thought about
it, so just kind of looking for that red flag.
Q. Did Mr. Caniglia indicate that he wanted to do
[39] harm to himself?
A. I believe, yes, that he corroborated what Mrs.
Caniglia had said, that he made that statement to her.
Q. Okay. You interpreted the statement of him
pushing the gun towards Mrs. Caniglia and saying

192
“why don’t you shoot me” as indicating he wanted to
do harm to himself?
A. Yes. Not – again, it’s not harm to himself, but
here’s a person who obviously is not in his right frame
of mind. And a reasonable person would not, in the
course of an argument in my experience, slide a firearm
over to his wife and say “why don’t you go ahead and,
you know, use it on me” or something to that effect. So
in my experience, this is a person that needs medical
attention and may need to seek it out or I need to get
him to medical attention.
Q. Do you know if the firearm was loaded?
A. I don’t know.
Q. Did Mr. Caniglia ever indicate that he was
considering using a firearm on himself?
A. I don’t recall.
Q. Did Mr. Caniglia ever say he was considering
using a firearm on someone else?
* * *
[44] A. I don’t recall what he said. I know generally
there was a lot of pushback from him that he did not
want to go on those terms.
Q. Okay. Was there any discussion with him while
he was still at the house about taking or seizing his
firearms?
A. I don’t recall any firearm discussion at the scene
while Mr. Caniglia was there.
Q. All right. At some point in time, a decision was
made to seize his firearms?
A. There was a point in time after we were able to
talk Mr. Caniglia onto the rescue, the ambulance, and

193
he was going to go to the hospital, the decision was
made that we would take possession of the firearms in
the house.
Q. Okay. Who made the decision to take possession
of the firearms?
A. Ultimately, it was my decision. But at some
point, I believe I called Captain Henry either on the
phone or the radio. I think he may have responded to
the scene and said – it was more just to run it up the
chain of command that this is what I’m going to do. I
just want to let you know as the division commander
that that’s what we’re going to do.
* * *
[84] MR. CUNNINGHAM: Objection.
A. I don’t recall the exact conversation back and
forth. I just remember that there was a lot of trepidation with him. And there – like I referenced earlier,
when I was training there are instances where if a
person is refusing to go to the hospital that, if there’s
no other alternative, they’re physically detained and
taken to the hospital that way.
As the police department would much rather not
deal with it that way, so ultimately spoke with him
and he decided to go in the rescue. But the exact conversation back and forth, what was said to ultimately
that he consented to go into the rescue, I don’t recall.
Q. (By Mr. Lyons) This response refers to Mr.
Caniglia making suicidal statements. Do you see that?
A.

Yes.

Q. All right. And you’ve previously identified the
comment he made the night before to his wife where
he put the gun down and said, essentially, in words or

194
substance, “why don’t you shoot me now.” Is that what
you considered to be the suicidal statement?
[85] A. Yes.
Q. Were there any other statements Mr. Caniglia
made that you considered suicidal?
A. Not that I recall.
Q. And why did you consider that statement to be
suicidal?
A. Try to put myself or any other reasonable person
into a certain incident that I’m at, a call that I’m on in
this type of case, I don’t believe any reasonable person
in their right frame of mind would make a statement
likes that.
Everybody argues with their spouse. It happens.
But to rise it to the level of producing a firearm. And
even if someone’s trying for, you know, an effect in that
case, that’s not a reasonable thing to do. So in my
mind, that said that he wasn’t in his right frame of
mind and it’s possible that he wanted to do harm to
himself, that he needed to get to a medical professional
and I needed to get him there.
Q. Have you had any training or read any materials
that indicated to you that that statement was suicidal?
A.

Specifically, I can’t recall. I would more
* * *

[91] A. Oh, I apologize.
Q. – the second full sentence says, “Based on my
recollection, when I spoke with Kim Caniglia at
Scramblers, she informed me that she was concerned
about the safety of her husband and less concerned
about her own safety.” Do you see that?

195
A.

Yes.

Q. Do you remember Mrs. Caniglia saying that?
A.

Yes.

Q. Okay. Do you remember Mrs. Caniglia ever
saying that she was concerned about her own safety?
A. Not verbally, no.
Q. Okay. Can you go to Interrogatory Number 23,
which is on Page 10, and read the interrogatory and
your response.
(Witness complied.)
A. Okay.
Q. (By Mr. Lyons) About two-thirds of the way
through your response, there’s a sentence which says,
quote, “based on my recollection, the plaintiff did not
want the officers to take his guns,” end quote. Do you
see that?
A.

Yes.

Q. Do you recall Mr. Caniglia objecting to the
* * *

196
EXHIBIT G
Edward A. Caniglia - June 29, 2018
* * *
[24] MR. LYONS: Yes.
MS. MURPHY: I’ll be very specific.
I apologize.
Q. With respect to statement Number 5, the second
sentence, “During the argument, he brought the unloaded
handgun from under the bed and a bullet magazine. .”
A.`No.
Q. “. .to the kitchen.”
A. The bullet magazine never left its place under
the bed.
Q. So, again, just to confirm, you don’t agree with
your with wife’s statement?
A. There was also a statement – and, no, I don’t
agree with that.
MS. MURPHY: Okay.
MR. LYONS: And just to be clear, the part of
Paragraph 5 you don’t agree with is the part about the
bullet magazine?
THE DEPONENT: Yes.
MR. LYONS: Okay.
Q. And just to confirm, but you agree with the
clause “shoot me now,” that you said, “shoot me now
and get it over with”?
A.

Yes.
* * *

197
[44] PT – patient – at a gun and told his wife to shoot
him, police recovered gun, PT – meaning patient – stated
he was not looking to hurt himself. This happened last
night. Wife called today. Wife leaving him, stated for
her to shoot him again. PT – indicating patient – calm,
did not deny altercation, psych eval. I’m going to focus
on the last sentence that I’ve read. It says: Patient
calm, did not deny altercation, psych eval.
Today as I read this out loud, does it refresh your
recollection as to the statement that I just read, did
not deny altercation? Do you recall having any kind of
conversation with the rescue?
A. I had no conversation with the fire rescue
people, other than he spoke to one of the officers. He
got into the back of the wagon. I was sitting on the
rescue cart. He said, “How are you feeling?” I said,
“Fine.” He said, “Okay. We’re going to go to Kent
County Hospital.” I said, “Fine.” And that was it.
Q. Okay.
A. He said – he may have said, “Do you have any
obvious health problems?” And I said, “Just high blood
pressure,” or something like that.
* * *
[54] arguing recently. She has been in tx – I’ll represent to you that that means treatment – for psych
issues related to loss of her mother about a year ago,
and last night they got into an argument about a
minor issue. He became increasingly frustrated about
this and eventually went and got his unloaded gun and
made a comment to his wife, and that she should just
shoot him and put him out of his misery.

198
Do you believe that information to be accurate about
what you communicated to the employee at Kent
Hospital that is referring to me?
A.

Yes.

Q. Okay. And I know that you had earlier mentioned
the part that says and had some tequila then – and
then went to bed, you don’t believe that that’s accurate?
A.

No.

Q. Okay. Now, I’d like to direct your attention to –
it’s Bates stamped 29. It is the second to last page of
that package. And I’m not going to have to make you
read the whole page, but I’d like to direct your attention
to the second paragraph, the third to last sentence
starting with States that he made an appointment
with his PCP for a full workup. And then I’ll just read
it out loud to you. And just follow
* * *
[68] stated that he is going through a divorce and is
just sick of the arguments, and at the time he took out
his handgun and the magazine in the other hand,
which was unloaded at the time. And he asked Kim to
just end his life because he couldn’t take it any more.
Edward then stated that she stated that she was going
to call 911, and that’s when he placed the firearm
down on the counter and he left for one hour.
A. No. He stated – I have never used the word
“divorce” and my wife at any time. We have never said
the word “divorce” to each other during our entire
marriage.
Q. And when you stated we never stated divorce, is
it conversations that you had between you and your
wife?

199
A. Yes. I’ve never said “divorce” to the officer. I
never said “divorce” to my wife. I’ve said “divorce” to
no one.
Q. Okay. And I just want to go into a little bit more
detail. When you said – when it says “he took out his
handgun,” where was your handgun at the time?
A.

Under the bed.

Q. Under the bed. Did you go to the bed and go
under the bed and then go to the counter and place it
on the counter?
A. Never went to the counter. It was on the dining
[69] room table.
Q. Oh, dining room table?
A. Which is one step from the bedroom.
Q. Okay.
A.

The magazine was never with the pistol.

Q. Is it fair to the say, though, that you had to go
to –
A. I never asked her –
Q. Oh, sorry. I ask that I have the opportunity, if
your –
MR. LYONS: He didn’t finish his answer.
MS. MURPHY: Yes, exactly. I just wanted to let you
know.
MR. LYONS: Okay.
Q. If you want to continue your answer, just let me
know.

200
A. I never asked her to end my life as it says.I said,
“Just shoot me.” The quote was, quote, “Just shoot
me,” end quote.
Q. All right. Now I want to go to page 2 of the
Incident Report. And it indicates, you know, a category
that says Other Properties.
MR. LYONS: She means this one, this page.
MS. MURPHY: Okay. I apologize. Didn’t
* * *

201
EXHIBIT H
Cpt. Russell C. Henry, Jr. - June 13, 2018
* * *
[79] dangerous?
A. Well, I think you’re applying the standard of
imminently dangerous from the policy to a situation.
So I think an officer – so in this instance, my thought
process was how intrusive are the steps that we’re
taking versus the potential consequences if we don’t.
If we don’t take action – this man already put a gun on
the table, asked his wife to use it on him to kill him.
Based on – he was upset, was emotionally disturbed
over their marriage being ending. She left for the
night. She was afraid that he had killed himself,
apparently, because she hadn’t heard from him, that’s
why she called us. That’s why the officers went to the
house, to check on his well-being.
So my thought process was, okay, he has firearms,
if we leave him there with the firearms, potentially
he’s in danger, she could be in danger, the neighbors
could be in danger, any person that comes in contact
with Mr. Caniglia could be in danger. It could be
another police officer.
Q. Do you know whether Mr. Caniglia had ever
threatened to use the firearm on himself?
* *
[119] A.

Yes.

Q. And it says, “He requested,” does that mean
that you requested that the officers on the scene seize
the firearms?
A.

Yes.

202
Q. Do you recall separate from what is set forth in
this incident report, the reasons why you requested
seizure of the firearms?
A.

No.

Q. Do you recall whether – let me back up. Do you
know whether the firearms belonged to Mr. Caniglia –
let me withdraw the question. Is it your understanding
the firearms belonged to Mr. Caniglia?
A. I believe so.
Q. Okay. And did you know that in 2015 when you
made the request to seize them?
A.

That would make sense.

Q. Do you know if Mr. Caniglia gave permission for
the seizure of the firearms?
A. I don’t know.
Q. All right. Do you know if Mrs. Caniglia, Kim,
gave permission for seizure of the firearms?
A. I believe that was part of the information
relayed to me.
* * *
[132] Q. Okay. And then above it, there is an entry
which says, “Captain’s signature authorizing the
release of firearms,” with a date of 12-22-15; do you see
that?
A.

Yes.

Q. And the handwritten note says per Captain
Winquist, something for release clearance?
A. “Okay to release. Clearance paperwork from
Kent Hospital received.”
Q. Do you recognize the signature there?

203
A. Looks like Captain Guilbeault.
MR. LYONS: I’m going to show you an incident
report from a different incident around the same time,
we’ll mark this as Exhibit 26.
EXHIBIT 26 (PLAINTIFF’S EXHIBIT 26 MARKED
FOR IDENTIFICATION)
Q. This is an incident report dated August 27, 2015
which is approximately six days after this incident.
And just so you know, part of the reason this came to
my attention was I believe it’s your son who is involved,
which I did not realize at the time that it was a different Officer Henry. There’s a reference to an Officer
Henry. At first I thought it was you, but it may be your
son. But in any event, can you take a
* * *

204
UNITED STATES DISTRICT COURT
DISTRICT OF RHODE ISLAND
————
C.A. No. 15-525
————
EDWARD A. CANIGLIA,
Plaintiff
v.
ROBERT F. STROM as the Finance Director of
THE CITY OF CRANSTON, et al.
Defendants
————
PLAINTIFF’S STATEMENT OF DISPUTED
AND UNDISPUTED FACTS
Pursuant to LR. 56, Plaintiff’ hereby responds to
Defendants’ Statement of Undisputed Facts as
follows:
1. On August 20, 2015, Plaintiff and his wife, Kim
Caniglia (“Mrs. Caniglia”) had an argument over a coffee mug at their residence in Cranston, Rhode Island.
Exhibit A, Kim Caniglia June 27, 2018, Deposition
Transcript at 11.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment.
2. During the argument, Plaintiff told Mrs.
Caniglia that her “family wasn’t all that great,’ that
she “liked [her] brothers better than” Plaintiff and that
she should “go live with” them. Exhibit A at 12-13.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment.

205
3. Mrs. Caniglia asked Plaintiff “what’s wrong?
Why aren’t you happy? I can’t make you happy, you
have to do that yourself. And that’s when [Plaintiff]
walked into the bedroom . . . [and] he came out with a
gun, threw it on the table, and said why don’t you just
shoot me and get me out of my misery.” Exhibit A at 16.
RESPONSE: Not disputed that, as a dramatic gesture, Plaintiff brought out an unloaded gun and threw
it on the table, and made the comment. (SUF 59).
4. After Plaintiff told his wife to “shoot” him, Mrs.
Caniglia asked him “[w]hat are you thinking?” Exhibit
A at 19.
RESPONSE: Not disputed that, as a dramatic gesture, Plaintiff brought out an unloaded gun and threw
it on the table, and the Caniglias made those
comments. (SUF 59).
5. Mrs. Caniglia told Plaintiff that she was going
to contact 911 because she wanted Plaintiff to know
that by bringing out the gun “he brought [the argument] to a different level.” Exhibit A at 19, 23.
RESPONSE: Disputed that Mrs. Caniglia told Mr.
Caniglia “he brought it to a different level.” It is not
disputed that that was Mrs. Caniglia’s perspective.
6. Mrs. Caniglia thought Plaintiff’s behavior was
“shocking.” Exhibit A at 19.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment.
7. Shortly after Mrs. Caniglia informed Plaintiff
that she was going to contact 911, Plaintiff left the residence. Mrs. Caniglia, however, did not contact 911.
Exhibit A at 19, 23.

206
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment.
8. After Plaintiff left the residence, Mrs. Caniglia
put the gun “between the mattress and the box spring”
in their bedroom. Exhibit A at 20.
RESPONSE: Not disputed that Mrs. Caniglia put
the gun back between the mattress and box spring
which was where Mr. Caniglia kept it. (SUF 58).
9. At her deposition, Mrs. Caniglia testified that it
was at this point she discovered that the magazine was
not in the gun. She testified that she took the magazine “out from underneath the bed and . . . hid it in a
drawer” in the bedroom. Exhibit A at 20.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment.
10. In an affidavit executed before her deposition,
however, Mrs. Caniglia averred that, during the argument, Plaintiff brought an unloaded gun and a magazine to her and implored her to “shoot me now and get
it over with.” Exhibit B, Affidavit of Kim Caniglia at ¶ 5.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment except
that the affidavit does not state that Plaintiff
“implored” her. The affidavit speaks for itself.
11. Mrs. Caniglia hid the gun and the magazine
because she was worried about Plaintiff’s “state of
mind.” Exhibit A at 22.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment.
12. Plaintiff was “depressed”, and Mrs. Caniglia
was afraid that Plaintiff “was going to do something
with the gun and the magazine” and “hurt himself” or

207
“take[] his own life.” Exhibit A at 22-23; ‘Exhibit C,
John Mastrati May 31, 2018 Deposition Transcript at
75, 91; Exhibit D, Cranston Police Department
Incident Report at 3, 4.
RESPONSE: Plaintiff denies that Mrs. Caniglia told
Officer Mastrati or any police officer that she was
afraid that Plaintiff would harm himself or others with
the handgun. To the contrary, the Incident Report
states that Mrs. Caniglia made clear that she did not
fear for her own safety. (SUF 118). Moreover, she testified at her deposition that she was not concerned
that Mr. Caniglia would use the gun to commit suicide.
(SUF 63). Finally, Plaintiff disputes that he was
“depressed.” (SUF 72). To the contrary, Plaintiff was
subsequently diagnosed with lung cancer and was
informed by his physician that some symptoms of lung
cancer mimic depression. (Kim Caniglia’s deposition
pp. 72-73, excerpts attached as Exhibit 1).
13. Before Plaintiff returned to the residence, Mrs.
Caniglia thought it best to “pack a bag” and “go to a
hotel for a night.” Exhibit A at 24.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment.
14. When Plaintiff returned to the residence, he
informed Mrs. Caniglia that the argument was “all
[her] fault . . . .” After that comment, Mrs. Caniglia left
the residence and went to the Econo Lodge on
Reservoir Avenue in Cranston. Exhibit A at 25.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment.
15. At some point that evening, Mrs. Caniglia
spoke to Plaintiff by telephone. Plaintiff asked Mrs.
Caniglia to come home but she refused because she

208
thought they needed time to “chill.” Plaintiff was upset
and angry. Exhibit A at 26.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment.
16. At some point the following morning, Mrs.
Caniglia contacted the CPD and “requested an officer
to do a well call.” Exhibit A at 29.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment.
17. Mrs. Caniglia was “incredibly worried” that
Plaintiff was going to harm himself or commit suicide.
Exhibit A at 30.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment.
18. During the telephone call to the Cumberland
Police Department (“CPD”), Mrs. Caniglia requested
an escort to her residence because she was a “little
afraid” of Plaintiff. Mrs. Caniglia also informed the
CPD that (1) she and Plaintiff had “gotten into a verbal fight;” (2) Plaintiff took a gun and said “shoot me;”
(3) Plaintiff took the gun and magazine and threw it
on the table; (4) she spent the night in a hotel and was
now in the parking lot of Scramblers Restaurant, and
(5) she “hid the gun” and put the magazine in a
drawer. Exhibit E; CD of Digitally Recorded
Telephone Call From Kim Caniglia to Cranston Police
Department August 21, 2015.1
RESPONSE: Denied that Mrs. Caniglia was afraid
of Mr. Caniglia. To the contrary, as reflected in the
1

Defendants have filed the digital recording of the telephone
call under seal because it contains personally identifiable
information.

209
Incident Report, she told Officer Mastrati, that she did
not fear for her own safety. (SUF 118). She testified
the same at her deposition. (SUF 118).
19. As a result of Mrs. Caniglia’s telephone call to
the CPD, Cranston Police Officers John Mastrati
(“Mastrati”), Austin Smith (“Smith”) and Sgt. Brandon
Barth (“Sgt. Barth”) were dispatched to Scrambler’s
Restaurant. Exhibit C at 65, Exhibit F, Sgt. Brandon
Barth July 19, 2018, Deposition Transcript at 29, 31.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment, except
that CPD Officer Russell also responded. (SUF 68).
20. At Scramblers, Mrs. Caniglia informed a CPD
officer “about the gun, about the words [Plaintiff] said
and what [she] did with the gun” and magazine.
Exhibit A at 35.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment.
21. Mrs. Caniglia informed Officer Mastrati that
she had an argument with Plaintiff and that during
the argument Plaintiff took out an unloaded firearm
and a magazine and asked Mrs. Caniglia to use it on
him. Exhibit C at 52-54, Exhibit D at 3; Exhibit F at
30. RESPONSE: Disputed. Mrs. Caniglia told the
Cranston police officer that her husband took out an
unloaded handgun and said “just shoot me know and
get it over with.” (SUF 58-59).
22. Mrs. Caniglia stated that she was concerned
about what she would find when she returned home,
that she was concerned about Plaintiff’s safety; specifically informing Mastrati that she was worried about
Plaintiff committing suicide. Exhibit A at 36, Exhibit
C at 75-76; Exhibit D at 3-4; Exhibit F at 91.

210
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment.
23. Officer Mastrati contacted Plaintiff by telephone from Scramblers. Plaintiff agreed to speak to
Mastrati at Plaintiff’s residence. Exhibit C at 76-77.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment, except
that Officer Mastrati told Mrs. Caniglia that Mr.
Caniglia sounded fine. (SUF 66-67).
24. CPD officers informed Mrs. Caniglia to follow
them to the Caniglia residence but to stay in her car
when they arrived at the residence. Exhibit A at 37-38.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment, except
that Officer Mastrati told Mrs. Caniglia that Plaintiff
was “fine.” (SUF 67).
25. Upon arrival at the residence, Officer Mastrati
spoke to Plaintiff outside of the house, near or about
the porch/deck area of the property. Exhibit C at 7778. Sgt. Barth and Officer Smith and Officer Wayne
Russell were also on scene, in or about the same area.
Exhibit F at 35.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment.
26. Plaintiff told Mastrati that he brought the gun
out during the argument with Mrs. Caniglia. Exhibit
C at 119-120.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment.
27. Plaintiff “pretty much told [Mastrati] the same
story that [Mrs. Caniglia] told” him. Exhibit C at 53.

211
RESPONSE: Disputed. Officer Mastrati testified
that the Incident Report sets forth “everything” that
both Caniglias told him. (Mastrati depo. p. 57, excerpt
attached as Exhibit 2). The Caniglias dispute much
that is set forth in the Incident Report. (E. Caniglia
depo., pp. 63-66, 82-83, excerpts attached as Exhibit 3;
Exhibit 1 at pp. 56-58).
28. Plaintiff corroborated what Mrs. Caniglia had
informed Cranston Police Officers about the argument, the gun, and that Mrs. Caniglia should shoot
him. Exhibit F at 38, 39.
RESPONSE: Disputed. Plaintiff was not asked to
corroborate what Mrs. Caniglia may have said. To the
contrary, he told CPD officers that he was not suicidal
or depressed. (SUF 70-72, 80). Moreover, he did not
actually ask his wife to end his life. (Exhibit 3 at p. 69).
29. Plaintiff admitted to Mastrati that he and Mrs.
Caniglia had had an argument over a coffee mug and
he was “sick of the arguments” and he took out his
unloaded handgun and told his wife to “just shoot me”
because he “couldn’t take it anymore.” Exhibit G
Edward A. Caniglia June 29, 2018 Deposition
Transcript at 67-68; Exhibit D at 3.
RESPONSE: Admitted that Plaintiff and his wife
had an argument over a coffee mug, that Plaintiff said
he was “sick of the arguments,” that he took out his
unloaded handgun, and said to his wife “just shoot
me.” (Exhibit 3 at pp. 67-69).
30. Plaintiff also admitted to a Kent Hospital
employee that, during the argument with Mrs.
Caniglia, he retrieved an unloaded gun and told Mrs.
Caniglia that “she should just shoot him and put him
out of his misery.” Exhibit G at 54; see also id. at 24

212
(admitting he said “shoot me now and get it over
with”).
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment.
31. At some point after Mrs. Caniglia arrived at
the residence, an officer approached her car and told
her she could come to the residence. Exhibit A at 39-40.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment.
32. When she arrived at the residence, Plaintiff
asked her why she contacted the CPD. Exhibit A at 40.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment.
33. Mrs. Caniglia informed Plaintiff that she was
worried about him. Exhibit A at 40.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment.
34. Plaintiff was “very upset” because Mrs.
Caniglia contacted the CPD so she went back to the
car. Exhibit B at ¶ 14.
RESPONSE: Disputed. Plaintiff admits that he was
“at a loss” that his wife called the CPD. (Exhibit 3 at
pp. 49-50).
35. While at the residence, Mrs. Caniglia overheard Plaintiff inform a CPD officer that he had an
argument with Mrs. Caniglia about a coffee mug and
that he “did bring out a gun and set in on the table and
told [Mrs. Caniglia] to just go ahead and shoot him and
put him out of his misery.” Exhibit A at 41.

213
RESPONSE: Not disputed that Mrs. Caniglia so testified, however, both Caniglia’s knew at that time that
the handgun was unloaded. (SUF 59).
36. Although Plaintiff informed Mastrati that he
was not suicidal, Mastrati was not convinced because
a “normal person would [not] take out a gun and ask
his wife to end his life . . .” Exhibit C at 82.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment, that
Mastrati so testified. Plaintiff disputes that Mastrati
could reasonably have concluded he was suicidal.
(SUF 28, 31, 74, 93, 136).
37. Mastrati believed that Plaintiff was a danger
to himself. Exhibit C at 106-107.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment, that
Mastrati so testified. Plaintiff disputes that Mastrati
could reasonably have believed that Plaintiff was a
danger to himself. (SUF 28, 31, 74, 93, 136).
38. Sgt. Barth considered Plaintiff’s statement to
his wife to shoot him to be a suicidal statement.
Exhibit F at 84-85.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment that
Sgt. Barth so testified. Plaintiff disputes that Barth
could reasonably have believed that Plaintiff was suicidal. (SUF 28, 31, 74, 93, 136).
39. The CPD seized two guns and ammunition
from the Caniglia residence for safekeeping. Exhibit D
at 2.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment.

214
40. Mrs. Caniglia showed police the location of the
guns and magazines. The guns and ammunition were
seized from the bedroom and the garage. Exhibit A at
51; Exhibit D at 4.
RESPONSE: Not disputed that Mrs. Caniglia
showed the police the locations of the guns and magazines, after Defendants told her that Plaintiff had
authorized the seizure, which statement was false.
(SUF 84, 85, 111, 113).
41. Sgt. Barth made the decision to seize the guns,
however, that decision was approved by Captain
Russell Henry (“Captain Henry”). Exhibit F at 44;
Exhibit H Cpt. Russell C. Henry, Jr. June 13, 2018,
Deposition Transcript at 119.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment.
42. Captain Henry believed that if the CPD had
left Plaintiff “there with the firearms, potentially, he’s
in danger, [Mrs. Caniglia] could be in danger, the
neighbors could be in danger, any person that comes
in contact with Mr. Caniglia could be in danger.”
Exhibit H at 79.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment that
Capt. Henry so testified. Plaintiff disputes that Capt.
Henry could reasonably have believed Plaintiff was a
danger to himself or to Mrs. Caniglia or to any other
person. (SUF 28, 31, 74, 93, 136).
43. Plaintiff was eventually transported to Kent
County Hospital for a medical evaluation. Exhibit G at
44; Exhibit B at ¶ 17.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment.

215
44. Plaintiff was evaluated at the hospital but was
not admitted. Amended Complaint Exhibit B; Exhibit
B at ¶ 20.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment.
45. Plaintiff was not charged with any crime with
respect to the incident. Answer to ¶ 50 of Amended
Complaint.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment.
46. The CPD did not prevent Plaintiff from obtaining any firearms after the August 21, 2015 incident.
Answer to ¶ 47 of Amended Complaint.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment.
47. On or about October 1, 2015, Plaintiff’s attorney sent Colonel Winquist a letter requesting the
return of his guns. Answer to ¶ 41 of Amended
Complaint.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment.
48. Plaintiff’s guns were returned to him in late
December 2015. Exhibit H at 132.
RESPONSE: Not disputed that Plaintiff’s guns were
returned to him in late December 2015, after Defendants had rejected several attempts to obtain a return
of the firearms and after Plaintiff filed this lawsuit.
(SUF 122-126, 128-129, 133-134).
49. At his deposition Plaintiff testified that he
believes that his life is “wonderful and great” and
denied any “potential thoughts of suicide in the
future.” Exhibit G at 58-59.

216
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment.
50. Colonel Michael Winquist and Major Robert
Quirk were not at the scene nor were they consulted
by officers at the scene. Exhibit I Colonel Michael
Winquist June 20, 2018 Deposition Transcript at 44;
Exhibit J Major Robert Quirk July 13, 2018 Deposition
Transcript at 22; Exhibit D.
RESPONSE: Not disputed for purposes of the
Parties’ Cross Motions for Summary Judgment.
Plaintiff also adopts his Statement of Undisputed
Facts (Doc. 44) as a Statement of Additional Undisputed Facts.
EDWARD CANIGLIA
By his attorneys,
/s/ Thomas W. Lyons
Thomas W. Lyons #2946
Rhiannon S. Huffman #8642
RHODE ISLAND AFFILIATE,
AMERICAN CIVIL LIBERTIES UNION
Strauss, Factor, Laing & Lyons
One Davol Square, Suite 305
Providence, RI 02903
(401) 456-0700
tlyons@straussfactor.com
CERTIFICATION
I hereby certify that on January 30, 2019, a copy of
the foregoing was filed and served electronically on all
registered CM/ECF users through the Court’s electronic filing system. Parties may access this filing
through the Court’s CM/ECF system.
/s/ Thomas W. Lyons

217
[1] UNITED STATES DISTRICT COURT
DISTRICT OF RHODE ISLAND
————
C.A. No. 15-525-M-LDA
————
EDWARD A. CANIGLIA
v
ROBERT F. STROM, as the Finance Director of the
CITY OF CRANSTON, et al
————
DEPOSITION
DEPOSITION of Kim Caniglia, taken in the aboveentitled cause on behalf of the Defendants, pursuant
to notice, before Brenda A. Scharver, Notary Public in
and for the State of Rhode Island, at the offices of
DeSisto Law, 60 Ship Street, Providence, Rhode Island
on June 27, 2018 scheduled for 10:00 a.m.
APPEARANCES:
FOR THE DEFENDANT:
DeSISTO LAW
BY: PATRICK K. CUNNINGHAM, ESQ.
FOR THE PLAINTIFF:
THOMAS W. LYONS, III, ESQ.
* * *
[58] Q Can I have you look at the third paragraph
on the first page. The first full sentence states, “Kim
stated that when they argued over the coffee mug, he
went to the bedroom and grabbed the firearm which
was unloaded and had the magazine in the other hand

218
and stated to Kim to end his life”; does that refresh
your recollection about the magazine?
A No.
Q

It does not?

A I remember the gun.
Q

You don’t remember the magazine?

A I do not.
MR. CUNNINGHAM: Can we go off the record.
(off the record conversation had)
MR. CUNNINGHAM: I’m going to introduce this.
Brenda could you mark that.
(WHEREUPON; medical records from Kent
County Hospital marked Defendant’s Exhibit B for
Identification)
Q Mrs. Caniglia, I’m going to hand you what has
been marked as Defendant’s Exhibit B, and I will
represent to you that is what Mr. Lyons turned over to
us as the medical records from Kent Hospital with
regard to the incident on August 20th and 21st.
A Yes.
* * *

219
In The Matter Of: Caniglia vs Strom, et al
Edward A. Caniglia
June 29, 2018
ALLIED COURT REPORTERS, INC.
AND VIDEO CONFERENCE CENTERS
* * *
[49] insignificant argument with her last night over a
coffee mug. Wife left for the night and returned this
morning. States that he placed the gun on the table,
and had removed the magazine prior to this. Admitted
that he made the statement but denied feeling suicidal
or homicidal before, during, or after this incident.” Do
you believe that information’s accurate?
A. Except for the part she opened our conversation
with, “Are you the man who beat his wife?” Those were
the first words out of his mouth.
Q.

Whose mouth?

A.

The social worker’s.

Q. And this was regards to your visit on August
21st, —
A.

Yes.

Q. — 2015?
A.

Yes.

Q. Okay. Now, and that, you said that was at the
start of the conversation?
A.
me.

That is how she started the conversation with

Q. Now, I’d like to just focus on one particular
statement that is included in here. “Patient reported

220
that he felt at a loss that his wife called the Police.” Do
you recall reporting that to the social worker?
[50] A.

Yes.

Q. And what did you mean when you said you felt
at a loss that your wife called the police?
A.

‘Cause it wasn’t that big an incident.

Q. Now, I’d like to direct your attention to — and
there aren’t page numbers in here, so I’d like you to
look at the top left corner. These are Bates stamps,
which Bates stamps are documentation that are helpful for attorneys to identify particular pages or particular parts of the document. It says C00012.
A.

Yes.

Q. So I’d like to direct your attention to the bottom
paragraph, the category or the subject line says Basic
Information. And specifically what I’m looking at is
Additional Information. I want you to have the opportunity just to review that paragraph before I ask you
a question.
A.

Arrivals — “Arrival mode” —

MR. LYONS: Yes. No, no, no, no.
MS. MURPHY:

Oh.

MR. LYONS: I’m just pointing out to you. She just
wants you to read the part —
THE DEPONENT:

Okay.

MR. LYONS: — that says Additional Information.
Think what he’s pointing to is the
* * *
[66] Q.
A.

Okay.

That’s about it.

221
Q. Now I’d like to move forward to conversations
on scene. And you indicated to me that there’s more
details as to the conversations with the officers on
scene. Can you explain to me what those details are?
A. The officers stated to me that how they handle
these situations was that if I submitted to a psych
evaluation that morning at Kent County Hospital, my
firearms would not be removed from the house.
Q. And when you said officers, who are the particular officers?
A. Mastrati and the gentleman in the white shirt.
The two younger officers said nothing during these
entire conversations.
Q. And you earlier described when we had this
conversation earlier in the deposition about your conversations with the officers on scene when they
arrived, you mentioned that Kim Caniglia was not on
scene at that time; is that fair to say?
A. She was not at the scene. She was not at the
house.
Q.

She was not at the house?

A. She was across the street in her car on a side
street.
* * *
[82] MR. LYONS:
hides things.

I think he said where she always

Q.

Where she always hides things?

A.

Yes.

MS. MURPHY: Okay. Let me just take a moment
just to look over this real quick to see if I have any
additional.

222
MR. LYONS: I have a couple of questions.
MS. MURPHY:

Okay.

MR. LYONS: So why don’t you let me ask my
questions.
MS. MURPHY:

Okay. Sounds good.

MR. LYONS: And then you can figure out if you
have any more.
EXAMINATION BY MR. LYONS
Q. Mr. Caniglia, when you brought the gun out
from under the bed, you said you did not bring the
magazine?
A.

Correct.

Q.

Was the gun loaded at all?

A.

No.

Q. Okay. The police Incident Report, the narrative
says that you said you were getting a divorce. Just to
be clear, did you ever tell the police —
A.

No.

Q.

— that you were going through a divorce?

[83] A.

No.

Q. The Incident Report on the second page of the
narrative says, quote: I asked Edward to get checked
out by rescue and to talk to someone at the hospital
which he willingly agreed to. Do you see that?
A.

Yes.

Q. Is that correct? Did you willingly agree to get
checked out at the hospital?
A. I agreed to go to the hospital to prevent the confiscation of my weapons.

223
Q. Okay. Would you have agreed to go to the hospital if your weapons weren’t going to be confiscated?
A.

No.

(Discussion off the record)
Q. Did you incur any bills as a result of this
incident?
A.

Yes.

Q.

What bills?

A. The rescue squad paid for that. I had to pay copayment for the time spent at Kent County Hospital.
That’s it.
Q.

Do you recall about how much those bills were?

A.

About a thousand dollars or so.

Q. And then I know you can’t read it, the Cranston
— so I’ll read it to you. The Cranston Fire Department
report, the narrative, it says: Wife leaving him,
* * *

224
UNITED STATES DISTRICT COURT
DISTRICT OF RHODE ISLAND
————
C.A. No. 15-525
————
EDWARD A. CANIGLIA,
Plaintiff
v.
ROBERT F. STROM as the Finance Director of
THE CITY OF CRANSTON, et al.
Defendants
————
PLAINTIFF’S STATEMENT OF
ADDITIONAL UNDISPUTED FACTS
Pursuant to LR 56, in response to Defendants’ Statement of Undisputed Facts, Plaintiff designates the following as additional undisputed facts. For ease of reference, Plaintiff will number them from the next number of the Undisputed Facts he set forth in support of
his Motion for Partial Summary Judgment:
147. Sgt. Brandon Barth was the senior CPD
officer present at Plaintiff’s house on August 21, 2015.
(Barth depo. p. 36, excerpts attached as Exhibit FF).
148. Sgt. Barth heard about the “Community Care
Doctrine” when he prepared for his deposition in this
case. (Id. at p. 9).
149. Sgt. Barth read about the “Community Care
Doctrine” on Wikipedia in preparation for his deposition. (Id. at pp. 9-12).

225
150. Sgt. Brandon Barth does not know whether
he heard about the “Community Care Doctrine” before
2015. (Id. at p. 11).
151. Sgt. Barth has no knowledge that the CPD
has any written material about the “Community Care
Doctrine.” (Id. at p. 10)
152. Sgt. Barth does not recall having any classes
or receiving any materials concerning the Community
Care Doctrine.” (Id. at p. 11).
153. Sgt. Barth does not recall having any prior
education or training on the issue of dealing with public safety outside the criminal context. (Id. at p. 12-13).
154. Sgt. Barth said the Cranston Rescue does not
do any mental evaluations on any patients. “They just
transport those patients to the hospital.” (Id. at p. 46).
155. Sgt. Barth did not recall whether the CPD
had any written policy or procedure for determining
when it will seek a mental evaluation of a person. (Id.
at p. 47).
156. Sgt. Barth does not know the specifics of the
CPD’s policy. “[I] was probably more going on my
experience up until that point...” (Id. at p. 47).
157. Sgt. Barth has required people to go for mental evaluations “[m]ore times than [he] can count.”
(Id.)
158. Sgt. Barth did not consult any specific psychological or psychiatric criteria before deciding to sent
Mr. Caniglia for a psychological evaluation. (Id. at pp.
51-52).
159. Sgt. Barth did not consult with any medical
professional before deciding to sent Mr. Caniglia for a
psychological evaluation. (Id. at p. 52).

226
160. Sgt. Barth bases his authority to send someone for a psychological evaluation on the Community
Care Doctrine. (Id. at p. 79).
161. Sgt. Barth said that Mr. Caniglia was transported for an “involuntary emergency psychiatric evaluation” under GO 320.09. (Id. at p. 101).
162. Sgt. Barth said he determined that Mr.
Caniglia was imminently dangerous to himself or others. (Id. p. 102-03). Sgt. Barth understands “imminent” to mean “immediately.” (Id. at p. 103).
163. Sgt. Barth has attended CPD training on
dealing with people with mental health issues. (Id. at
p. 105). He does not remember any of that training.
(Id. at pp. 106-09).
164. Of the various suicide risk factors in his training, the only ones that Sgt. Barth considered were that
Mr. Caniglia had a gun and he had supposedly said
“he wanted harm done to himself.” (Id. at pp. 111-118).
165. Sgt. Barth is not aware of any Rhode Island
decision on the community caretaking function that
authorizes police to seize firearms from a person’s residence without a court order. (Id. at p. 121).
166. Sgt. Barth is not aware of any Rhode Island
decision on the community caretaking function that
authorizes police to require someone to have a psychiatric evaluation without a court order. (Id. at p. 121).

227
EDWARD CANIGLIA
By his attorneys,
/s/ Thomas W. Lyons
Thomas W. Lyons #2946
Rhiannon S. Huffman #8642
RHODE ISLAND AFFILIATE,
AMERICAN CIVIL LIBERTIES UNION
Strauss, Factor, Laing & Lyons
One Davol Square, Suite 305
Providence, RI 02903
(401) 456-0700
tlyons@straussfactor.com
CERTIFICATION
I hereby certify that on January 30, 2019, a copy of
the foregoing was filed and served electronically on all
registered CM/ECF users through the Court’s
electronic filing system. Parties may access this filing
through the Court’s CM/ECF system.
/s/ Thomas W. Lyons

228
In The Matter Of: Caniglia vs Strom, et al
Sergeant Brandon Barth
July 19, 2018
ALLIED COURT REPORTERS, INC.
AND VIDEO CONFERENCE CENTERS
* * *
{112] about all three pages.
A.

Okay.

Q. If you want to look at them all together now,
please go and do so, but we’re going to go through and
talk about all three. Okay?
The page that says “Suicide Risk Assessment,” the
first bullet point is gender. Do you see that?
A.

Yes.

Q. Did you use that to make an assessment of
whether Mr. Caniglia was suicidal?
A. I mean, the term “assessment,” I would say no
because I’m looking at it as a — kind of a totality when
they use that term “assessment,” so I would say, no, I
didn’t use that. Wouldn’t matter either way if he was
a male or female.
Q. Did you use any of the factors so forth on this
page as bullet points in your decision-making with
respect to Mr. Caniglia?
A. No, I wasn’t looking at his risk at that point.
The statement, in my opinion, was enough that he
needed to seek medical attention.
Q. Okay. If you go to the next page which is
warning signs of suicide, did you use any of these
warning signs in your assessment of Mr.
* * *

229
UNITED STATES DISTRICT COURT
DISTRICT OF RHODE ISLAND
————
C.A. No. 15-525
————
EDWARD A. CANIGLIA,
Plaintiff,
v.
ROBERT F. STROM as the Finance Director of the
CITY OF CRANSTON, THE CITY OF CRANSTON, COL.
MICHAEL J. WINQUIST, in his individual and in his
official capacity as Chief of the CRANSTON POLICE
DEPARTMENT, CAPT. RUSSELL HENRY, JR., in his
individual and in his official capacity as an officer
of the CRANSTON POLICE DEPARTMENT; MAJOR
ROBERT QUIRK, in his individual capacity and in
his official capacity as an officer of the CRANSTON
POLICE DEPARTMENT, SGT. BRANDON BARTH, in his
individual capacity and in his official capacity as
an officer of the CRANSTON POLICE DEPARTMENT,
OFFICER JOHN MASTRATI, in his individual capacity
and in his official capacity as an officer of the
CRANSTON POLICE DEPARTMENT, OFFICER WAYNE
RUSSELL, in his individual capacity and in his
official capacity as an officer of the CRANSTON
POLICE DEPARTMENT, OFFICER AUSTIN SMITH,
in his individual capacity and in his official capacity
as an officer of the CRANSTON POLICE DEPARTMENT,
and JOHN and JANE DOES NOS 1-10, in their
individual capacities and their official capacities as
officers of the CRANSTON POLICE DEPARTMENT,
Defendants.
————

230
Defendants Statement of
(Additional) Undisputed Facts
51. When she called the Cranston Police Department, Mrs. Caniglia believes that she informed the
Cranston Police Department that she and Mr.
Caniglia had had an argument and that Mr. Caniglia
had been depressed. Exhibit K; June 27, 2018 Deposition Transcript of Kim Caniglia at 31-32.
52. Mrs. Caniglia hid the magazine because Plaintiff was depressed. Id. at 22.
53. Mrs. Caniglia hoped that Plaintiff could get
some help at the hospital. Id. at 63. She was concerned
about Plaintiff’s depression. Id.
54. Mrs. Caniglia did not know why she was not
worried that Plaintiff would use the gun on himself.
Id. at 30.
55. Officer Mastrati testified that, as a police
officer, he has the legal authority to seize a weapon
from an individual who he thought was suicidal.
Exhibit L; May 31, 2018 Deposition Transcript of John
Mastrati at 27. Under these circumstances, he would
notify a supervisor and the supervisor would make the
decision. Id. He was aware of this as a result of training. Id. at 27, 36-37. Seizing the weapons would be for
the safety of the person and the public. Id. at 36-37, 38
56. Officer Mastrati believed that Plaintiff was in
a clear and imminent danger of harming himself as a
result of the statements he made to his wife and the
presentation of a firearm. Id. at 107.
57. Officer Smith testified that the Cranston Police
Department can seize a firearm for safekeeping in
non-criminal situations where a supervisor makes a
decision that an individual who has a firearm may

231
cause harm to himself or a member of the public.
Exhibit M; June 1, 2018 Deposition Transcript of
Austin Smith at 34.
58. Officer Barth was familiar with the Community Caretaking Doctrine. Exhibit N; July 19, 2018
Deposition Transcript of Brandon Barth at 9. Officer
Barth testified that the Community Caretaking Doctrine involved the “rights of police officers when it
comes to public safety.” Id. at 12. He practices this type
of public safety daily. Id.
59. Officer Barth is not sure if the specific term
“Community Caretaking” was ever used in training or
whether it was on a particular policy. He was, however, familiar with the theory behind the doctrine in
so far as it concerns public safety and police acting in
non-criminal situations. Id. at 12, 79.
60. Officer Barth testified that police officers need
to maintain public safety “whether it’s an individual
who wants to do harm to themselves or do harm to others” and it’s not a criminal matter and “it’s up to the
police department to maintain safety and order of the
public.” Id. at 12. Moreover, he noted that “sometimes
there could be exceptions to search and seizure rules
[with respect to] maintaining public safety.” Id. at 15.
61. Officer Barth testified that Plaintiff was
“upset” and “agitated.” Id. at 86, 124.
62. Officer Barth considered the totality of the circumstances in dealing with the situation, including,
but not limited to, (1) Mrs. Caniglia decided to leave
the residence, (2) Mrs. Caniglia wanted a police escort
back to her house; (3) Mr. Caniglia had corroborated
what Mrs. Caniglia had informed the Cranston Police;
(4) the fact that Mr. Caniglia brandished a gun and
asked Mrs. Caniglia to shoot him; (5) Mr. Caniglia was

232
agitated and upset. Id. at 41, 56, 82-83, 86-89, 102,
124.
63. Captain Henry is aware of the Community
Caretaking Doctrine and hears about it periodically.
His understanding of the Doctrine is that “courts recognize that law enforcement needs to take certain
actions relative to the Fourth Amendment without a
warrant that pertains to public safety functions or
emergencies.” Exhibit O; June 13, 2018, Deposition
Transcript of Russell Henry at 24, 26.
64. Captain Henry testified that Courts recognize
that the police may take “reasonable action to prevent
[a] person from killing themselves. A person has a firearm that’s thinking of harming themselves or others,
I think the courts recognize police have to take whatever action is necessary to prevent that.” Id. at 25.
65. Captain Henry testified that he believes the
Community Caretaking Doctrine is synonymous with
public safety. Id. at 26.
66. Captain Henry may have learned about the
Community Caretaking Doctrine in formal education
or from materials he has read. Id. at 26. He tries to
keep current on the topic by reading current court
cases. Id.
67. Captain Henry testified that although the specific phrase “Community Caretaking” may not have
come up in training – the theory of community caretaking may have been discussed in training even
though the particular phrase was not used. Id. at 31.
68. Captain Henry testified that the mental health
training that Cranston Police Officers receive encompassed the concept of the Community Caretaking
Doctrine. Id. at 35.

233
69. Captain Henry testified that Cranston Police
have also been trained on the Community Caretaking
Doctrine related to exceptions to the Search Warrant
Requirement. Id. at 94-95.
70. An individual associated with the Cranston
Rescue informed Plaintiff that they were “going to
Kent Hospital” and Plaintiff replied “[f]ine.” Exhibit P,
June 29, 2018 Deposition Transcript of Edward
Caniglia at 44.
71. Officers Russell, Smith, Barth, Henry, and
Mastrati are not involved in the return of seized property. Exhibit N at 58; Exhibit O at 58-59, 63; Exhibit
M at 57; Exhibit L at 100; Exhibit Q; Office Wayne
Russell’s Answer to Plaintiff’s Interrogatory 7.
Defendants,
By their attorneys,
/s/ Marc DeSisto
Marc DeSisto, Esq. (#2757)
Patrick K. Cunningham, Esq. (#4749)
DeSisto Law LLC
60 Ship Street
Providence, RI 02903
401-272-4442
marc@desistolaw.com
patrick@desistolaw.com

234
CERTIFICATION OF SERVICE
I hereby certify that the within document has been
electronically filed with the Court on this 30th day of
January, 2019 and is available for viewing and downloading from the ECF system.
Thomas W. Lyons, Esq.
tlyons@straussfactor.com
Rhiannon S. Huffman, Esq.
rhuffman@straussfactor.com
/s/ Marc DeSisto
Marc DeSisto

235
Exhibit K
Deposition Transcript of Kim Caniglia
June 27, 2018
————
[1] UNITED STATES DISTRICT COURT
DISTRICT OF RHODE ISLAND
————
C.A. No. 15-525-M-LDA
————
EDWARD A. CANIGLIA
v
ROBERT F. STROM, as the Finance Director of the
CITY OF CRANSTON, et al
————
DEPOSITION
DEPOSITION of Kim Caniglia, taken in the aboveentitled cause on behalf of the Defendants, pursuant
to notice, before Brenda A. Scharver, Notary Public in
and for the State of Rhode Island, at the offices of
DeSisto Law, 60 Ship Street, Providence, Rhode Island
on June 27, 2018 scheduled for 10:00 a.m.
APPEARANCES:
FOR THE DEFENDANT:
DeSISTO LAW
BY: PATRICK K. CUNNINGHAM, ESQ.
FOR THE PLAINTIFF:
THOMAS W. LYONS, III, ESQ.

236
[31] A Not verbatim.
Q. What do you remember concerning what you
said on that telephone call?
A. That I would like to have an officer come with
me to my house to check on my husband, I was worried
about him. I may have said that we had an argument
the night before and that he has been depressed. I
don’t remember word for word.
Q. So you requested some sort of escort from where
you were to your house?
A.

Yes.

Q. You also informed officers that your husband
may have been depressed?
A.

Yes, only I think they asked me why.

Q.

Did you inform the officer of the gun incident?

A.

On the phone?

Q.

Yes.

A.

I don’t know. I don’t remember.

Q. So you don’t remember if you told the officer
about the gun incident or the words your husband
used?
A.

No, I don’t remember. I don’t remember.

MR. LYONS:
phone call?

So far we’re just talking about the

MR. CUNNINGHAM: Phone call, yes, just the [32]
phone call.
Q. On the phone call did you inform the Cranston
police officer that you were afraid of your husband?
A.

No.

Q.

237
You don’t remember saying that?

A. I don’t remember saying that. I was afraid for
my husband.
Q. But you don’t remember saying you were afraid
of your husband?
A.

No.

Q. So as we sit here today, again I don’t want to
put words in your mouth, but from what I’m understanding there are two things that you remember
about the phone call, that you requested an escort to
the house and that you informed the police department that your husband was depressed?
A. I don’t remember the exact words, but I believe
they asked me why, and I had told them that he was
depressed, I was worried for him, I was worried about
what I would find.
Q. When you say worried about what you would
find, did you express that to the police officer?
A.

Yes, I was worried about Ed.

Q. And again, when you say you were worried
about what you
* * *
[63] nine lines down and go to the middle of the paragraph where it states, “wife shared that her hope was
that her husband could get some help here in the ER”;
do you see that?
A.

Yes.

Q.

Do you remember sharing that concern or hope?

A.

It was taken out of context.

Q.

What was taken out of context?

238
A.

This statement.

Q. Let me start with this: Did you make the statement that you hoped that your husband could get some
help in the ER or something similar to that statement?
A.

Yes.

Q. You just expressed to me that it was taken out
of context. Could you explain to me how it was taken
out of context, how you believe it was taken out of
context?
A. Because prior to that I had told her that he was
not happy, he was in a depression and I didn’t know
why and I didn’t know how to help him and I hoped
that he could get help in the ER.
Q.

So you were concerned about his depression?

A. Yes. There was something wrong with my
husband.
Q. And you hoped that he could get some type of
help for that while he was in the hospital?
* * *

239
Exhibit N
Deposition Transcript of Sergeant Brandon Barth
July 19, 2018
————
[1] UNITED STATES DISTRICT
COURT DISTRICT OF RHODE ISLAND
————
C.A. No. 15-525
————
EDWARD A. CANIGLIA,
vs.
ROBERT F. STROM as the Finance Director of
THE CITY OF CRANSTON, et al.,
————
DEPOSITION OF SERGEANT BRANDON BARTH,
a witness in the above-entitled cause, taken on behalf
of the Plaintiff, before Devin J. Baccari, CSR, at the
Law Office of Strauss, Factor, Laing & Lyons, One
Davol Square, Suite 305, Providence, Rhode Island, on
July 19, 2018, scheduled at 10:00 a.m.
PRESENT:
FOR THE PLAINTIFF:
STRAUSS, FACTOR, LAING & LYONS
BY: THOMAS W. LYONS, ESQUIRE
RHIANNON S. HUFFMAN, ESQUIRE
FOR THE DEFENDANTS:
DESISTO LAW LLC
BY: PATRICK K. CUNNINGHAM, ESQUIRE

240
[41] taking the totality of the situation, you know,
again, here’s a wife that decided to stay at a hotel
because she was concerned of what her husband may
do. So wasn’t hysterics, but, you know, there was definitely concern for the fact that she called the police
and wouldn’t go back to her house without us.
Q. Okay. Did she indicate to you whether she
wanted all four police officers to go to the house?
A. I don’t think she indicated that. That was what
the response was going to be regardless just based on
what she had told us about the incident prior.
Q. So even if Mrs. Caniglia had indicated, for
example, that she only wanted one police officer to go
with her to the house, would you still have responded
the same way?
A.

Yes.

Q. Okay. How was Mr. Caniglia’s emotional state
when you spoke with him?
A. I’d say aggravated. He wasn’t happy that we
were there based on the incident prior to that, so —
but, otherwise, he wasn’t, you know, overly angry or
hysterical or anything like that. There was definitely
annoyance, some trepidation about
* * *
[56] A. I’m sure he did when I spoke with him
either in person or on the phone, but the exact questions that he asked me I’m not sure of.
Q. Does the Cranston Police Department use written forms to obtain consent to do searches?
A.

Sometimes, yes.

Q.

Okay. Did you use a written form in this case?

241
A.

No.

Q.

Why not?

A. Because of the totality of the circumstances,
that Mr. Caniglia had corroborated what Mrs.
Caniglia had said. Even with his misgivings about
going to the hospital, we felt that Mr. Caniglia was a
harm to himself in the least and possibly a harm to his
wife until he sought medical help.
And not being a medical professional, I don’t know
how long that takes, so we didn’t seek that. We just
took possession of the firearms at that point.
Q. Okay. Do you recall where the firearms were
located?
A. I believe there were two firearms that were
taken from the home. The first one, I don’t recall where
that one was located. The second
* * *
[83] concerned that she stayed at a hotel that night.
That kind of added to the totality of that particular
call.
Q. Okay. But your recollection was when you saw
her at Scramblers her demeanor was that she was
calm?
A.

Yes.

Q. Okay. And when you spoke to Mr. Caniglia, he
was agitated about the fact that the police had come to
his house, but, otherwise, he was calm?
A. Agitated. He wasn’t — like I said, wasn’t happy
with us being there but wasn’t hysterical.
Q. Okay. Apart from the fact that he wasn’t happy
with you being there, how was his demeanor?

242
A. Again, angry but not overtly angry. He was —
there was a lot of discussion back and forth between
the officers and him about going to the hospital. He did
not want to go, from what I remember, to the hospital
under those circumstances. Ultimately, he did consent
to going after talking to him some time, you know, in
regards to the situation. But, otherwise, it was more
just anger, but not hysterical anger.
Q. Do you know if he consented to go to the hospital after he was told that if he did not consent his firearms would be seized?
* * *
[88] have changed any outcome at that time.
Q. Okay. If you go down to Number 4, it says, “During the argument plaintiff grabbed a firearm with one
hand and a magazine with the other.” Do you see that?
A.

Yes.

Q. Okay. Do you recall someone telling you that, in
fact, Mr. Caniglia had a firearm in one hand and a
magazine in the other?
A. Specific, I don’t know if it was him or an officer
that had relayed it on scene or if it was Mrs. Caniglia,
but going off of the dispatch, Exhibit 22 there, she had
mentioned something different, so specifically I don’t
know who said that.
Q. Okay. Would it have made a difference to you
here if, in fact, he had not had a magazine in his hand?
A. Wouldn’t have made a difference. The fact that
the — it’s a firearm. It is a true firearm that whether
or not it was loaded or not, whether or not he made
reference to load it, it doesn’t really change much, in
my opinion.

Q.

243
Number 5 says “plaintiff was upset.”

A.

Yes.

[89] Q. Have you described for me the way in which
plaintiff was upset?
A. Just the — the anger and trepidation when we
were on scene speaking to him on the porch.
Q. And that had to do with the fact that the police
had gotten involved?
A.

Yes.

Q. Okay. If you go to Number 8 it says, “Upon
returning to the residence, plaintiff’s wife parked her
car about 100 feet away from the residence and
remained in her car until plaintiff left the property by
rescue.” Do you see that?
A.

Yes.

Q. My understanding, as you testified earlier, that
she did that because she was told to by the Cranston
Police.
A.

Yes.

Q.

Okay.

A.

May I go back to that?

Q.

Oh, yes. Yes.

A. I just — she was told to, meaning advised, that
we as the police department wanted to make contact.
She was concerned about what could have possibly
happened. We didn’t want Mrs. Caniglia to possibly
walk into something tragic. So,
* * *
[102] higher level of law enforcement intervention will
be required when officers encounter the following

244
scenarios,” and Number 1 says, “the person is imminently dangerous to himself or others.” Do you see
that?
A.

Yes.

Q. Is that what you thought applied here? Did you
believe Mr. Caniglia was imminently dangerous to
himself or others?
A. Yes, based on the totality of the circumstances,
the — you know, what had happened the previous
night, I know imminently applies there was the night
before and now we’re dealing with it a day later (sic).
My concern at that point was the statements were
made that the Police Department was made aware of
those statements and that he —when we go back to
the involuntary part of it, regardless of what Mr.
Caniglia had said, after we had learned — corroborated the statement from the night before, he was
going to the hospital for a medical evaluation.
When I go back and state that we would rather —
the Police Department would rather not put our hands
on somebody and take physical
* * *

245
UNITED STATES DISTRICT COURT
DISTRICT OF RHODE ISLAND
————
C.A. No. 15-525
————
EDWARD A. CANIGLIA,
Plaintiff
v.
ROBERT F. STROM as the Finance Director of
THE CITY OF CRANSTON, et al.
Defendants
————
DEFENDANTS’ STATEMENT OF
DISPUTED FACTS
1. Plaintiff Edward (“Ed”) Caniglia is 68 years old.
(Plaintiff’s Answers to Defendant City of Cranston’s
Interrogatories at Answer No. 1, attached as Exhibit
A). He has been married to Kim Caniglia since 1993.
(E. Caniglia depo. at p. 11, excerpts attached as
Exhibit Q). They have never filed for divorce. (Id. at
pp. 67-68, 82-83).
Undisputed.
2. Col. Winquist joined the Rhode Island State
Police in 1990 after attending the State Police Academy. (Winquist depo. pp. 10-11, excerpts attached as
Exhibit B).
Undisputed.
3. Col. Winquist was told while with the State
Police that he could require a person to submit to a
mental health evaluation at a hospital emergency

246
room without obtaining a court order if that person
was in imminent danger of harming himself or someone else. (Exhibit B at pp. 18-20).
Objection. Any reference to the Rhode Island
State Police (“R.I.S.P.”) in Plaintiff’s Statement
of Undisputed Facts is irrelevant.1 Disputed
insofar as Colonel Winquist testified that he was
told by his superior officers at R.I.S.P. that “if
somebody was in imminent danger of harming
themselves or somebody else, then we could take
them either voluntarily or involuntarily to the
local emergency room at a hospital for the purpose of a mental health evaluation.” Exhibit 1;
June 20, 2018 Deposition Transcript of Colonel
Michael Winquist at 18-19.
4. Moreover, Col. Winquist was told he had the
authority in those circumstances to seize firearms
without a court order to protect the public. (Id. at p.
20).
Disputed insofar as Colonel Winquist testified
that he was told by senior members of the RISP
that members of the RISP have a “responsibility
to be community caretakers, and that our role is
to make sure that if somebody is in imminent
danger, you can take a person to get evaluated,
and you can seize property, such as firearms, to
protect the public.” Exhibit 1 at 20.
5. Col. Winquist was told this was part of the community caretaking function. (Id. at p. 20). The community caretaking function was not embodied in any writ1

Defendants propound a continuing objection to any and all
references to the Rhode Island State Police contained in
Plaintiff’s Statement of Undisputed Facts as being irrelevant.

247
ten document nor was Col. Winquist taught any legal
basis for the function. (Id. at pp. 21-22).
Disputed insofar that Colonel Winquist’s
understanding of the community caretaking
function is consistent with the disputed facts
noted in 3 and 4 above. He testified that he did
not “recall” if he ever saw any “written document that authorized the State Police to either
require a psychiatric evaluation or to seize
property.” Colonel Winquist testified that he
“did not recall” if he was told the legal authority
for the community caretaking function. Exhibit
1 at 21, 22.
6. Col. Winquist is not aware of any statute that
embodies the community caretaking function. (Id. at
p. 31). Prior to 2017, there was no statute that authorized police to require a person to have a psychiatric
evaluation. (Id.). Prior to 2018, there was no statute
that authorized police to seize a person’s firearms
when that person was a danger to himself or others.
(Id. at pp. 30-31).
Undisputed insofar as Colonel Winquist testified as to his understanding.
7. There was no written policy or procedure that
set forth the State Police’s authority to seize firearms
or to require persons to submit to psychiatric examinations without a court order. (Id. at pp. 22-23).
Disputed. Colonel Winquist testified that he
did not recall seeing a written policy or procedure that set forth the RISP’s authority to
require an individual to submit to a psychiatric
evaluation or to seize property pursuant to the
community caretaking function. Exhibit 1 at 22,
23.

248
8. Col. Winquist was with the State Police until
2014 when he was hired to be the Colonel of the
Cranston Police Department. (Id. at p. 13).
Undisputed.
9. The State Police eventually became accredited
by the Commission for Accreditation of Law Enforcement (“CALEA”). (Id. at pp. 15, 21). Col. Winquist was
involved in the accreditation process. (Id.).
Undisputed.
10. None of the CALEA standards dealt with the
community caretaking function or the authority of the
State Police to require someone to submit to a psychiatric evaluation or to seize firearms without a court
order. (Id. at p. 23; Henry depo. pp. 42-43, excerpts
attached as Exhibit C).
Disputed. Colonel Winquist testified that he
did not recall if any CALEA standard dealt with
the community caretaking function, or the
authority of the R.I.S.P. to require someone to
submit to a psychiatric evaluation or to seize
firearms, without a court order. The reference to
Officer Henry’s deposition does not support the
fact statement.
11. Col. Winquist is the person who establishes
policy for the Cranston Police Department. (Exhibit B
at p. 24).
Undisputed.
12. The Cranston Police Department first became
accredited by CALEA in 2011 or 2012. (Exhibit C at p.
41). CALEA establishes “best practices” for law
enforcement agencies. (Id. at pp. 39-40).

249
Disputed insofar as Officer Henry testified he
“believes” the Cranston Police Department was
first accredited by CALEA in 2011 or 2012.
13. The Cranston Police Department has a manual
of policies and procedures. (Exhibit B at p. 34). It
includes General Orders (“GO”). (Id. at pp. 36-37). The
GOs are based on CALEA standards. (Exhibit C at p.
41).
Undisputed.
14. The first GO, number 000.01, entitled “Introduction,” states: “This manual is a complete catalog of
department issued general orders, policies, procedures, rules and regulations. Revisions have been completed as needed." (Exhibit D). As of January 6. 2014,
the manual was a complete catalog of the Department’s policies and procedures. (Exhibit C at p. 44).
The manual is “the bible for the Cranston Police
Department.” (Id. at p. 46).
Objection insofar as GO 000.01 speaks for
itself.
15. The Manual has a GO 100.10 which sets forth
the Cranston Police Departments “Limits of Authority” “during the execution of the criminal process.”
(Exhibit E).
Objection insofar as GO 100.10 speaks for
itself.
16. The situation involving Plaintiff was not part
of the criminal process. Col. Winquist believes that
Cranston Police Department does not have a GO
which sets forth its limits of authority in situations
such as those involving Plaintiff. (Exhibit B at pp. 3839).
Undisputed.

250
17. The Cranston Police Department does have a
GO 320.80 entitled “Civil Procedure” which provides
guidelines while executing the police role in civil situations, including “keep the peace” situations. (Exhibit
F). This GO provides that in “keep the peace” situations” “the officer must terminate the process if there's
any resistance.” (Id.)
Objection insofar as GO 320.80 speaks for
itself.
18. Col. Winquist does not believe that this GO
applies to the situation involving Plaintiff. (Exhibit B
at pp. 39-42).
Undisputed.
19. Col. Winquist does not believe that this GO
limits the authority of the Cranston police to act pursuant to the community caretaking function when
there is imminent harm to the public. (Id. at pp. 4243).
Undisputed.
20. Capt. Henry’s understanding is that there is no
limit on the police authority under the community
caretaking function so long as it is not used to collect
evidence to prosecute a crime. (Exhibit C at pp. 54-55).
He believes the function authorizes police to take
whatever steps are reasonable based on the facts and
circumstances at the time. (Id. at p. 55). What is reasonable is “in the eye of the beholder.” (Id.). There are
no written guidelines to help a police officer determine
whether he has the authority to act pursuant to the
community caretaking function. (Id. at pp. 55-56).
Capt. Henry is not aware of any training for Cranston
police officers on the scope of their authority under the
community caretaking function. (Id. p. 56).

251
Disputed. Captain Henry testified that the
“eye of the beholder” are the “eyes of the . . . person who is on scene collecting all the facts, all
information they can . . . .” Exhibit 2; June 13,
2018 Deposition Transcript of Captain Russell C.
Henry, Jr. at 55. Captain Henry also testified
that there may have been training for Cranston
Police Officers on the scope of their authority
under the community caretaking function – he
did not recall. Id. at 56.
21. GO 350.20, “Bureau of Criminal Identification,” addresses the return of firearms that have been
seized for safekeeping. (Exhibit G; Exhibit B at pp. 4548).
Objection insofar as GO 350.20 speaks for
itself.
22. Col. Winquist believes this GO authorizes the
seizure of firearms based on a person’s “temporary
state of mind.” (Exhibit B at p. 47).
Undisputed.
23. There is no specific time frame that the
Cranston Police hold a firearm based on a person’s
temporary state of mind. (Id. at pp. 53-54).
Disputed insofar as Colonel Winquist testified
he did not “think” there was any specific
timeframe. Exhibit 1 at 53.
24. The Cranston Police do not keep statistics as to
how often they seize firearms based on a person’s temporary state of mind and Col. Winquist has no idea
how often it happens. (Id. at p. 55).
Undisputed.

252
25. Cranston Police Department GO 320.70
addresses “Public Mental Health,” including voluntary
and involuntary admissions to mental health
facilities. (Exhibit H).
Objection insofar as GO 320.70 speaks for
itself.
26. Col. Winquist believes that if the Cranston
police tell a person that they are going to seize his firearms unless he goes for a mental evaluation that that
is a voluntary admission because the person can still
say “no.” (Exhibit B at p. 57-58).
Undisputed.
27. Conversely, Capt. Henry says the Cranston
police should not coerce someone to have a mental
examination by threatening to take away his firearms.
(Exhibit C at pp. 85-86).
Undisputed.
28. GO 320.70 states that “officers are not in a
position to diagnose mental illness but must be alert
to common symptoms.” (Exhibit H at § IV(a)(i)). Col.
Winquist agrees with this statement. (Exhibit B at pp.
74-75). Symptoms of mental illness include a person
making a statement that they want to kill themselves,
that they are despondent, that they have heavy use of
drugs or alcohol. (Id. at p. 63).
Objection insofar as GO 320.70 speaks for
itself. Objection insofar as Colonel Winquist testified that symptoms of an emotional crisis are
“making an outward statement that [an individual] wants to kill themselves” and if “somebody
is despondent, heavy use of alcohol, narcotics,
combination of many different factors most
often.” Exhibit 1 at 63

253
29. A person’s behavior meets the criteria for an
involuntary admission when a police officer believes
that the person is in imminent harm of their safety or
another person. (Id. at p. 59).
Undisputed.
30. The officer on the scene makes a determination
as to whether there is imminent danger. (Id. at p. 43).
The Cranston police are trained in learning the symptoms of someone who is in a mental health crisis. (Id.
at pp. 43-44).
Undisputed.
31. Col. Winquist has seized firearms for safekeeping many times. With respect to the criteria uses to do
so, he says “it was an assessment made on the scene
by myself and other troopers.” (Id. at p. 62). He says
police are not trained to diagnose someone but to be
aware of symptoms of an emotional crisis. (Id. at pp.
62-63).
Objection insofar as Colonel Winquist testified
that he has seized firearms for safekeeping “ten
or more” times. Exhibit 1 at 62.
32. Col. Winquist says that a Cranston police
officer’s knowledge respecting mental illness would
come from the officer’s training and experience. (Id. at
pp. 63-64).
Undisputed.
33. Col. Winquist believes that a police officer’s
experience dealing with people who have attempted
suicide provides training in diagnosing mental illness.
(Id. at pp. 77-78). The decision to seize a person’s firearms is up to the individual officer’s discretion. (Id. at
p. 78). The factors a police officer considers may not all

254
be set forth in the Department’s training. It may also
be based on the officer’s “instinct.” (Id. at pp. 79-80).
Disputed. Police Officers do not diagnose mental illness. Exhibit 1 at 76. Disputed insofar as
Colonel Winquist testified that there are “so
many different factors. There is no way to predict . . . or assume every factor. We make judgment decisions every day based on our instinct,
our training.” Id. at 80.
34. Defendants have produced three different
PowerPoint training presentations on mental health,
dated 2008, 2011, and 2013. (Exhibits I, J, and K
respectively).
Undisputed.
35. The 2008 presentation references the Rhode
Island Mental Health Law. (Exhibit I at p. 5). Col.
Winquist is not familiar with the Mental Health Law.
(Exhibit I; Exhibit B at pp. 73-74). He has not seen this
presentation. (Id. at p. 74). Col. Winquist has not seen
the 2011 presentation. (Id. at p. 74).
Objection insofar as the training presentations speak for themselves. Disputed insofar as
Colonel Winquist testified he was not aware of
R.I. Gen. Laws § 40.1-5-8. Exhibit 1 at 74. Disputed insofar as Colonel Winquist testified he
had not seen the printout of the 2011
PowerPoint presentation. Id. at 74. Disputed.
See Plaintiffs’ Undisputed Fact Statement 139
and Defendants’ Response.
36. The 2011 presentation states if a person does
not want help, “Never threaten them with hospitalization.” (Exhibit J at p. 40).

255
Objection insofar as the presentation speaks
for itself.
37. The 2011 presentation includes slides on “Risk
Factors for Suicide.” (Id. at pp. 43, 44, 45). Capt. Henry
says the only risk factor for suicide that applies to Mr.
Caniglia is that he supposedly asked his wife to kill
him. (Exhibit C at pp. 88-91).
Objection insofar as the presentation speaks
for itself. Objection to use of term “supposedly.”
Plaintiff admitted that he implored his wife to
shoot him.
See Defendants’ Statement of Undisputed
Facts 25-29. Disputed insofar as Captain Henry
testified “that was one of the factors.” Exhibit
2 at 89. He also testified that other signs of suicide were considered with respect to Plaintiff,
including talking or writing about suicide – the
conversation Plaintiff had with his wife, the fact
the Plaintiff was agitated. Exhibit 2 at 90. He was
not aware if Officers read the questions outlined
in the presentation to Plaintiff. Id.
38. The 2013 presentation includes a slide on risk
factors for suicide. (Exhibit K at p. 8). Capt. Henry
does not know whether the officers on the scene considered any of these factors. (Exhibit C at p. 92).
Disputed insofar as the 2013 presentation
speaks for itself.
39. In 2016, at Col. Winquist’s request, the Rhode
Island Attorney General’s office gave the Cranston
Police a PowerPoint presentation on “Search and
Seizure Law.” (Exhibit L; Exhibit B at pp. 82-83). Col.
Winquist is not aware of any prior presentations to the
Cranston Police Department by the Rhode Island

256
Attorney General’s office on search and seizure law.
(Exhibit B at pp. 83, 84, 86).
Undisputed.
40. The Search and Seizure presentation covers
the community caretaking function, including Rhode
Island decisions. (Exhibit L at p. 32; Exhibit B at pp.
87-89). All of the decisions respecting the community
caretaking function of which Col. Winquist is aware
involve motor vehicles. (Id. at p. 89).
Undisputed.
41. When the Cranston police seize a person’s firearm for “safekeeping” it is pursuant to the community
caretaking function because they are “in a crisis or an
imminent risk to themselves.” (Id. at pp. 94-95).
Undisputed.
42. To Col. Winquist’s knowledge, neither the
State Police nor the Cranston Police have used any
studies, data, or reports to determine when it is appropriate to seize firearms for safekeeping pursuant to
the community caretaking function. (Id. at p. 95).
Undisputed.
43. Col. Winquist is not aware of any statistics on
what percentages of home with firearms have a suicide
by firearm. (Id. at pp. 98-99). He does not think such
statistics are relevant to the Cranston Police Department’s policy of seizing firearms for safekeeping
because “it’s a judgment decision by that officer based
on what’s in front of him.” (Id. at p. 99).
Undisputed.
44. The Cranston Police Department has a policy
or procedure of obtaining written consents for
searches. (Id. at p. 99).

257
Undisputed.
45. Before August 2015, neither Officer Mastrati
nor any other Individual Defendant had never heard
of Edward Caniglia nor had they had any contact with
him or his wife. (Mastrati depo. at p. 49, excerpts
attached as Exhibit M; Smith depo. at pp. 41-42,
excerpts attached as Exhibit N; Russell depo. at pp.
41-42, excerpts attached as Exhibit O).
Undisputed.
46. Mr. Caniglia has never had any kind of
restraining order entered against him. (Exhibit M at
p. 49). He has never had any kind of criminal charges
against him. (Id. at pp. 49-50). Mr. Caniglia has never
been accused of domestic violence. (Id. at p. 50). He has
no history of violence. (Id.). Mr. Caniglia has no history
of violence or of threatening violence or of misusing
firearms. (Id.). He has no history of threatening
violence to himself. (Id.).
Undisputed.
47. Officer Mastrati is not aware of any legal
reason why Mr. Caniglia cannot possess a firearm. (Id.
at pp. 51-52).
Undisputed.
48. Officer Mastrati understands that the only reason for which the police can take people into custody
without arresting them is to interview them as a witness. (Id. at p. 14).
Disputed. Officer Mastrati testified that “it
could be for interviews, witnesses.” However, he
also testified that he could not think of any other
circumstances “right now.” Exhibit 3; May 31,
2018 Deposition Transcript of Officer John
Mastrati at 14.

258
49. Officer Mastrati recalls being trained that
property can be seized for “safekeeping” without a
warrant. Safekeeping includes holding property until
a person returns from the hospital. (Id. at pp. 14-15).
Undisputed.
50. Officer Mastrati has heard of the community
caretaking function but does not understand what it
is. (Id. at p. 15).
Undisputed.
51. Officer Smith does not know what the community caretaking function is. (Exhibit N at pp. 64-66).
He has no idea whether it relates to the seizure of Mr.
Caniglia’s firearms. (Id. at p. 66). He does not know
whether the community caretaking function authorizes the Police Department to require people to talk to
the Cranston rescue about their psychological condition. (Id. at pp. 66-67).
Undisputed.
52. Officers Mastrati and Smith have attended
Cranston Police Department training about dealing
with people with perceived mental health issues.
Officer Smith recalls it was 2011. Officer Mastrati
recalls training in 2013. (Exhibit 9 to Mastrati depo.,
attached here as Exhibit P; Exhibit M at pp. 116-17;
Exhibit N at pp. 70-71).
Undisputed.
53. Officer Mastrati states he does not require a
person to have a psychiatric evaluation. Rather, he
calls the rescue and the rescue evaluates the person.
(Exhibit M at pp. 17-18). Mastrati understands that he
does not have the authority to require someone to have
a psychiatric evaluation. (Id. at pp. 25-26). He under-

259
stands that the rescue can require a person to go for a
psychiatric evaluation. (Id. at p. 18).
Undisputed.
54. Officer Mastrati believes that he does have the
authority to seize a person’s firearms if he thinks they
are suicidal. (Id. at pp. 26-27). When Officer Mastrati
seizes a firearm because he believes the person is suicidal that comes under the category of “safekeeping.”
(Id. at p. 43).
Undisputed.
55. The policy or procedure of the Cranston Police
Department is to have a supervisor make the decision
whether to seize a person’s firearms for safekeeping.
(Id. at p. 28).
Undisputed.
56. Officer Mastrati is not aware of any court decision, or constitutional provision, or statute or police
department policy or procedure that gives him the
authority to seize a person’s firearms to prevent that
person from hurting himself or others. (Id. at pp. 3738). The Cranston Police Department does not have
either a written or unwritten policy or procedure that
deals with seizing firearms for “safekeeping.” (Id. at
pp. 43-44).
Disputed. See Defendants’ Response to Fact
Statement 55.
57. Officer Mastrati understands that the
Cranston Police Department cannot take someone into
custody if there is not a criminal process. (Id. at p. 97).
There is no GO that sets forth any authority to seize
property when there is not a criminal process. (Id. at
pp. 97-98).

260
Disputed insofar as Officer Mastrati testified
he was not aware of any general order. Exhibit
3 at 98.
58. On August 20, 2015, Plaintiff and his wife Kim
had an argument in their house. At one point during
the argument, Mr. Caniglia retrieved a handgun that
he keeps under the mattress of the bed, put it on the
dining room table, and said “just shoot me now and get
it over with.” (Exhibit Q at p. 24).
Defendants do not dispute the fact statement
but note that the reference to the record does
not support the full fact statement. See Defendants’ Statement of Undisputed Facts at 29, 30.
59. Kim and Ed agree that the magazine was not
in the handgun and that the handgun was not loaded
when Ed did this, although Kim did not know that at
the time. (Exhibit Q at p. 82; K. Caniglia depo. at p.
17, excerpts attached as Exhibit R).
Undisputed.
60. Ed subsequently left the house and went for
drive. Kim took the handgun, put it back under the
bed, and she hid the magazine that was still under the
bed. (Exhibit R at pp. 19-21).
Disputed. See Defendants’
Undisputed Facts at 10.

Statement

of

61. When Ed returned, the Caniglias argued some
more. Kim decided to leave and went to stay at the
Econo Lodge Motel on Reservoir Avenue. (Id. at pp. 2425).
Undisputed.
62. The next morning Kim went to eat breakfast at
the “Scramblers” restaurant on Reservoir Avenue. (Id.

261
at p. 28). She tried to call Ed but he did not answer the
phone. (Id. at p. 33). Ed was in the restroom and
missed the call. (Exhibit Q at pp. 28-29).
Undisputed.
63. Kim became concerned that Ed may have committed suicide and called the Cranston Police because
she wanted an officer to accompany her to the house to
check on Ed. (Exhibit R at pp. 29-31, 72). She was not
afraid that he would use the gun on himself. (Id.).
Disputed. Mrs. Caniglia testified that she was
“afraid that [Plaintiff] would do something with
the gun and the magazine.” Exhibit 9; June 27,
2018 Deposition Transcript of Kim Caniglia at
22.
64. The Cranston Police dispatched four squad
cars in response to Mrs. Caniglia’s call. (Id. at pp. 3334). She told the police officers she wanted an escort
back to the house to check on Mr. Caniglia. (Id. at p.
35).
Undisputed.
65. Officer Mastrati spoke with Mrs. Caniglia in
the parking lot of the “Scramblers” restaurant on Reservoir Avenue. (Exhibit M at pp. 52-53). The Incident
Report says: “She stated that she was not scared for
her own life, but more scared walking in and not knowing if Edward had committed suicide.” (Id. at pp. 7576).
Undisputed.
66. Officer Mastrati called Ed from the parking lot.
He said he wanted to come to the house to check on
Ed’s well-being. (Exhibit Q at pp. 33-34).
Undisputed.

262
67. Officer Mastrati told Mrs. Caniglia that Mr.
Caniglia sounded fine. (Exhibit R at pp. 36-37). The
Cranston Police officers told Mrs. Caniglia to follow
them to the house but to remain in the car while they
spoke with Mr. Caniglia. (Id. at pp. 37-38).
Undisputed.
68. Officers Mastrati, Russell, Smith, and Sergeant Barth went to the Caniglias’ house. (Exhibit M
at p. 77). Sgt. Barth was the officer in charge of the
scene. (Id. at p. 79). There were four squad cars at the
Caniglias’ house. (Exhibit R at p. 39).
Undisputed.
69. The officers spoke with Mr. Caniglia on his
back porch. (Exhibit Q at pp. 36-37). They were all
near him when they spoke. (Id. at p. 38; Exhibit R at
p. 43).
Undisputed.
70. Mr. Caniglia was “cooperative.” He was not
abrasive or aggressive. He said he was not suicidal.
(Exhibit M at p. 80). Mr. Caniglia was “calm.” (Id.).
Disputed. Officer Mastrati testified Plaintiff
was calm “for the most part . . .” Exhibit 3 at 80.
Officer Barth testified that Plaintiff was upset
and agitated. Exhibit 7; July 19, 2018 Deposition
Transcript of Sgt. Brandon Barth at 86, 124; see
also Defendants’ Statement of (Additional)
Undisputed Facts at 61. Mrs. Caniglia testified
that Plaintiff was very upset. See Defendants
Statement of Undisputed Facts at 34. Moreover,
when officers asked Mr. Caniglia about his mental health, he informed them it was none of their
business. See Plaintiff’s Statement of Undisputed Facts at 82.

263
71. Mr. Caniglia told Officer Mastrati that he had
had a friend commit suicide and that he would never
to do that to [his] family.” (Id. at p. 83).
Undisputed.
72. Mr. Caniglia did not feel depressed or suicidal.
(Exhibit Q at pp. 57-58).
Disputed. Mrs. Caniglia testified that Plaintiff
was depressed. Exhibit 9 at 22, 63. The hospital
records reflect that Plaintiff was depressed. See
Plaintiff’s Exhibit X. The reference to the record
at “Exhibit Q at pp. 57-58” does not support a
reference to suicide.
73. However, Officer Mastrati did not believe Mr.
Caniglia. (Exhibit M at pp. 83-84).
Undisputed.
74. Officer Mastrati said “I can’t determine if
someone is not suicidal. To me, I felt like he was a risk
to himself.” (Id. at p. 81).
Disputed insofar as Officer Mastrati also testified “just from his actions in taking out a
weapon.” Exhibit 3 at 81.
75. Officer Mastrati based this opinion on the fact
that Mr. Caniglia had put his handgun and, supposedly, the magazine on the counter and “ask[ed] his
wife to end his life.” (Id. at pp. 82, 106-07).
Objection to the term “supposedly.” See
Defendants’ Statement of Undisputed Facts at
10, 18. Officer Mastrati also based it on his
training. Exhibit 3 at 82.
76. Officer Mastrati had no other reason to
disbelieve Mr. Caniglia’s statement that he was not
suicidal. (Id. at p. 84).

264
Undisputed.
77. Officer Mastrati has heard people say “shoot
me now” but he doesn’t know if they really mean it.
(Id. at pp. 82-83).
Disputed. Officer Mastrati testified he didn’t
“know if they don’t mean it.” Exhibit 3 at 82, 83.
78. Mr. Caniglia never made any threat to use his
firearm on himself. (Id. at p. 54).
Disputed. Officer Mastrati testified he did “not
recall exactly.” Exhibit 3 at 54.
79. Officer Mastrati has received training on
assessing people for risk of suicide. (Exhibit 10 to
Mastrati depo., attached here as Exhibit S; Exhibit M
at pp. 116). None of the factors set forth in that training applied to Mr. Caniglia when Officer Mastrati
spoke with him. (Exhibit M at pp. 117-120).
Disputed. Officer Mastrati testified that a factor that applied to Plaintiff was that Plaintiff
behaved in an unusual way that drew the attention of others. In addition, Officer Mastrati was
worried about the firearms that Plaintiff had.
Exhibit 3 at 117-120.
80. Officer Mastrati acknowledges that Mr.
Caniglia seemed “normal” when they spoke. (Incident
Report, attached as Exhibit T; Exhibit M at p. 122).
Undisputed.
81. Officer Russell said that Mr. Caniglia seemed
“nice,” “very polite,” and “welcoming.” (Exhibit O at p.
43-44). He does not remember that Mr. Caniglia said
anything that indicated that he wanted to harm himself. (Id. at p. 46). He said Mr. Caniglia did not seem
suicidal. (Id. at p. 49).

265
Disputed. Officer Russell thought Plaintiff
presented Mrs. Caniglia with a gun and may
have said “if you want me gone” or “you want to
end this” to Mrs. Caniglia. Exhibit 4; July 20,
2018 Deposition Transcript of Officer Wayne
Russell at 46 and 48.
82. The police officers asked about Mr. Caniglia’s
mental health. He told them that was none of their
business. (Exhibit Q at pp. 85-86).
Undisputed.
83. One of the officers said that in these situations
the Cranston Police confiscate firearms. (Id. at p. 38).
Disputed. Mr. Caniglia testified that the
officer “suggested” confiscation. Exhibit 10;
June 29, 2018 Deposition Transcript of Edward
A. Caniglia at 38.
84. Mr. Caniglia responded: “You’re not confiscating anything.” (Id.).
Undisputed.
85. The police officers told Mr. Caniglia that if he
submitted to a psychiatric evaluation at Kent Hospital
his firearms would not be removed from the house. (Id.
at p. 66). Mr. Caniglia only agreed to the go to the hospital to prevent the confiscation of his firearms. (Id. at
p. 83).
Disputed. Officer Russell did not speak to Mr.
Caniglia. Exhibit 4 at 44, 46. Officer Barth does
not recall any such conversation. Exhibit 7 at
127. Officer Mastrati does not recall if he spoke
to Plaintiff about the firearms. Exhibit 3 at 56.
Officer Smith does not believe he spoke to Mr.
Caniglia. Exhibit 8; June 1, 2018 Deposition
Transcript of Austin Smith at 45.

266
86. One of the police officers told Mrs. Caniglia
that Ed “needed to have a psych eval” and that if he
did that “we won’t have to take the firearm.” (Exhibit
R at pp. 41-42, 44).
Disputed. See Defendants’ Response to Fact
Statement 85.
87. Captain Henry made the decision to seize Mr.
Caniglia’s firearms. (Incident Report, Exhibit T;
Exhibit M at pp. 53-54). Capt. Henry assumes he got a
phone call from the officers at the scene. (Exhibit C at
p. 107). He does not remember any reasons for the seizure apart from what is set forth in the Incident
Report. (Id. at p. 119). He says the officers on the scene
felt it was reasonable to do so based on Mr. Caniglia’s
state of mind. (Id. at p. 62).
Undisuputed.
88. Capt. Henry graduated from the Rhode Island
Municipal Police Training Academy in 1992. (Id. at pp.
16-17). He does not recall any classes on when it is
appropriate to hold or detain a person without arresting them. He does not recall any classes on when it is
appropriate to seize property without a warrant or a
court order. (Id. at pp. 17-18). Capt. Henry does not
recall any classes on when, if ever, it is appropriate to
seize weapons for safekeeping. (Id. at p. 19). He does
not recall any classes on the community caretaking
function. (Id.). Capt. Henry remembers he received
training on dealing with people with mental health
issues but he does not recall specifics. (Id. at pp. 1920).
Disputed insofar as Captain Henry testified
there may have been classes, but he did not specifically recall. Exhibit 2 at 17-19.

267
89. Capt. Henry thinks that the community caretaking function has been discussed during “in-service”
training at the Cranston Police Department on mental
health. (Id. at p. 28).
Undisputed.
90. The Cranston Police Department seizes firearms for “safekeeping” “if we feel that the circumstances that exist at the time create a danger relative
to the firearms, create a danger to the public, or to any
member of the public...” (Id. at p. 29). The authority to
do this arises under the community caretaking
function. (Id.).
Undisputed.
91. With respect to the community caretaking
function, Capt. Henry says: “My understanding is that
the courts recognize that law enforcement needs to
take certain actions relative to the Fourth Amendment
without a warrant that pertain to public safety functions or emergencies.” (Id. at p. 24).
Undisputed.
92. Capt. Henry thinks the public safety function
includes a person with a firearm who is thinking of
harming themselves. (Id. at pp. 24-25).
Undisputed.
93. Capt. Henry agrees with GO 320.70 that
“[o]fficers are not in a position to diagnose mental illness.” (Exhibit H; Exhibit C at p. 68).
Undisputed.
94. The court decisions of which Capt. Henry is
aware respecting the community caretaking function
deal with motor vehicles. (Id. at p. 97). He is not aware
of any court decision authorizing police to seize prop-

268
erty, including firearms, from a home pursuant to the
community caretaking function. (Id. at p. 34).
Undisputed.
95. Capt. Henry thinks the community caretaking
function authorizes the Cranston police to require a
person to go to a hospital where a mental examination
can be performed. However, the community caretaking function does not permit the Cranston police to
require a person to submit to a psychological evaluation. (Id. at pp. 31-32, 69-70). He is not aware that any
Cranston police officer has ever required a person to
do that. (Id. at p. 32).
Undisputed.
96. Capt. Henry understands that the decision
that Mr. Caniglia was “imminently dangerous” was
based on his statements and actions the night before
Cranston police spoke with him. Mr. Caniglia did not
say anything to Cranston police that indicated he was
“imminently dangerous.” (Id. at pp. 74-75).
Undisputed insofar as Captain Henry testified
that Plaintiff did not say anything to police the
morning after he told his wife to shoot him that
indicated he was imminently dangerous. Exhibit
2 at 75. Disputed insofar as Plaintiff was upset
and agitated and refused to answer questions
concerning his mental health. See Defendants’
Response to Fact Statement 70; see also Plaintiff’s Fact Statement 82.
97. Capt. Henry says that in the circumstances the
Cranston police would have made the decision to take
Mr. Caniglia to the hospital regardless of whether he
objected. (Id. at p. 157-58).
Undisputed.

269
98. The Cranston police have not received any formal training on whether someone is imminently dangerous. (Id. at p. 77).
Disputed. Captain Henry testified “not that he
kn[e]w of.” Exhibit 2 at 77.
99. Whether someone is “imminently dangerous”
would be a subjective decision based on an individual
officer’s experience. Two different police officers in the
same situation could come to two different conclusions. (Id. at pp. 77-78)
Disputed insofar as Captain Henry testified
it’s a “case-by-case basis based on the facts that
a reasonable person is presented with.” Exhibit
2 at 77.
100. Officer Mastrati did not hear the conversation
between Mr. Caniglia and the Cranston Rescue.
(Exhibit M at p. 55). He does not know whether Mr.
Caniglia agreed to go for an evaluation. (Id.).
Disputed. Officer Mastrati testified that Plaintiff voluntarily went to the hospital. Exhibit 3 at
85, 103, 104, 105.
101. Richard Greene is a rescue lieutenant with
the Cranston Fire Department rescue service. (Greene
depo. p. 18, excerpts attached as Exhibit U). He
responded to the call to the Caniglia’s house. (Id. at pp.
39-40). He was on the scene for approximately 8
minutes. (Id. at pp. 53-55).
Undisputed.
102. Officer Greene identified thirteen risk factors
that are part of the State of Rhode Island protocol that
he recognizes as relevant to determining whether a
person is suicidal. (Exhibit 43 to Greene depo.,

270
attached here as Exhibit V; Exhibit U at pp. 35-36). All
the factors are important. (Id. p. 38).
Lt. Green testified that the factors “could be
one of the reasons, one of them.” Exhibit 6; July
26, 2018 Deposition Transcript of Richard
Greene at 37.
103. Lt. Greene specifically remembers very little
about the incident beyond what is set forth in the
Cranston rescue report. (Exhibit 42 to Greene depo.,
attached here as Exhibit W; Exhibit U at pp. 39-42).
He does not recall whether he asked Mr. Caniglia
about any of the risk factors. (Exhibit U at p. 44). He
does not know if Mr. Caniglia met any of the risk factors he identified. (Id. at pp. 45-47).
Disputed. Lt. Greene testified that the
Cranston Police Department informed him that
they recovered a gun and told him that Plaintiff
wanted his wife to shoot him with his own gun.
Exhibit 6 at 42. Lt. Greene testified he considered the factor that Plaintiff wanted his wife to
shoot him. Id. at 44. Officer Greene also testified
that Plaintiff was upset. Id. at 46. He also testified that he did not remember whether he asked
about the other factors. Id. at 44-47.
104. The rescue report states, inter alia: “pt stated
he was not looking to hurt himself.” (Exhibit W).
Objection insofar as the rescue report speaks
for itself.
105. Officer Greene told Mr. Caniglia that they
were taking him to the hospital. (Exhibit U at p. 48).
He said the Cranston police made the decision that
Mr. Caniglia was going to the hospital. (Id.).

271
Disputed. Plaintiff went to the hospital voluntarily. See Exhibit 3 at 85, 103, 104, 105; Exhibit 6
at 49; see also Defendants’ Statement of (Additional) Undisputed Facts at 70.
106. Officer Greene says that the decision to take
Mr. Caniglia to the hospital was based on Mr. Caniglia
telling his wife to shoot him and that that statement
provided the authority to take Mr. Caniglia to the hospital. (Id. at pp. 49-50). Officer Greene did not consider
any other factors besides the fact that Mr. Caniglia
had a gun. (Id. at pp. 73-74).
Disputed. Lt. Greene also testified
Plaintiff was upset. Exhibit 6 at 46.

that

107. Officer Greene says that if someone says to
another person “just shoot me now,” he assumes that
they actually want the other person to shoot them. (Id.
at pp. 67-68). He made no determination as to whether
Mr. Caniglia actually wanted his wife to shoot him.
(Id. at p. 68).
Undisputed.
108. Col. Winquist believes, based on the Incident
Report, that Mr. Caniglia was at imminent risk of
harm when the Defendants seized his firearms and
sent him for a mental evaluation. (Exhibit B at pp. 5961).
Disputed insofar as Plaintiff went to the hospital voluntarily. See Defendants’ Response to
Fact Statements 100, 105.
109. Mr. Caniglia never threatened to use his firearms or any other weapons on himself. (Exhibit B at
p. 110).

272
Disputed. Colonel Winquist testified that he
was not aware of a threat by Plaintiff to use a
firearm on himself. Exhibit 1 at 110.
110. Officer Mastrati understood that the firearms
in the house belong to Mr. Caniglia. (Exhibit M at p.
89). He did not ask Mr. Caniglia if he could seize the
firearms. (Id.).
Undisputed.
111. The Defendants did not obtain a written consent to search the house. (Exhibit B at p. 99). Mr.
Caniglia did not give verbal consent for a search. (Id.
at p. 100).
Undisputed.
112. Officer Mastrati said there was no crime
involved with respect to the incident at the Caniglia’s
house. (Exhibit M at p. 59).
Undisputed.
113. After Mr. Caniglia left in the Cranston rescue,
one of the police officers told Mrs. Caniglia that Ed had
given him permission to seize the firearms. (Exhibit R
at p. 47, 49-51). Mrs. Caniglia never said she wanted
the guns out of the house. (Id. at p. 51). The officer told
Mrs. Caniglia that she could retrieve the guns by going
to the Police Department and they would be returned
to her. (Id. at p. 65).
Disputed. Mrs. Caniglia informed Officer
Mastrati that she did not want the guns in the
house and informed Mastrati that she wanted
the Cranston Police Department to take the
guns “mostly” for Plaintiff’s well-being. Exhibit
3 at 56, 92. Mrs. Caniglia “pointed out” the
weapon under the bed and in the garage. Id. at
89, 56.

273
114. Defendants believe that Mrs. Caniglia consented to a search of the house. However, she did not
consent to seizure of the firearms. (Exhibit B at p.
117).
Disputed. Mrs. Caniglia consented to the seizure of the guns. Exhibit 3 at 56, 89, 92.
115. Officer Mastrati seized five items from the
Caniglia residence including two handguns, clips for
the handguns, and ammunition. (Exhibit M at p. 66).
Undisputed.
116. The guns belong to Mr. Caniglia. (Exhibit R
at p. 10).
Undisputed.
117. Officer Mastrati found one firearm under the
Caniglia’s bed. (Exhibit M at p. 89). The second firearm was in a box behind a workbench in the garage.
(Id. at p. 90).
Undisputed.
118. Officer Mastrati wrote in the Incident Report:
“It should be noted that in further speaking with Kim
she stated that she was not in fear for her own life from
Edward but was more worried about Edward taking
his own life.” (Id. at pp. 91-92).
Undisputed.
119. Mrs. Caniglia never indicated that Edward
had ever threatened to take his own life with a firearm. (Id. at p. 92).
Disputed. See Defendants’ Response to Fact
Statement 63.
120. Officer Mastrati is not aware of any statute
that requires a court order before a person can be com-

274
pelled to go to a hospital or mental health facility. (Id.
at p. 107).
Undisputed.
121. Mr. Caniglia went in the Cranston rescue to
Kent Hospital, was evaluated by a social worker, and
discharged. (Exhibit X).
Disputed insofar as the hospital records
reflect Plaintiff was also examined by a
physician and a nurse.
122. On Monday, August 24, 2015, Kim Caniglia
went to the Cranston Police Department to retrieve
Ed’s firearms. (Exhibit R at p. 65). She was told she
would have to request a copy of the police report, that
it would take 3-5 business days, and that it would cost
35 cents a page. (Id. at pp. 66-68). She was told she
would have to wait for a captain to review the request.
(Id.).
Undisputed.
123. On August 24, 2015, Mrs. Caniglia returned
to the Cranston Police Department and received a copy
of the report. (Id. at 68-69). She was told the captain
had not reviewed the request yet. (Id.). A few days
later, the Police Department called the Caniglias and
said that the guns would not be returned and they
would have to get a court order. (Id.)
Undisputed.
124. The Cranston Police Department has a record
which indicates that on September 1, 2015, a captain
of the Department denied a request to return the firearms. (Exhibit 25 to Henry depo., attached here as
Exhibit Y). That captain’s signature is not identified.
(Quirk depo. at p. 34, excerpts attached as Exhibit Z).

275
Undisputed.
125. During the second week of September 2015,
Mr. Caniglia went to the Cranston Police Department
to obtain his firearms. He was told they were not going
to release the firearms. (Exhibit Q at pp. 73-74).
Undisputed.
126. On October 1, 2015, Mr. Caniglia’s attorney,
Nicholas Lambros wrote a letter to Chief Winquist
requesting the return of Mr. Caniglia’s firearms.
(Exhibit 28 to Winquist depo., attached here as
Exhibit AA).
Undisputed insofar as the letter speaks for
itself.
127. Major Quirk was not involved in seizure of
Mr. Caniglia’s firearms. He was involved in the return
of Mr. Caniglia’s firearms after the receipt of Mr.
Lambros’ letter. (Exhibit Z at pp. 22-23).
Undisputed.
128. When Col. Winquist received Attorney
Nicholas Lambros’ letter, dated October 1, 2015, about
the return of Mr. Caniglia’s firearms he initially
instructed Major Quirk to tell Attorney Lambros to get
a court order because he mistakenly believed that the
situation involved a domestic assault. (Exhibit B at p.
49-50). When Major Quirk told him it did not, Col.
Winquist says he instructed Major Quirk to return the
firearms. (Id. at p. 50).
Undisputed insofar as the reference to the record (id. at 50) does not specifically support the
fact statement that Major Quirk told Colonel
Winquist that the matter did not involve
domestic assault.

276
129. However, Major Quirk recalls the events differently. He testified that he reviewed the Incident
Report, that he spoke with Col. Winquist about the
incident, and that he called Mr. Lambros to tell him he
would have to get a court order for the return of the
firearms. (Exhibit Z at pp. 24-25, 29-30). He reported
this conversation to Col. Winquist. (Id. at p. 31).
Undisputed.
130. Major Quirk does not know whether Col.
Winquist and he consulted with any of the Cranston
Police Department’s policies or procedures. (Id. at p.
25). He does not believe that he spoke with any of the
officers involved in the seizure of Mr. Caniglia’s firearms before making this decision. (Id. at p. 43).
Undisputed insofar as “this decision” refers to
a decision about returning the firearms.
131. This decision was consistent with the custom
and practice of the Cranston Police Department. (Id.
at p. 27). That custom and practice is not reflected in
any written document. (Id.). Major Quirk is not aware
of any legal authority for this custom and practice. (Id.
at pp. 28-29).
Undisputed insofar as “this decision” refers to
a decision about returning the firearms.
132. Major Quirk recalls that there was some
other event that prompted Col. Winquist to instruct
him to return Mr. Caniglia’s firearms but he does not
recall what it was. (Id. at pp. 31-32).
Undisputed.
133. On December 11, 2015, Plaintiff filed this
lawsuit.
Undisputed.

277
134. On December 22, 2015, Defendants returned
Mr. Caniglia’s firearms, magazine and ammunition to
him without a court order. (Exhibit Y).
Undisputed.
135. Col. Winquist does not know why it took until
December 22, 2015 to release Mr. Caniglia’s firearms.
(Exhibit B at p. 118).
Undisputed.
136. Mr. Caniglia has retained Lanny Berman,
Ph.D., a psychologist specializing in suicidology, as an
expert witness. His expert report is attached as Exhibits BB). In sum, Dr. Berman opines to a reasonable
degree of scientific, psychological and profession certainty based on 47 years of experience that:
a. Mr. Caniglia was neither at acute nor imminent risk of suicide on August 20 and 21, 2016.
(Id. at p. 6).
b. Mr. Caniglia’s actions and statements on the
evening of August 20, 2015 did not constitute
a suicidal communication, nor did they communicate any suicidal intent. Further, at no
other time and especially on the morning of
August 21, 2015 did Mr. Caniglia express or
communicate in words or actions anything
that could possibly be construed as indicating
he was at imminent risk of suicide. (Id. at p. 9);
c. No independent evaluation of Mr. Caniglia’s
risk for suicide was made based on both his
current mental status and associated risk factors as the Cranston Police Department officers were trained to observe and a sole reliance
on Mr. Caniglia’s statement and action on the
night before to document any level of concern

278
for imminent risk of harm was inappropriate
and a breach of the standards to which these
officers were trained. (Id. at pp. 9-10); and
d. Officers of the Cranston Police Department did
not apply or rely upon appropriate criteria or
reasonable and standard police procedures in
determining Mr. Caniglia was in imminent
danger of suicide and in determining that his
firearms needed to be confiscated on August
21, 2015. (Id. at pp. 10-13).
Objection.
1. Mr. Berman’s report is inadmissible hearsay. Casillas v. Vida, No. 16-2564 (PAD), 2018 U.S.
Dist. LEXIS 144729 (D.P.R. Aug. 23, 2018);
Prudential Ins. Co. v. Textron Aviation Inc., No.
16-2380-DDC-JPO, 2018 U.S. Dist. LEXIS 71019
(D. Kansas April 27, 2018) (same).
2. The report is irrelevant. The opinion of a
trained psychologist of Plaintiff’s mental state
(after the fact and after consideration of facts
that the officers were not privy to) is not relevant to whether non-psychologist police officers
on the scene had sufficient information on
Plaintiff’s mental state to reach a conclusion.
Mr. Berman’s opinion is irrelevant to whether a
police officer has probable cause to seize an
individual for a mental health evaluation.
Gargano v. Belmont Police Department, 476 F.
Supp. 2d 39 (D. Mass. 2007) (probable cause is not
vitiated by when the basis of which police
officer is shown after the fact to have been erroneous – probable cause is determined at the
moment of the seizure); United States v.
Acevedo-Vazquez, No. 16 642, 2018 U.S. Dist.

279
LEXIS 168386 (D.P.R. Sept. 27, 2018) (probable
cause focuses on the collective knowledge of all
officers at the time of the event and considers the
totality of the circumstances). The existence of
probable cause is ultimately a question of law to
be decided by the court. Zinicola v. Mott
MacDonald, LLC, No. 16-cv-542-JL, 2018 U.S.
Dist. LEXIS 64366 (D.N.H. April 17, 2018). Furthermore, Mr. Berman’s conclusion that the
officers were not adequately trained does little
to prove a Fourth Amendment violation. City of
Canton v. Harris, 489 U.S. 378 (1989).
3. Lack of foundation. Mr. Berman’s CV does
not reflect any experience with a police officer’s
or a police department’s response to allegedly
suicidal individuals or any familiarity or exposure to police department training, tactics, policies or procedures. The application of the Community Caretaking Doctrine in this matter turns
on whether Defendant police officers acted reasonably under the totality of the circumstances.
United States v. Davis, 909 F.3d 9 (1st Cir. 2018).
Disputed. See Defendants’ Statement of Undisputed Facts at 10-12, 16-18, 20-22, 26-29, 34-38, 42;
see also Defendants’ Statement of Disputed
Facts 37, 63, 70, 72, 75, 79, 81; Defendants’ Statement of (Additional) Undisputed Facts at 51-53,
55-69.
137. The Cranston Police Department is aware of
the Second Amendment, the Fourth Amendment, the
Due Process Clause of the Fourteenth Amendment
and the corresponding provisions of the Rhode Island
Constitution. (Exhibit B at pp. 113-14).
Undisputed.

280
138. Col. Winquist is not aware of the Rhode
Island Firearms Act. He does not know whether other
members of the Cranston Police Department are
aware of that Act. (Id. at p. 114-15).
Disputed. Colonel Winquist is aware of the
Rhode Island Firearms Act. He testified that he
is aware that the Act provides for the circumstances under which a person can be deprived of
their firearms. Exhibit 1 at 113, 114, 115.
139. Col. Winquist and the Cranston Police
Department are generally aware of the Rhode Island
Mental Health Law. (Id. at p. 115).
Undisputed.
140. Other than the community caretaking function, Col. Winquist is not aware of any authority for
the Cranston police to seize Mr. Caniglia’s firearms
and to transport him for a psychological evaluation.
(Id. at p. 116).
Undisputed.
141. Col. Winquist believes that the community
caretaking function gives the Cranston police the
authority to seize Mr. Caniglia’s firearms even if he
objected and the authority to require him to have a
psychiatric evaluation even if he objected. (Id. at p.
126).
Undisputed.
142. Defendants’ actions were not at all what Kim
Caniglia had in mind when she called the CPD and she
was very angry with them. (Exhibit R at pp. 71-72). “I
thought that I would have an officer go with me to the
house, he would knock on the door, Ed would answer
the door, I would know he was okay, that we would

281
talk, and if things were fine, the officer would leave.”
(Id. at p. 72).
Undisputed.
143. Mr. Caniglia incurred approximately $1000
in costs for the Cranston rescue taking him to the hospital. (Exhibit Q at p. 83).
Undisputed.
144. Officer Russell became a Cranston Police
officer in 2013 (Exhibit O at p. 21). He estimates he
has been involved in a “couple dozen” situations in
which the Cranston Police Department seized firearms for “safekeeping.” (Id. at p. 40). He has been
involved in approximately fifty situations in which the
Cranston Police Department had someone transported
for a psychological evaluation. (Id. at p. 41).
Undisputed.
145. Defendants have produced a nine-page inventory of seized weapons dated 2017. (Exhibit CC). It
contains approximately 475 weapons, mostly all firearms. It does not set forth why individual weapons
were seized.
Undisputed insofar as the report includes
weapons in the possession of Defendants as a
result of seizure and voluntary actions of the
listed individuals.
146. Defendants have also produced a fifty-one
page inventory entitled “Firearms Destruction Log”
listing approximately 900 weapons between 2006 and
2016, mostly firearms. (Exhibit DD).
Undisputed.
Defendants,
By their attorneys,

282
/s/ Marc DeSisto
Marc DeSisto, Esq. (#2757)
Patrick K. Cunningham, Esq. (#4749)
DeSisto Law LLC
60 Ship Street
Providence, RI 02903
401-272-4442
marc@desistolaw.com
patrick@desistolaw.com
CERTIFICATION OF SERVICE
I hereby certify that the within document has been
electronically filed with the Court on this 30th day of
January, 2019 and is available for viewing and
downloading from the ECF system.
Thomas W. Lyons, Esq.
tlyons@straussfactor.com
Rhiannon S. Huffman, Esq.
rhuffman@straussfactor.com
/s/ Marc DeSisto
Marc DeSisto

283
Exhibit 3
Deposition Transcript of Officer John Mastrati
May 31, 2018
In The Matter Of: Caniglia vs Strom, et al
Officer John Mastrati
May 31, 2018
ALLIED COURT REPORTERS, INC.
AND VIDEO CONFERENCE CENTERS
* * *
[56] Q. All right. Did you talk to Mr. Caniglia about
his firearms?
A.

I don’t recall.

Q. Okay. Did you ask Mr. Caniglia whether you
could take his firearms?
A.

I don’t recall.

Q. Did you ask Mrs. Caniglia whether you could
take Mr. Caniglia’s firearms?
A. I believe that she suggested that we — she
didn’t want them in the house.
Q.

Okay. Do you recall that specifically?

A. Yes, because there was a second firearm
involved that was, I believe, it was in the garage,
which we wouldn’t have known of and she pointed out.
She’s like there’s also another one in the garage that I
would like to be taken.
Q.

And did she say why she wanted them taken?

A.

For the safety of Edward and herself.

Q. Did Mrs. Caniglia indicate she felt she was in
danger?

284
A. I think initially she was more concerned about
him. I think after the fact, just the incident, she didn’t
want the firearms in the house, just in case there was
an incident that happened after.
* * *
[103] A. Yes.
Q.

Is that what happened?

A.

Yes.

Q. What are the criteria for involuntary emergency psychiatric evaluation?
A. I’m sorry, not involuntary. I believe, yes, it was
involved, but I didn’t have to force him to have to go to
the hospital. I requested it, which he voluntarily did.
Q.

So —

A. So the way — I mean, these are guidelines, I’m
not going to escalate the situation by telling somebody
straight-out, you’re going to the hospital. So I talked
to him, calmed him down, or just made him feel comfortable, and then at that point I said would you want
to talk to someone due to the situation and what’s
going on and all that, which he voluntarily said okay.
Which that would have to do with the hospital, that
had to do with the rescue personnel. Whatever
happened with the rescue personnel, I don’t know.
Q. Did you raise the idea of talking to someone at
the hospital, or did Mr. Caniglia?
A. Bringing it up? Yes, I asked him, would you
want to, to what the incident was. At that point [104]
I felt to help him, maybe suggest, instead of just saying
okay, see you later.
Q.

I don’t understand.

285
A. So, to what the incident was to what I felt I
needed to do, maybe see if he would want to get help
and talk. So instead of just clearing out the call and
just saying, okay, you don’t want to go, not offering
him those services, I don’t feel I would have done
enough for him on that call. So I offered him, hey,
listen, this is what you can do, would you want to do
it, and he stated yes, which I had the rescue come, and
then as far as whatever happened as far as the
transport to the hospital, I don’t know.
Q.

What hospital did he go to?

A.

I believe it was Kent.

Q.

Is Kent a mental health facility?

A. I don’t know. I don’t know what they have to
offer there. That would be more in the hands of the
rescue personnel, because they deal with the hospitals.
Q. Okay. You were not involved determining what
facility Mr. Caniglia went to?
A. No. I have no involvement with him going to the
hospital. My involvement was having him talk [105] to
the rescue personnel who is more trained with the
mental health issues and having them decide from
there. They have their own way of talking to him and
getting him help.
Q. So if the rescue had said he’s fine, he doesn’t
need to go anyplace, you would have been okay with
that?
A.

Yes.

Q. If you go to the next page, Page 3, please, there’s
a section entitled custody; do you see that?
A.

Yes.

Q.

286
Was Mr. Caniglia taken into custody?

A.

No.

Q. Then the two sections underneath there refer to
voluntary admission and involuntary admission; do
you see that?
A.

Yes.

Q. And if I understand correctly, it’s your
position — well, I take it back. You don’t know what
Mr. Caniglia and the rescue people discussed?
A.

No.

Q. So, in terms of whether or not whatever decision
was made, you don’t know whether or not at that point
Mr. Caniglia going to the hospital was
* * *

287
UNITED STATES DISTRICT COURT
DISTRICT OF RHODE ISLAND
————
C.A. No. 15-525
————
EDWARD A. CANIGLIA,
v.

Plaintiff,

ROBERT F. STROM as the Finance Director of the
CITY OF CRANSTON, THE CITY OF CRANSTON, COL.
MICHAEL J. WINQUIST, in his individual and in his
official capacity as Chief of the CRANSTON POLICE
DEPARTMENT, CAPT. RUSSELL HENRY, JR., in his
individual and in his official capacity as an officer
of the CRANSTON POLICE DEPARTMENT; MAJOR
ROBERT QUIRK, in his individual capacity and in
his official capacity as an officer of the CRANSTON
POLICE DEPARTMENT, SGT. BRANDON BARTH, in his
individual capacity and in his official capacity as
an officer of the CRANSTON POLICE DEPARTMENT,
OFFICER JOHN MASTRATI, in his individual capacity
and in his official capacity as an officer of the
CRANSTON POLICE DEPARTMENT, OFFICER WAYNE
RUSSELL, in his individual capacity and in his
official capacity as an officer of the CRANSTON
POLICE DEPARTMENT, OFFICER AUSTIN SMITH,
in his individual capacity and in his official capacity
as an officer of the CRANSTON POLICE DEPARTMENT,
and JOHN and JANE DOES NOS 1-10, in their
individual capacities and their official capacities as
officers of the CRANSTON POLICE DEPARTMENT,
Defendants.
————

288
DEFENDANTS' STATEMENT OF
ADDITIONAL DISPUTED FACTS
147. Sgt. Brandon Barth was the senior CPD
officer present at Plaintiff’s house on August 21, 2015.
(Barth depo. p. 36, excerpts attached as Exhibit FF).
Undisputed.
148. Sgt. Barth heard about the “Community Care
Doctrine” when he prepared for his deposition in this
case. (Id. at p. 9).
Undisputed.
149. Sgt. Barth read about the “Community Care
Doctrine” on Wikipedia in preparation for his
deposition. (Id. at pp. 9-12).
Undisputed.
150. Sgt. Brandon Barth does not know whether
he heard about the “Community Care Doctrine” before
2015. (Id. at p. 11).
Undisputed.
151. Sgt. Barth has no knowledge that the CPD
has any written material about the “Community Care
Doctrine.” (Id. at p. 10)
Objection insofar as he testified “it could be in
there” but he did not know. See id.
152. Sgt. Barth does not recall having any classes
or receiving any materials concerning the Community
Care Doctrine.” (Id. at p. 11).
Undisputed.
153. Sgt. Barth does not recall having any prior
education or training on the issue of dealing with public safety outside the criminal context. (Id. at p. 12-13).

289
Undisputed insofar as he testified that dealing
with public safety outside of the criminal context is standard procedure in his day to day
activities in the police department. See id.
154. Sgt. Barth said the Cranston Rescue does not
do any mental evaluations on any patients. “They just
transport those patients to the hospital.” (Id. at p. 46).
Undisputed insofar as he testified “as far as
[his] knowledge.” See id.
155. Sgt. Barth did not recall whether the CPD
had any written policy or procedure for determining
when it will seek a mental evaluation of a person. (Id.
at p. 47).
Disputed. Barth testified if he had time he
could probably find it. See id.
156. Sgt. Barth does not know the specifics of the
CPD’s policy. “[I] was probably more going on my
experience up until that point . . .” (Id. at p. 47).
Undisputed insofar as he could not recall the
specifics during the deposition.
157. Sgt. Barth has required people to go for mental evaluations “[m]ore times than [he] can count.”
(Id.)
Undisputed.
158. Sgt. Barth did not consult any specific psychological or psychiatric criteria before deciding to sent
Mr. Caniglia for a psychological evaluation. (Id. at pp.
51-52).
Undisputed.

290
159. Sgt. Barth did not consult with any medical
professional before deciding to sent Mr. Caniglia for a
psychological evaluation. (Id. at p. 52).
Undisputed.
160. Sgt. Barth bases his authority to send someone for a psychological evaluation on the Community
Care Doctrine. (Id. at p. 79).
Objection. The cite to the record does not
support the fact statement.
161. Sgt. Barth said that Mr. Caniglia was transported for an “involuntary emergency psychiatric evaluation” under GO 320.09. (Id. at p. 101).
Disputed. See Exhibit 11, July 19, 2018 Deposition Transcript of Sergeant Brandon Barth at
125-126.
162. Sgt. Barth said he determined that Mr.
Caniglia was imminently dangerous to himself or others. (Id. p. 102-03). Sgt. Barth understands “imminent” to mean “immediately.” (Id. at p. 103).
Undisputed.
163. Sgt. Barth has attended CPD training on
dealing with people with mental health issues. (Id. at
p. 105). He does not remember any of that training.
(Id. at pp. 106-09).
Undisputed insofar as the training occurred in
2008, 2011 and 2013.
164. Of the various suicide risk factors in his training, the only ones that Sgt. Barth considered were that
Mr. Caniglia had a gun and he had supposedly said
“he wanted harm done to himself.” (Id. at pp. 111-118).

291
Disputed. Sgt. Barth considered the totality of
the circumstances. See Defendants’ Statement of
Undisputed Facts at 61-62.
165. Sgt. Barth is not aware of any Rhode Island
decision on the community caretaking function that
authorizes police to seize firearms from a person’s residence without a court order. (Id. at p. 121).
Undisputed.
166. Sgt. Barth is not aware of any Rhode Island
decision on the community caretaking function that
authorizes police to require someone to have a psychiatric evaluation without a court order. (Id. at p. 121).
Undisputed.
Defendants,
By their attorneys,
/s/ Marc DeSisto
Marc DeSisto, Esq. (#2757)
Patrick K. Cunningham, Esq. (#4749)
DESISTO LAW LLC
60 Ship Street
Providence, RI 02903
401-272-4442
marc@desistolaw.com
patrick@desistolaw.com

292
CERTIFICATION OF SERVICE
I hereby certify that the within document has been
electronically filed with the Court on this 6th day of
February 2019 and is available for viewing and downloading from the ECF system.
Thomas W. Lyons, Esq.
tlyons@straussfactor.com
Rhiannon S. Huffman, Esq.
rhuffman@straussfactor.com
/s/ Marc DeSisto
Marc DeSisto

293
Exhibit 11
Deposition Transcript of Sergeant Brandon Barth
July 19, 2018
————
[1] UNITED STATES DISTRICT COURT
DISTRICT OF RHODE ISLAND
————
C.A. No. 15-525
————
EDWARD A. CANIGLIA,
vs.
ROBERT F. STROM
as the Finance Director of
THE CITY OF CRANSTON, et al.,
————
DEPOSITION OF SERGEANT BRANDON BARTH,
a witness in the above-entitled cause, taken on behalf
of the Plaintiff, before Devin J. Baccari, CSR, at the
Law Office of Strauss, Factor, Laing & Lyons, One
Davol Square, Suite 305, Providence, Rhode Island, on
July 19, 2018, scheduled at 10:00 a.m.
PRESENT:
FOR THE PLAINTIFF:
STRAUSS, FACTOR, LAING & LYONS
BY: THOMAS W. LYONS, ESQUIRE
RHIANNON S. HUFFMAN, ESQUIRE
FOR THE DEFENDANTS:
DESISTO LAW LLC
BY: PATRICK K. CUNNINGHAM, ESQUIRE

294
[125] Cranston General Order 320.70.
A.

Okay.

Q. And if you could look at Page 2 and small
Roman Numeral iv?
A.

Yes.

Q. In questioning from Mr. Lyons, I believe you
said that Number 6 applied in this instance; is that
correct?
A.

Yes.

Q. Number 6 reads, “Transport for involuntary
emergency psychiatric evaluation if the person’s
behavior meets the criteria for this action”; is that
correct?
A.

Correct.

Q. Isn’t it true, however, that Mr. Caniglia consented to going to get the medical evaluation?
MR. LYONS: Objection.
A. As I said, that there was trepidation with Mr.
Caniglia about going to the hospital, and we try to
refrain as much as we can about physically putting our
hands on somebody. So ultimately once we had enough
of a conversation with him, he willfully walked to the
rescue and got onto it.
Q. (By Mr. Cunningham) Okay. So it wasn’t
involuntary?
* * *

295
UNITED STATES DISTRICT COURT
DISTRICT OF RHODE ISLAND
————
C.A. No. 15-525
————
EDWARD A. CANIGLIA,
Plaintiff
v.
ROBERT F. STROM as the Finance Director of
THE CITY OF CRANSTON, et al.
Defendants
————
PLAINTIFF’S ADDITIONAL STATEMENT
OF DISPUTED AND UNDISPUTED FACTS
Pursuant to LR 56, Plaintiff Edward Caniglia hereby responds to Defendants’ Statement of Additional
Undisputed Facts as follows:1
51. When she called the Cranston Police Department, Mrs. Caniglia believes that she informed the
Cranston Police Department that she and Mr.
Caniglia had had an argument and that Mr. Caniglia
had been depressed. Exhibit K; June 27, 2018 Deposition Transcript of Kim Caniglia at 31-32.

1

Plaintiff incorporates by reference the summary of the facts
set forth in his motion for summary judgment as well as his
Statement of Undisputed Facts filed in support of that motion
and the Statement of Additional Undisputed Facts filed in opposition to Defendants’ motion for summary judgment. Plaintiff will
refer to those specific facts here and throughout this Objection as
SUF ___.

296
RESPONSE: Undisputed for purposes of the
Parties’ Cross Motions for Summary Judgment.
52. Mrs. Caniglia hid the magazine because
Plaintiff was depressed. Id. at 22.
RESPONSE: Undisputed for purposes of the Parties’ Cross Motions for Summary Judgment that Mrs.
Caniglia hid the magazine because she thought Plaintiff was depressed. However, as it turned out, Plaintiff
was not depressed. Rather, he had lung cancer. (Plaintiff’s Statement of Disputed and Undisputed Facts,
# 12).
53. Mrs. Caniglia hoped that Plaintiff could get
some help at the hospital. Id. at 63. She was concerned
about Plaintiff’s depression. Id
RESPONSE: Disputed because Mrs. Caniglia testified that the statement in the Kent Hospital records
was taken out of context and she never made that
statement to Defendants. (K. Caniglia, pp. 63-64,
excerpts attached as Exhibit 1).
54. Mrs. Caniglia did not know why she was not
worried that Plaintiff would use the gun on himself.
Id. at 30.
RESPONSE: Undisputed for purposes of the
Parties’ Cross Motions for Summary Judgment.
55. Officer Mastrati testified that, as a police
officer, he has the legal authority to seize a weapon
from an individual who he thought was suicidal.
Exhibit L; May 31, 2018 Deposition Transcript of John
Mastrati at 27. Under these circumstances, he would
notify a supervisor and the supervisor would make the
decision. Id. He was aware of this as a result of training. Id. at 27, 36-37. Seizing the weapons would be for
the safety of the person and the public. Id. at 36-37, 38

297
RESPONSE: Undisputed that Officer Mastrati so
testified. However, Officer Mastrati could not identify
any Supreme Court case, constitutional provision,
court decision, Rhode Island statute, or Cranston
Police Department (“CPD”) written policy, procedure
or general order that gives him that authority.
(Mastrati depo., pp. 37-39, excerpts attached as
Exhibit 2). Further, he could not identify any formal
training he had received that provided that authority.
(SUF 56).
56. Officer Mastrati believed that Plaintiff was in
a clear and imminent danger of harming himself as a
result of the statements he made to his wife and the
presentation of a firearm. Id. at 107.
RESPONSE: Disputed because Officer Mastrati
could not reasonably have believed that Plaintiff was
in clear and imminent danger of harming himself. To
the contrary, Officer Mastrati testified that he could
not subjectively rule out the possibility that Plaintiff
might be suicidal. (SUF 28, 74-76, 93). His subjective
belief was contrary to CPD general orders, CPD training, as well as Rhode Island’s and other risk factors for
suicide. (SUF 17, 25, 27-28, 34-38, 52-53, 57. 102-106,
136).
57. Officer Smith testified that the Cranston Police
Department can seize a firearm for safekeeping in
non-criminal situations where a supervisor makes a
decision that an individual who has a firearm may
cause harm to himself or a member of the public.
Exhibit M; June 1, 2018 Deposition Transcript of
Austin Smith at 34.
RESPONSE: Undisputed that Officer Smith so testified. However, Officer Smith’s subjective belief does
not establish this authority. He testified that he does

298
not recall any training he received on that topic (Smith
depo. at pp. 17, 23, 26, excerpts attached as Exhibit 5);
he is not aware of any CPD general order or written
policy that sets forth this authority or any written criteria used to make this decision, (Id. at pp. 24, 31, 38);
he is not aware of the CPD’s basis for this purported
authority, (Id. at p. 32); he does not know whether a
CPD Powerpoint presentation on “Search and Seizure,” (SUF 39), sets forth the CPD’s authority to seize
Mr. Caniglia’s firearms, including under the community caretaking function. (Exhibit 5 at pp. 63-66).
58. Officer Barth was familiar with the Community Caretaking Doctrine. Exhibit N; July 19, 2018
Deposition Transcript of Brandon Barth at 9. Officer
Barth testified that the Community Caretaking Doctrine involved the “rights of police officers when it
comes to public safety.” Id. at 12. He practices this type
of public safety daily. Id.
RESPONSE: Undisputed that at the time of his deposition, Officer Barth was familiar with the “Community Caretaking Doctrine.” However, he testified that
he heard about it in preparation for his deposition and
he learned about it on Wikipedia in preparation for his
deposition. (SUF 149). Officer Barth could not say
whether he knew about it before 2015. (SUF 150).
59. Officer Barth is not sure if the specific term
“Community Caretaking” was ever used in training or
whether it was on a particular policy. He was, however, familiar with the theory behind the doctrine in
so far as it concerns public safety and police acting in
non-criminal situations. Id. at 12, 79.
RESPONSE: Undisputed that at the time of his deposition, Officer Barth was familiar with the “Community Caretaking Doctrine.” However, he testified that

299
he heard about it in preparation for his deposition and
he learned about it on Wikipedia in preparation for his
deposition. (SUF 149). Officer Barth could not say
whether he knew about it before 2015 (SUF 150) and
he could not recall having received any prior education
or training on the issue of dealing with public safety
outside the criminal context. (SUF 151-53).
60. Officer Barth testified that police officers need
to maintain public safety “whether it’s an individual
who wants to do harm to themselves or do harm to others” and it’s not a criminal matter and “it’s up to the
police department to maintain safety and order of the
public.” Id. at 12. Moreover, he noted that “sometimes
there could be exceptions to search and seizure rules
[with respect to] maintaining public safety.” Id. at 15.
RESPONSE: Undisputed that Officer Barth so
testified.
61. Officer Barth testified that Plaintiff was
“upset” and “agitated.” Id. at 41, 86, 124.
RESPONSE: Undisputed that Officer Barth testified that Plaintiff was upset and agitated that the
police had gotten involved in the dispute with his wife.
(Barth depo., pp. 88-89, excerpts attached as Exhibit
3). Disputed in that other CPD officers testified that
Plaintiff was “calm,” “normal,” and not suicidal. (SUF
70, 80).
62. Officer Barth considered the totality of the circumstances in dealing with the situation, including,
but not limited to, (1) Mrs. Caniglia decided to leave
the residence, (2) Mrs. Caniglia wanted a police escort
back to her house; (3) Mr. Caniglia had corroborated
what Mrs. Caniglia had informed the Cranston Police;
(4) the fact that Mr. Caniglia brandished a gun and
asked Mrs. Caniglia to shoot him; (5) Mr. Caniglia was

300
agitated and upset. Id. at 41, 56, 82-83, 86-89, 102,
124.
RESPONSE: Undisputed that at different points in
his deposition, Officer Barth said he considered those
points among the “totality of the circumstances,” however, he considered virtually none of the risk factors
for suicide that he had been trained to consider in 2011
and 2013. (SUF 163-164 and SUF Exhibit FF at pp.
108-118).
63. Captain Henry is aware of the Community
Caretaking Doctrine and hears about it periodically.
His understanding of the Doctrine is that “courts recognize that law enforcement needs to take certain
actions relative to the Fourth Amendment without a
warrant that pertains to public safety functions or
emergencies.” Exhibit O; June 13, 2018, Deposition
Transcript of Russell Henry at 24, 26.
RESPONSE: Undisputed that Capt. Henry so testified. Disputed in that he could not identify any specific
training that the CPD had received on the community
caretaking doctrine, except possibly with respect to
mental health topics and that that training would
have covered the police’s authority under the doctrine.
(SUF at Exhibit C, p. 28). He testified that CPD does
not have the authority the police to require a person to
take a psychological evaluation. (Id. at pp. 31-32). He
could not recall any training he had on seizing weapons for safekeeping, (SUF 88), nor could he recall any
court decisions that authorized the seizure of firearms
for safekeeping pursuant to the community caretaking
doctrine. (SUF 94).
64. Captain Henry testified that Courts recognize
that the police may take “reasonable action to prevent
[a] person from killing themselves. A person has a fire-

301
arm that’s thinking of harming themselves or others,
I think the courts recognize police have to take whatever action is necessary to prevent that.” Id. at 25.
RESPONSE: Undisputed that Capt. Henry so testified. Disputed in that he could not identify a single
court decision that had authorized the seizure of firearms for safekeeping. (SUF 94).
65. Captain Henry testified that he believes the
Community Caretaking Doctrine is synonymous with
public safety. Id. at 26.
RESPONSE: Undisputed that Capt. Henry so testified. Disputed in that Capt. Henry testified that the
community caretaking doctrine does not permit the
CPD to require a person to submit to a psychological
evaluation. (SUF 95).
66. Captain Henry may have learned about the
Community Caretaking Doctrine in formal education
or from materials he has read. Id. at 26. He tries to
keep current on the topic by reading current court
cases. Id.
RESPONSE: Undisputed that Capt. Henry so testified. Disputed in that Capt. Henry had no recollection
of whether he learned about the community caretaking function at the police training academy, (Henry
depo. at p. 19, excerpts attached as Exhibit 4); or at
any other formal police training, (Id. at pp. 21-22); or
where specifically he may have heard about it. (Id. at
p. 26). He did not think he or any other CPD officer
had heard about it from any CPD in-service training.
(Id. at pp. 27-28). He did not know whether the CPD
had any written materials on the community caretaking function. (Id. at pp. 29-30). He was not aware of
any specific statute, regulation, CPD GO, or court
decision that set forth the CPD’s authority pursuant

302
to the community caretaking function. (Id. at pp. 3234). He was not aware of any court decision that said
the community caretaking function authorized the
police to seize a person’s firearms from his residence
or to require the person to have a psychological evaluation. (Id.).
67. Captain Henry testified that although the specific phrase “Community Caretaking” may not have
come up in training – the theory of community caretaking may have been discussed in training even
though the particular phrase was not used. Id. at 31.
RESPONSE: Undisputed that Capt. Henry so testified. Disputed in that Capt. Henry had no recollection
of whether he learned about the community caretaking function at the police training academy, (Exhibit 4
at p. 19); or at any other formal police training, (Id. at
pp. 21-22); or where specifically he may have heard
about it. (Id. at p. 26). He did not think he or any other
CPD officer had heard about it from any CPD inservice training. (Id. at pp. 27-28). He did not know
whether the CPD had any written materials on the
community caretaking function. (Id. at pp. 29-30). He
was not aware of any specific statute, regulation, CPD
GO, or court decision that set forth the CPD’s authority pursuant to the community caretaking function.
(Id. at pp. 32-34). He was not aware of any court decision that said the community caretaking function
authorized the police to seize a person’s firearms from
his residence or to require the person to have a psychological evaluation. (Id.).
68. Captain Henry testified that the mental health
training that Cranston Police Officers receive encompassed the concept of the Community Caretaking
Doctrine. Id. at 35.

303
RESPONSE: Undisputed that Capt. Henry testified
that the community caretaking doctrine may have
come up in training with respect to mental health topics and that that training would have covered the
police’s authority under the doctrine. (SUF Exhibit C
at p. 28).
69. Captain Henry testified that Cranston Police
have also been trained on the Community Caretaking
Doctrine related to exceptions to the Search Warrant
Requirement. Id. at 94-95.
RESPONSE: Not disputed that Capt. Henry testified that this was an exception set forth in a
Powerpoint presentation dated January 2016 and that
he was not aware of any Rhode Island decisions
respecting the community caretaking doctrine that did
not involve motor vehicles. (Exhibit 4 at. pp. 94-98).
70. An individual associated with the Cranston
Rescue informed Plaintiff that they were “going to
Kent Hospital” and Plaintiff replied “[f]ine.” Exhibit P,
June 29, 2018 Deposition Transcript of Edward
Caniglia at 44.
RESPONSE: Undisputed that Plaintiff reached an
understanding with Defendants that he would have a
psychological evaluation so that they would not seize
his firearms. (SUF 85). Defendant did not willing
agree to a psychological evaluation. (SUF 85).
71. Officers Russell, Smith, Barth, Henry, and
Mastrati are not involved in the return of seized property. Exhibit N at 58; Exhibit O at 58-59, 63; Exhibit
M at 57; Exhibit L at 100; Exhibit Q; Office Wayne
Russell’s Answer to Plaintiff’s Interrogatory 7.
RESPONSE: Undisputed.

304
EDWARD CANIGLIA
By his attorneys,
/s/ Thomas W. Lyons
Thomas W. Lyons #2946
Rhiannon S. Huffman #8642
RHODE ISLAND AFFILIATE,
AMERICAN CIVIL LIBERTIES UNION
Strauss, Factor, Laing & Lyons
One Davol Square, Suite 305
Providence, RI 02903
(401) 456-0700
tlyons@straussfactor.com
CERTIFICATION
I hereby certify that on February 6, 2019, a copy of
the foregoing was filed and served electronically on all
registered CM/ECF users through the Court’s electronic filing system. Parties may access this filing
through the Court’s CM/ECF system.
/s/ Thomas W. Lyons

305
UNITED STATES DISTRICT COURT
DISTRICT OF RHODE ISLAND
————
C.A. No. 15-525-M-LDA
————
EDWARD A. CANIGLIA
v.
ROBERT F. STROM, as the Finance Director of the
CITY OF CRANSTON, et al
————
DEPOSITION
DEPOSITION of Kim Caniglia, taken in the aboveentitled cause on behalf of the Defendants, pursuant
to notice, before Brenda A. Scharver, Notary Public in
and for the State of Rhode Island, at the offices of
DeSisto Law, 60 Ship Street, Providence, Rhode Island
on June 27, 2018 scheduled for 10:00 a.m.
APPEARANCES:
FOR THE DEFENDANT:
DeSISTO LAW
BY: PATRICK K. CUNNINGHAM, ESQ.
FOR THE PLAINTIFF:
THOMAS W. LYONS, III, ESQ.
* * *
[64] A.

Yes.

Q. Just to clarify, I believe that when I asked this
earlier, you didn't express that hope to any of the
police officers at the scene, that you hoped he could get
some medical help?

306
MR. LYONS: Objection.
A.

No.

MR. CUNNINGHAM: You did not. If you give me
just five minute, maybe not even that long, I may be
finished.
(break taken)
Q.

Just a couple more.

A.

Of course.

Q. Do you have any memory of informing any
Cranston police officer that you wanted the guns
removed from the household for your husband's wellbeing?
A.

No.

Q. Do you have any memory of informing a
Cranston police officer that you did not want the firearm that was in the garage in the house —
MR. CUNNINGHAM: Sorry, strike that. Sorry
that was a bad question.
A.

Thank you.

MR. CUNNINGHAM: Let me try that again.
* * *

307
In The Matter Of: Caniglia vs Strom, et al
Officer John Mastrati
May 31, 2018
ALLIED COURT REPORTERS, INC.
AND VIDEO CONFERENCE CENTERS
* * *
[39] your understanding of your legal authority to
seize the firearms of someone who may be suicidal
come from the in-service training you received?
A.

Yes.

Q. Okay. Just so we’re clear, you don’t recall who
it was who told you that?
A.

No.

Q. Does Cranston use what are referred to as
domestic violence/sexual assault forms?
A.

Yes, DV/SA forms.

Q.

Have you completed a DV/SA form?

A.

Yes.

Q. Under what circumstances do you complete a
DV/SA form?
A. Any incident involving a domestic could be with
a crime, without a crime.
Q. With respect to Mr. Caniglia, do you know if you
completed a DV/SA form?
A.

I don’t believe I did.

Q.

Why not?

A. Because I didn’t believe that incident involved a
domestic at the time. To me it was more of his wellbeing.

308
Q. Okay. The Cranston Police Department has
general orders; is that correct?
* * *

